<html>
<title> - SETTING THE STANDARD: DOMESTIC POLICY IMPLICATIONS OF THE UN DECLARATION ON THE RIGHTS OF INDIGENOUS PEOPLES</title>
<body><pre>[Senate Hearing 112-174]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-174
 
                 SETTING THE STANDARD: DOMESTIC POLICY 
                  IMPLICATIONS OF THE UN DECLARATION 
                  ON THE RIGHTS OF INDIGENOUS PEOPLES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 9, 2011

                               __________

         Printed for the use of the Committee on Indian Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
67-606                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4720372807243234332f222b376924282a69">[email&#160;protected]</a>  


                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. AKAKA, Hawaii, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN HOEVEN, North Dakota
MARIA CANTWELL, Washington           MIKE CRAPO, Idaho
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Loretta A. Tuell, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 9, 2011.....................................     1
Statement of Senator Akaka.......................................     1
Statement of Senator Franken.....................................     2
Statement of Senator Udall.......................................    37

                               Witnesses

Anaya, James, Professor, University of Arizona James E. Rogers 
  College of Law; Special Rapporteur on the Rights of Indigenous 
  Peoples, United Nations Human Rights Council...................    25
    Prepared statement...........................................    27
Coulter, Robert T., Executive Director, Indian Law Resource 
  Center.........................................................    13
    Prepared statement with attachment...........................    16
Ettawageshik, Frank, Executive Director, United Tribes of 
  Michigan with attachments......................................    47
    Prepared statement...........................................    49
Knight, Melanie, Secretary of State, Cherokee Nation.............    81
    Prepared statement...........................................    83
Laverdure, Donald ``Del'', Principal Deputy Assistant Secretary 
  for Indian Affairs, U.S. Department of the Interior............     3
    Prepared statement...........................................     5
Red Corn, Thomas Ryan, Filmmaker; Member, 1491...................    32
    Prepared statement...........................................    34
Robertson, Lindsay G., Judge Haskell A. Holloman Professor of 
  Law; Faculty Director, Center for the Study of American Indian 
  Law and Policy, University of Oklahoma College of Law..........    28
    Prepared statement...........................................    31
Sharp, Fawn R., President, Quinault Indian Nation................    42
    Prepared statement...........................................    44
Yazzie, Duane H., Chairperson, Navajo Nation Human Rights 
  Commission.....................................................    65
    Prepared statement...........................................    68

                                Appendix

Acosta, Tupac Enrique, statement from the May 20, 2009 UN 
  Permanent Forum on Indigenous Issues...........................   167
Ainoa, Vivian, President, Papa Ola Lokahi, prepared statement 
  with attachment................................................   172
American Civil Liberties Union and Human Rights at Home Campaign, 
  joint prepared statement.......................................    98
Amnesty International USA's Native American and Alaska Native 
  Advisory Council, prepared statement...........................   103
Barnett, D'Shane, Executive Director, National Council of Urban 
  Indian Health, prepared statement..............................   133
Black Hills Sioux Nation Treaty Council, prepared statement......   117
Crawford, Jeffrey A., Attorney General, Forest County Potawatomi 
  Community, prepared statement..................................   138
David, Hon. Peter, First Chief, Native Village of Alatna, letter.   195
Deacon, Stacy, Administrative Assistant, Alaska Newspapers Inc., 
  prepared statement with attachment.............................   175
Faleomavaega, Hon. Eni F.H., U.S. Representative from American 
  Samoa, prepared statement......................................   126
Harris, LaDonna, Founder and Chairman of the Board, Americans for 
  Indian Opportunity (AIO), letter...............................   195
Haudenosaunee Confederacy, Onondaga Nation, prepared statement...   182
International Indian Treaty Council, prepared statement..........   110
Keckler, Hon. Kevin C., Chairman, Cheyenne River Sioux Tribe, 
  prepared statement.............................................   141
McCarty, Micah, Chairman, Makah Tribal Council, prepared 
  statement......................................................   180
McDaniels, Hon. Dennis L., Elder Chief, Madesi Band of the Pit 
  River Tribe, prepared statement................................   179
Metis National Council and the International Organization of 
  Indigenous Resource Development, joint prepared statement with 
  attachment.....................................................   119
National Congress of American Indians and Native American Rights 
  Fund, joint prepared statement.................................    93
Parker, Alan R., Secretary, United League of Indigenous Nations, 
  prepared statement with attachment.............................   105
Porter, Robert Odawi, President, Seneca Nation of Indians, 
  prepared statement with attachment.............................   159
Puyallup Tribe of Indians, prepared statement....................   156
Sanders, Tavis (RedTail Hawk ThunderBird), Co-founder of InDEED, 
  prepared statement.............................................   192
Shelby, Velda, Citizen of the Ktunaxa Nation, prepared statement.   170
U.S. Department of State, prepared statement.....................   165


     SETTING THE STANDARD: DOMESTIC POLICY IMPLICATIONS OF THE UN 
            DECLARATION ON THE RIGHTS OF INDIGENOUS PEOPLES

                              ----------                              


                         THURSDAY, JUNE 9, 2011


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:15 p.m. in room 
628, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. Good morning. It is a beautiful day, and 
thank you for all the smiles.
    I call this hearing of the Committee on Indian Affairs to 
order.
    Aloha, and thank you all for being here with us today. 
Toda's hearing is entitled Setting the Standards: Domestic 
Policy Implications of the UN Declaration on the Rights of 
Indigenous Peoples. Before I begin, I want to draw attention to 
the video that was playing as you were here, and I was coming 
here from a vote on the Floor for this hearing. It is called, 
and I am sure you don't know it, you guessed, it was called 
Smiling Indians, and it was produced by one of our witnesses, 
Mr. Red Corn, in response to the more commonly known photos of 
Indians from the turn of the last century. As native peoples, 
it is important for us to tell our own stories from our own 
perspective, especially when common perceptions are not 
accurate ones.
    More than two million Americans are indigenous peoples in 
this Country, members of native nations recognized and also 
those unrecognized. I have long been a proponent of the United 
States setting a high standard where indigenous rights are 
concerned and holding ourselves and the world accountable.
    It is kuiliana, our responsibility on this Committee to 
look at whether additional implementing legislation is needed 
to give true meaning to our support for the Declaration. That 
is our purpose here today, and I am so glad to see all of you 
here and sorry about those who have to stand. But at least, 
there are no empty chairs.
    The declaration affirms that indigenous peoples enjoy all 
the human rights and the fundamental freedoms recognized under 
the UN charter, the Universal Declaration of Human Rights and 
the international law. While I believe we must be a leader in 
the rights of indigenous peoples across the globe, that 
leadership, that leadership must start here at home.
    I want to extend a special mahalo, thank you, to all of 
those who have traveled far to join us today. Vice Chair 
Barrasso from Wyoming is my partner on this Committee, and I am 
happy that we are able to work together on the important work 
that we do here. I want you to know that for me, he is a 
gentleman and a good friend. And Vice Chair Barrasso and I have 
worked together and will continue to do that and try to advance 
the concerns and to help our indigenous peoples of our Country.
    We have assembled a diverse group of witnesses to give wide 
representation to the views on the UN Declaration and what the 
United States can do to better fulfill its goals. I look 
forward to hearing from each of them. But before I do move on, 
and before Vice Chairman Barrasso appears, I would like to call 
my very good friend here, Al Franken, for any statement he 
would like to make at this time. Al? Senator Franken.

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you. Al is fine, for everyone here. 
Or you can call me Senator, or Senator Franken.
    Anyway, thank you, Mr. Chairman, Senator Akaka, Danny, for 
holding this important hearing and thank you to all the 
witnesses for being here, and everyone who is in this room 
today. Unfortunately I will not be able to be here for all the 
testimony, Mr. Chairman, but I wanted to express my sense of 
value for today's hearing.
    President Obama did the right thing by signing the U.S. 
onto the UN Declaration on the Rights of Indigenous Peoples, 
joining virtually every other nation in the world. The 
declaration establishes a framework for recognizing the rights 
of Native Americans and other indigenous peoples. In the 
context of the United States, it sets a standard or an 
aspiration for the Federal Government's responsibilities in its 
government-to-government relationship with sovereign Indian 
tribes.
    Traveling to reservations around my State of Minnesota, 
meeting with tribal leaders, learning about the issues 
important in Indian Country always drives home to me how much 
work we have to do. Whether it is in law enforcement, 
education, housing, unemployment, energy policy or economic 
development, we face many challenges. The Declaration should 
spur us to do more and to do better.
    Take energy development. Tribal areas make up 5 percent of 
land in the United States, but they contain 10 percent of our 
Nation's energy resources. Yet so far, we have missed the 
opportunity to harness these wind, biomass, solar, and 
conventional energy sources. Tribal leaders tell me again and 
again about their inability to access financing, enormous 
regulatory hurdles and a lack of technical assistance. The 
Declaration speaks to precisely those issues and directs us to 
overcome those challenges. That is something we must do. It is 
something I feel is our obligation, Mr. Chairman.
    But this is just one example. I look forward to pursuing 
the many ways that domestic policy can be improved, so that we 
can meet the responsibilities and aspirations spelled out in 
the Declaration. Thank you, Mr. Chairman, and thank you to all 
of you.
    The Chairman. Thank you very much, Senator Franken, for 
your statement. Thank you for your interest in what we are 
doing in this Committee. And I certainly do appreciate it.
    I again want to, because I want to hear from tribes, I want 
to hear from people out there, I will keep the hearing record 
open for two weeks from today. I encourage everyone to submit 
comments or written testimony if you want to be heard about 
what is going on, or if you want to let us know what you are 
thinking. I want to remind the witnesses to please limit your 
oral testimony to five minutes today. Your full written 
testimony will be included in the record.
    So I would like to invite a member of the first panel, Mr. 
Del Laverdure, the Principal Deputy Assistant Secretary for 
Indian Affairs within the Department of Interior to come 
forward. Thank you very much for joining us, Mr. Laverdure. 
Will you please proceed with your statement?

       STATEMENT OF DONALD ``DEL'' LAVERDURE, PRINCIPAL 
DEPUTY ASSISTANT SECRETARY FOR INDIAN AFFAIRS, U.S. DEPARTMENT 
                        OF THE INTERIOR

    Mr. Laverdure. Good afternoon, Mr. Chairman, Members of the 
Committee. My name is Del Laverdure, I am the Principal Deputy 
Assistant Secretary for Indian Affairs at the Department of 
Interior.
    I am pleased to be here today to discuss the United States' 
support for the United Nations Declaration on the Rights of 
Indigenous Peoples.
    Less than 10 months after President Obama was sworn into 
office, he joined members of Congress, Cabinet Secretaries, 
senior Administration officials and hundreds of tribal leaders 
from across the Country at the White House Tribal Nations 
Conference. A number of those tribal leaders recommended to 
President Obama that he reexamine the United States' position 
on the Declaration.
    Six months later, UN Ambassador Susan Rice announced that 
the United States would undertake a formal review of its 
position on the declaration. On December 16th, 2010, at the 
second White House Tribal Nations Conference, President Obama 
announced that the United States would support the Declaration. 
The Administration also released an accompanying document that 
provides a more detailed statement about the United States' 
support for the Declaration and our ongoing work in Indian 
Country.
    The Declaration includes a broad range of provisions 
regarding the relationship between nations, organizations, and 
indigenous peoples. While not legally binding, the Declaration 
has both moral and political force. It is an important 
instrument, in part, because of the breadth of its positions on 
issues of concern to indigenous peoples, including 
consultation, the protection of sacred sites, the protection of 
tribal lands and natural resources and tribal economic and 
social improvement, among others.
    In announcing our support for the Declaration, President 
Obama stated, ``What matters far more than words, what matters 
far more than any resolution or declaration, are actions to 
match those words.'' We are working hard to live up to the 
President's standard of action in a number of ways. First, we 
are reinvigorating Executive Order 13175, Consultation and 
Coordination with Indian Tribal Governments. In November 2009, 
President Obama signed a memorandum directing all Federal 
agencies to develop plans to fully implement the Executive 
Order.
    The Department of Interior published its proposed tribal 
consultation policy in the Federal Register on May 17th. We are 
seeking comments from the public before finalizing the policy.
    President Obama's directive has had its intended effect. 
Tribal consultations are occurring at an unprecedented level 
across the Federal Government. Some tribal leaders will tell 
you that the effect has been too many requests for 
consultations. We are exploring ways to coordinate consultation 
efforts among the different agencies.
    Second, we are also firm in our commitment to the 
protection of tribal lands, territories and natural resources. 
The Department of Interior has made the restoration of tribal 
homelands a priority by improving the fee to trust process. In 
addition, we have also expressed our unqualified support for 
legislation that would address the harmful effects of the 
Carcieri decision.
    The Department recognizes that tribes must be able to 
determine how their homelands will be used. That is why we have 
undertake the most substantial reform to Indian land leasing in 
50 years by revising our Indian leasing regulations.
    Similarly, I recently testified before this Committee in 
strong support of Senate Bill 703, the Hearth Act, which would 
restore tribal authority to govern leasing on tribal lands for 
those tribes that wish to exercise that authority.
    Third, we are also taking many steps to promote economic 
and social development in tribal communities. In partnership 
with Congress, we have provided an infusion of more than $3 
billion into Indian Country through the American Recovery and 
Reinvestment Act. A critical part of promoting the economic and 
social development of Indian, Alaska Native and Native Hawaiian 
communities is to prepare workers for good jobs in knowledge-
based global economy. The Department of Labor has provided a 
number of grants to support employment and training services 
designed to help indigenous Americans.
    Another crucial component of economic and social 
development is the health of our people. President Obama took a 
major step toward addressing health care gaps in tribal 
communities by signing the Affordable Care Act, which 
reauthorized the Indian Health Care Improvement Act.
    In addition, First Lady Michelle Obama has included Indian 
youth in her Let's Move initiative to address childhood 
obesity, by recently launching Let's Move in Indian Country in 
the Menominee Nation.
    Finally, tribal leaders have told us that no community can 
prosper unless its basic needs for public safety are met. This 
Administration worked closely with Congress to improve public 
safety through the enactment of the Tribal Law and Order Act. 
In addition, the Bureau of Indian Affairs has launched an 
intense community policing program on four large reservations 
with high crime rates. We are already seeing promising results 
and hope to expand the program in the near future.
    More than 20 Federal agencies provide a full range of 
programs to Native Americans. I have provided just a few 
examples of our efforts to address the needs of tribal nations 
in ways that utilize and complement the Declaration. We know 
that more needs to be done and we look forward to working with 
this Committee, tribal leaders and representatives from other 
indigenous organizations and communities to ensure that Native 
Americans, like all Americans, have the opportunities that they 
deserve.
    Thank you for the invitation to testify today. I will be 
happy to answer any questions you have.
    [The prepared statement of Mr. Laverdure follows:]

   Prepared Statement of Donald ``Del'' Laverdure, Principal Deputy 
Assistant Secretary for Indian Affairs, U.S. Department of the Interior

    Good afternoon, Mr. Chairman and Members of the Committee. My name 
is Del Laverdure and I am the Principal Deputy Assistant Secretary for 
Indian Affairs at the Department of the Interior. I am pleased to be 
here today to discuss the United States' support for the United Nations 
Declaration on the Rights of Indigenous Peoples (Declaration).

I. Introduction
    On September 13, 2007, the United Nations General Assembly adopted 
the Declaration by a vote of 143 in favor, 11 abstentions, 34 not 
participating, and 4 opposed. The United States was one of the four 
nations that voted against adoption of the Declaration at that time. 
Less than 10 months after President Obama was sworn into office, the 
President held the first White House Tribal Nations Conference, on 
November 5, 2009. \1\ President Obama, joined by Members of Congress, 
several cabinet secretaries and other senior administration officials 
from the Departments of State, Justice, Commerce, Education, Energy, 
Agriculture, Labor, Health and Human Services, Housing and Urban 
Development, and the Interior, and the Environmental Protection Agency, 
met with leaders invited from all of the then 564 federally recognized 
tribes to forge a stronger relationship with tribal governments. During 
the conference, tribal leaders recommended to President Obama that he 
reexamine the United States' position on the Declaration.
---------------------------------------------------------------------------
    \1\ See http://www.whitehouse.gov/photos-and-video/video/president-
obama-opens-tribal-nations-conference.
---------------------------------------------------------------------------
    Six months later, on April 20, 2010, at the United Nation's 
Permanent Forum on Indigenous Issues, Ambassador Susan Rice, the 
Permanent Representative of the United States to the United Nations, 
announced that the United States would undertake a formal review of its 
position on the Declaration, in consultation with Indian tribes and 
with the input of interested nongovernmental organizations. Ambassador 
Rice stated that the United States recognized that ``for many around 
the world, this Declaration provides a framework for addressing 
indigenous issues.'' During the review, the Administration held 
multiple consultation sessions with tribal leaders and other meetings 
with interested groups and individuals. The Administration received 
over 3,000 written submissions. An interagency team reviewed and 
considered all of the comments received and carefully considered the 46 
articles contained in the Declaration.
    On December 16, 2010, at the second White House Tribal Nations 
Conference, President Obama announced the United States' support for 
the Declaration. The President stated that ``[t]he aspirations [the 
Declaration] affirms--including the respect for the institutions and 
rich cultures of Native peoples--are one[s] we must always seek to 
fulfill.'' The Administration also released a document to accompany 
President Obama's announcement that provides a more detailed statement 
about United States' support for the Declaration and our ongoing work 
in Indian Country. \2\
---------------------------------------------------------------------------
    \2\ See Announcement of U.S. Support for the United Nations 
Declaration on the Rights of Indigenous Peoples--Initiatives to Promote 
the Government-to-Government Relationship & Improve the Lives of 
Indigenous Peoples at http://www.state.gov/documents/organization/
153223.pdf.
---------------------------------------------------------------------------
II. The United Nations Declaration on the Rights of Indigenous Peoples
    The Declaration is a not legally binding, aspirational 
international instrument that includes a broad range of provisions 
regarding the relationship between nations, organizations and 
indigenous peoples and individuals. While not legally binding, the 
Declaration has both moral and political force. \3\
---------------------------------------------------------------------------
    \3\ For further explanation of these issues, see http://
www.state.gov/documents/organization/153223.pdf.
---------------------------------------------------------------------------
    The Declaration is an important instrument, in part, because of the 
breadth of its provisions on issues of concern to indigenous peoples, 
including:

  <bullet> Consultation and cooperation before adopting measures that 
    may affect indigenous peoples;

  <bullet> Maintaining, protecting, and accessing in private indigenous 
    religious and cultural sites;

  <bullet> Protecting indigenous lands, territories, and natural 
    resources;

  <bullet> Improvement of the economic and social conditions of 
    indigenous peoples; and

  <bullet> Living in freedom, peace, and security as distinct peoples.

    The United States' support for the Declaration is a milestone in 
the international community's efforts to identify and address the needs 
of indigenous peoples around the world. By supporting the Declaration, 
the United States joined more than 140 countries in support of it, 
including the three other countries that voted against adoption of the 
Declaration in 2007: Australia, Canada and New Zealand.
    The Administration, however, does not see support for the 
Declaration as an end in itself, because--again quoting President 
Obama--``[w]hat matters far more than words--what matters far more than 
any resolution or declaration--are actions to match those words.'' The 
President set a standard of action to which he expects his 
Administration to be held, and we are already being challenged to meet 
that standard. We view this challenge as a good thing. The Obama 
Administration is committed to working with tribal leaders to address 
the many challenges facing their communities. Toward this end, the 
Administration is looking to the principles embodied in the Declaration 
to meaningfully address the challenges that Indian communities face and 
to improve the lives of Native Americans. We are doing this in a number 
of ways.

III. Actions of the United States that Complement the Principles 
        Embodied in the Declaration

A. Consultation and Cooperation Before Adopting Measures That May 
        Affect 
        Indigenous Peoples; and Maintaining, Protecting and Accessing 
        in Private 
        Indigenous Religious and Cultural Sites
    We are working with tribal leaders to identify the matters that 
they believe are priorities for Federal government action and to 
formulate appropriate responses. Indeed, President Obama himself 
reached out to tribal leaders and invited them to Washington, D.C. to 
meet with him and many of his Cabinet officials at the two White House 
Tribal Nations Conferences that I mentioned briefly earlier in my 
testimony. Those sessions gave tribal leaders unique opportunities to 
discuss their priorities with the President and his most senior 
officials. \4\ Many of the priorities identified by tribal leaders at 
both White House Tribal Nations Conferences are very closely related to 
the principles outlined in the Declaration.
---------------------------------------------------------------------------
    \4\ To access the report summarizing the main comments and 
recommendations made by tribal leaders at the December 2010 White House 
Tribal Nations Conference; see http://www.whitehouse.gov/sites/default/
files/Tribal_Nations_Conference_Final_0.pdf.
---------------------------------------------------------------------------
    The first White House Tribal Nations Conference was organized, in 
part, in response to tribal leaders' emphasis on the importance of 
government-to-government consultation with tribes before actions are 
taken that directly affect them. In response, the United States has 
been working to reinvigorate implementation of Executive Order 13175, 
``Consultation and Coordination With Indian Tribal Governments.'' The 
Executive Order requires federal agencies to consult with tribal 
officials on ``policies that have tribal implications,'' a term that is 
broadly defined in the order. To improve the implementation of the 
order, President Obama, at the first White House Tribal Nations 
Conference with tribal leaders, in November 2009, signed a Presidential 
Memorandum directing all U.S. Government agencies to develop detailed 
plans to fully implement the Executive Order. I understand that the 
federal agencies completed their detailed action, plans. For example, 
the Department of the Interior submitted its plan of action on February 
3, 2010, and its proposed consultation policy was published in the 
Federal Register on May 17, 2011. 76 Fed. Reg. 28446 (May 17, 2011). 
The Department is seeking comment from the public before making 
publishing a final consultation policy.
    President Obama's directive has had its intended effect. Tribal 
consultations are at an unprecedented level throughout the U.S. 
government. Indeed, some tribal leaders will tell you that the effect 
has been too many requests for consultations. The Administration is 
therefore exploring ways of coordinating agency requests for 
consultation and of using technology to smooth the consultation 
process.
    One example of a significant ongoing process of consultation with 
tribal leaders is the effort by the U.S. Forest Service (Forest 
Service) in U.S. Department of Agriculture (USDA) regarding sacred 
sites. Because the agency heard from many tribal governments that 
improvements were needed, the Forest Service now engaged in a year-long 
series of tribal consultations to identify better processes that can be 
put in place to protect sacred sites. \5\ This effort also complements 
the principle in the Declaration regarding maintaining, protecting, and 
accessing in private indigenous religious and cultural sites.
---------------------------------------------------------------------------
    \5\  See http://www.fs.fed.us/spf/tribalrelations/
sacredsites.shtml.
---------------------------------------------------------------------------
    Tribal consultations are not only taking place, they are also 
having an effect. For example, in response to concerns expressed by 
tribal leaders, the USDA opened eligibility to the Renewable Energy for 
America Program to tribal business entities, thus improving their 
access to renewable energy program funding.

B. Protecting Indigenous Lands, Territories, and Natural Resources
    The Administration understands that tribal homelands are essential 
to the health, safety, and welfare of Native Americans. Thus, the 
Department of the Interior has made the restoration of tribal homelands 
a priority by improving the process by which it acquires land in trust 
on behalf of tribes and individual Indians. In addition, President 
Obama, Secretary Ken Salazar, Assistant Secretary--Indian Affairs Larry 
Echo Hawk, and I have all expressed our support for legislation that 
would address the harmful effects of the 2009 U.S. Supreme Court 
decision in Carcieri v. Salazar, which held that under the Indian 
Reorganization Act of 1934 the Federal Government cannot take land into 
trust for Indian Tribes not under Federal jurisdiction in 1934.
    The Department also recognizes that Indian tribes must be able to 
determine how their homelands will be used. That's why we are revising 
our regulations governing leasing on Indian lands. Once completed, we 
believe this effort will mark the most significant reform to Indian 
land leasing in 50 years. The Department's revisions will streamline 
the process by which leases of Indian lands are approved, thereby 
promoting homeownership, economic development, and renewable energy 
development on tribal lands. We conducted three tribal consultation 
sessions on this initiative in April, and are now reviewing and 
considering all tribal comments on the draft leasing regulations. Once 
that is completed, the Department will proceed to a formal Notice of 
Proposed Rulemaking. We intend to conduct further consultation at that 
time, in addition to receiving public comments on the proposed 
regulations. As it stands, our plan is to complete the rulemaking for 
these regulations in early 2012.
    I also recently testified before this Committee in strong support 
of S. 703, the Helping Expedite and Advance Responsible Tribal 
Homeownership Act of 2011, which would restore tribal authority to 
govern leasing on tribal lands, for those tribes that wish to exercise 
that authority. Under this legislation, tribes would submit their own 
leasing regulations to the Secretary for approval, and then process 
leases under tribal law without prior express approval from the 
Secretary of the Interior. \6\ This bill has the potential to 
significantly reduce the time it takes to approve leases for homes, 
small businesses, and renewable energy.
---------------------------------------------------------------------------
    \6\ See http://indian.senate.gov/hearings/upload/Donald-Laverdure-
testimony-S-636-S-703.pdf.
---------------------------------------------------------------------------
C. Improvement of the Economic and Social Conditions of Indigenous 
        Peoples
    As we all know, the global economic downturn has affected 
communities all across the country. But Native Americans have been hit 
particularly hard. The Administration has responded by taking many 
steps to promote economic and social development in Native American 
communities in both the short and the long terms.
    Through the American Recovery and Reinvestment Act of 2009, Pub. L. 
No. 111-5, the Administration provided an infusion of more than $3 
billion into Indian Country to improve infrastructure and provide jobs. 
\7\ More than $22 million of this money was provided through the 
Department of the Interior's program to improve housing in tribal 
communities.
---------------------------------------------------------------------------
    \7\ http://www.bia.gov/idc/groups/public/documents/text/
idc010971.pdf.
---------------------------------------------------------------------------
    Perhaps the most important long-term investment for any country, 
people, or individual is in education. Tribal leaders have stressed, in 
particular, the importance of greater tribal control over the education 
of Native American students. The Administration has proposed changes to 
enhance the role of tribes in the education of their youth and to give 
them greater flexibility in the use of federal funds to meet the unique 
needs of Native American students. We have also accelerated the 
rebuilding of schools on tribal lands and are working to improve the 
programs available at tribal colleges.
    A critical part of promoting the economic and social development of 
Indian, Alaska Native, and Native Hawaiian communities is to prepare 
workers from these communities for good jobs in the knowledge-based 
global economy. Grants under section 166 of the Department of Labor's 
Workforce Investment Act (WIA) support comprehensive employment and 
training services and targeted assistance designed to help indigenous 
Americans, including those with multiple barriers to employment, obtain 
the education, work experience, and skills needed to secure good jobs, 
especially in high-growth industries.
    Another crucial component of economic and social development is the 
health of our people. Yet health care is often insufficient in 
indigenous communities.
    President Obama took a major step towards addressing health-care 
gaps (for both indigenous and non-indigenous communities) by signing 
into law last year the Affordable Care Act, Pub. L. No. 111-148. 
Significantly, the Act provides permanent authorization for the Indian 
Health Care Improvement Act, which modernizes and updates the Indian 
Health Service, which provides health services for approximately 1.9 
million American Indians and Alaska Natives in 35 states. The 
Administration expects this law to improve the lives and health of 
Native Americans.
    First Lady Michelle Obama has also made a particular effort to 
involve Native American youth in her ``Let's Move!'' initiative to 
address childhood obesity. On May 25, 2011, the First Lady launched 
Let's Move! in Indian Country (LMIC) at the Menominee Nation in 
Keshena, Wisconsin. \8\ In addition, the First Lady and American Indian 
youth planted native seeds of corn, beans and squash in the White House 
Kitchen garden last Friday. LMIC brings together federal agencies, 
communities, nonprofits, corporate partners, and tribes to end the 
epidemic of childhood obesity in Indian Country within a generation. To 
further the efforts of LMIC, the First Lady recruited Native American 
athletes, like football stars Sam Bradford, a member of the Cherokee 
Nation, and Levi Horn, a member of the Northern Cheyenne Tribe, to 
encourage Indian kids to adopt healthy lifestyles.
---------------------------------------------------------------------------
    \8\ See http://www.letsmove.gov/indiancountry.
---------------------------------------------------------------------------
    One public-health challenge on which we are focusing particularly 
intensely is the unacceptably high rate of suicide by Native American 
youth. From November of 2010 through February of 2011, the 
Administration held listening sessions with tribal leaders from across 
the country on suicide prevention. These listening sessions sought 
input from tribal leaders on how the Bureau of Indian Affairs, the 
Indian Health Service, and the Substance Abuse and Mental Health 
Services Administration can effectively work with Indian tribes to 
prevent suicide. These listening sessions will culminate in two 
national conferences on this topic. The first conference will be in 
Scottsdale, Arizona, in August, and the second conference will be later 
this year in Alaska.
    Tribal leaders who have met with President Obama have stressed to 
him the importance of investment in infrastructure. President Obama 
agrees and we have supported many economic development initiatives that 
are focused on the needs of Native Americans. One exciting initiative 
was the announcement in December by Energy Secretary Chu of the 
establishment in the Department of Energy of an Office of Indian Energy 
Policy and Programs, led by a member of the Cheyenne River Sioux Tribe. 
The office is charged with directing and implementing energy planning 
and programs that assist tribes with energy development and 
electrification of Indian lands and homes. It has done extensive 
outreach to Indian tribes regarding energy issues on tribal lands and 
last month held a Department of Energy Tribal Summit that brought 
together over 350 participants, including tribal leaders and high-
ranking cabinet officials, to interact directly on energy development 
and related issues. \9\
---------------------------------------------------------------------------
    \9\ See http://www.energy.gov/indianenergy/tribalsummit.htm.
---------------------------------------------------------------------------
    The Administration is also working with tribal leaders to bring 
their communities into the 21st Century by equipping them with high-
speed access to the Internet. Both the USDA and the U.S. Department of 
Commerce (Commerce) have programs to do so. USDA awarded loans and 
grants worth over $133 million to expand broadband access in tribal 
communities in the continental United States and an additional $122 
million to provide high-speed Internet infrastructure across many 
Native Villages in Alaska. Similarly, Commerce awarded approximately 
$1.4 billion for broadband projects to benefit tribal areas.
    These infrastructure investments go hand in hand with a wide range 
of projects to create jobs in Indian communities and prepare Native 
Americans to fill them.

D. Living in Freedom, Peace, and Security as Distinct Peoples
    As we have been told repeatedly by tribal leaders, no community can 
prosper, economically or socially, unless its basic needs for public 
safety are met. For this reason, this Administration has taken a number 
of steps to strengthen tribal police and judicial systems. More 
flexible funding has been key. But perhaps more fundamental was the 
July 2010 signing by President Obama of the Tribal Law and Order Act 
(TLOA), Pub. L. No. 111-211. As you know, this comprehensive statute is 
aimed at improving public safety on tribal lands, including 
unacceptably high rates of violence against women. TLOA gives tribes 
greater authority to prosecute crimes and increases federal 
accountability for public safety in tribal communities. Moreover, in 
anticipation of the reauthorization of the Violence Against Women Act, 
this month, the Department of Justice will hold tribal consultation 
sessions to solicit recommendations from tribal leaders on whether 
additional Federal statutory authorities could enhance the safety of 
Native American women. \10\
---------------------------------------------------------------------------
    \10\ See http://www.tribaljusticeandsafety.gov/inv-ltr-framing-
paper.pdf.
---------------------------------------------------------------------------
    In a related initiative, the Bureau of Indian Affairs launched an 
intense community-policing pilot program on four reservations with high 
crime rates. Operation Alliance provided 560 uniformed officers from 
four Interior bureaus and the USDA Forest Service who performed 10,000 
officer days of police service to tribal communities. The officers far 
exceeded traditional law enforcement duties by also performing social 
and community service projects to build positive relationships and 
partnerships with the communities. The Department is already seeing 
promising results in decreased crime rates and the Bureau hopes to 
expand the program in the near future.

IV. Conclusion
    There are over 20 Federal departments and agencies that provide a 
full range of programs to Native Americans. I have given you a few 
examples today to help demonstrate the extent of our Administration 
wide initiatives to address the needs of Native American governments 
and communities across our country in ways that complement the United 
States' support for the Declaration. However, we recognize that a lot 
more needs to be done and we look forward to working with Congress, 
tribal leaders, other indigenous peoples and representatives from other 
indigenous organizations and communities to ensure that Native 
Americans, like all Americans, have the opportunities they deserve.
    Thank you for the invitation to present testimony on the United 
States' support for the Declaration. I will be happy to answer any 
questions you may have.

    The Chairman. Thank you very much for your statement. It 
was wonderful to know of the support that is coming from our 
Administration and really to present it directly, coming from 
the President and Department of Interior and also from your 
office in supporting the Declaration of the UN, and noting the 
ways in which we can support it.
    And so let me ask you, and we may have other questions as 
well, do you believe the United States can be a world leader in 
indigenous rights? And that our current Indian law framework is 
the best model for implementing indigenous rights worldwide? 
And another part of that is, how can the U.S. improve our 
framework?
    Mr. Laverdure. Thank you for the questions, Mr. Chairman. 
In terms of being a world leader, I think that the United 
States has been a world leader. And most recently, I traveled 
to New York City to the UN Permanent Forum. And at that time, 
collaborated and discussed with the four most recent countries 
to declare their support for the declaration, New Zealand, 
Canada and Australia. I think that even though we were looking 
for best practices among the groups for the rights of 
indigenous peoples, we felt that the framework for the United 
States was very solid. Certainly more could be done and should 
there be changes that are requested to improve that, where 
appropriate, we certainly look forward to working with the 
Congress to make those improvements.
    We do view the Declaration as being an aspiration and non-
binding. But because it has that moral and political force that 
we utilize and complement it with all of the programs which are 
detailed in the announcement that accompanied the President's 
statement on all the things that we're trying to do in the 
Obama Administration.
    The Chairman. I am glad to hear what you said. I take it as 
you saying that you look forward to working with Congress on 
this, even if we need some legislative changes. I think you did 
indicate that our Indian law framework is probably the best 
model that we have today. I take that deeply, because I know 
your background certainly is in these areas. If anybody knows 
frameworks of the American Indians, you are the one.
    This is why I wanted to hear from you about what you 
thought about that kind of a standard.
    Do you have an idea of how we can improve our U.S. 
framework?
    Mr. Laverdure. I am sure there are a number of ways, 
certainly in my capacity previously as General Counsel, prior 
to this appointment, some of the considerations that Senator 
Franken had brought up about energy development, reducing 
barriers, that is the types of things that triggered some of 
the initiatives that we have today, which was to pull back any 
of the barriers in the leasing which are more than 50 years 
old. And down the line, whether it is some avenues of 
recognition reform which we have discussed with your staff. I 
think that the number of experts that are about to go on these 
next panels will certainly have a number of recommendations and 
we look forward to listening and hearing from those and seeing 
what we can work toward.
    The Chairman. Thank you. And thank you for quoting the 
President as saying that we have to put things in action from 
our words. That is good for the Congress as well as the 
Administration, to work together on.
    In promoting the rights identified in the Declaration, and 
I know again, I regard you as one who knows it well, what steps 
are being taken by the Department of Interior or the 
Administration to identify and review regulations, laws and 
policies for consistency with the Declaration? And then to 
develop proposals to bring them in line with that?
    Mr. Laverdure. Thank you, Mr. Chairman. President Obama had 
signed and released a memo that directed all the Federal 
agencies to look toward efficiencies and streamlining Federal 
processes, some of them in the larger context including hiring 
of Federal employees and the like, which have been announced in 
other media outlets.
    So too have we in Indian Affairs looked for that review. 
And that is, we have an Office of Collaboration and Regulatory 
Affairs which monitors things. The types of things that we have 
looked at are recognition reform in a regulatory manner, the 
leasing regulatory reform. We started the process on the Buy 
Indian Act provisions to have regulations to implement the 
statute which is a little over 100 years old.
    And in the renewable context, which is a presidential and 
secretarial initiative, we have a new sub-part on wind and 
solar leasing, which we want to implement within the leasing 
regulations, so that we have a foundation for tribes to measure 
when they choose to develop renewable resources, they have a 
foundation to work from in order to move forward on that. And 
involving less permitting and regulatory pieces by the Bureau, 
and more control by the tribes in that process as well.
    So those are four major areas that we have looked at. We 
have certainly utilized and looked to the Declaration's 
principles on trying to meet those high standards.
    The Chairman. Fine. Thank you. We will have another round. 
So let me ask Mr. Franken for any questions that he may have at 
this time.
    Senator Franken. Thank you, Mr. Chairman. I may not be able 
to stay for another round.
    Mr. Laverdure, in the President's announcement of support 
for the Declaration, the Administration listed Indian school 
construction as an area that needs to be improved. This is an 
issue that I have brought up in this Committee many, many 
times. There is currently at least a $1.3 billion backlog of 
school construction and repair needs in Indian Country, 
including on many of the reservations in my State.
    And yet, the Administration only requested $52 million for 
Indian school construction as part of the fiscal year 2012 
budget proposal. Can you explain to me why the President 
requested such a low number, especially given the fact that by 
the Administration's own evaluation, Indian school construction 
policies need to be improved?
    Mr. Laverdure. Thank you for the question, Senator Franken. 
I think that the thought was that the Recovery Act had helped 
expedite the list that had the backlog that you referred to, 
that there were, in that case, five new and replacement schools 
that were provided, and a whole host of facilities improvements 
that were provided under the Recovery Act. And that the 
corresponding match, that the previous totals had gone down and 
that we principally viewed the Recovery Act as taking the place 
of requesting much larger amounts and balancing all the 
priorities for tribal communities in the budget.
    A couple of the priorities that we heard typically from the 
Advisory Committee, the Tribal Budget Advisory Committee, has 
been on contract support costs and the foundation, the floor, 
whenever they are exercising self-determination contracts and 
self-governance contracts, that that has been the priority 
stated from the Budget Advisory Committee. So we have focused 
on increases there as well as law enforcement and the like.
    Senator Franken. But that $1.3 billion backlog is what is 
estimated after the stimulus package, right?
    Mr. Laverdure. I believe that is accurate. I think that the 
challenges with the annual budget for both the Bureau of Indian 
Affairs and Bureau of Indian Education, the total amount being 
$2.5 billion, when you have a backlog of that size, assuming 
that the entire budget isn't increased correspondingly, then 
you have to pick and choose.
    Senator Franken. The entire budget for school construction, 
Indian school construction, is $52 million. What is the cost to 
build the average school in Indian Country?
    Mr. Laverdure. I think it varies on the size. But I assume 
that there would be, you would get a few schools out of that 
budget as opposed to replacement parts, not an entire new 
school.
    Senator Franken. Okay, this gets you one school, 
essentially. I have to say that I hear a lot of frustration 
from the tribes that I speak to and the chairmen that I speak 
to and the members of the tribes that I speak to about the 
Bureau of Indian Affairs and the bureaucracy and the 
responsiveness of it. Have you heard anything like that?
    Mr. Laverdure. Yes.
    Senator Franken. What are you doing about it?
    Mr. Laverdure. Well, the types of things, Senator, that I 
previously stated, which was all these reform efforts, 
management changes, and the like. And then we chose a new BIE 
director. And that is coordinated with the Office of Facilities 
Management. But certainly much more needs to be done.
    Senator Franken. Okay. Well, I thank you for your 
testimony. Mr. Chairman, my time is up and I do have to leave 
for another hearing. Thank you very much, sir.
    The Chairman. Thank you very much for your questions, 
Senator Franken.
    Mr. Laverdure, the Declaration is a fairly comprehensive 
assessment of the rights of indigenous peoples worldwide. Do 
you have, and let me stress this, an opinion, an opinion as to 
which articles or rights are not currently adequately expressed 
in our Federal law? And which ones may provide the greatest 
challenges to implement?
    Mr. Laverdure. Thank you, Chairman, for that question. Out 
of the 40 plus articles, there are some in the agency review 
that I think various different agencies felt were fulfilled and 
augmented or complemented. There were some that had much more 
work to be done.
    And in my opinion, you would have to go article by article 
on those, which was done during the review. I didn't personally 
sit in all of those meetings, but the agencies reviewed each of 
those. I think the challenges and the interpretation of the 
articles is laid out in that very detailed announcement of 
support when the President announced his support for it. I 
think that contains examples of successes and also areas that 
are challenges that remain.
    The Chairman. I hope we will have some time to look at that 
again closely for the purpose of seeing what we should be doing 
about that, and ones that will be causing challenges for us to 
implement.
    Does the Federal Government support tribes in their 
understanding that it is a tribe's sovereign right to govern 
cultural heritage by developing tribal laws? The question is, 
does the Federal Government support tribes in their 
understanding on sovereign rights to govern?
    Mr. Laverdure. Thank you, Mr. Chairman. Yes, we do believe 
it is in tribes' inherent sovereign right, and the government-
to-government relationship, to regulate tribal cultural 
identity and cultural heritage.
    The Chairman. Thank you for being so concise on that. We 
appreciate your work and look forward to continuing to work 
with you. I want to tell you that I really appreciate your 
being present here and regard your opinions and your statements 
as being valuable to us and to give us an idea also how the 
Administration feels about these concerns. And when we can 
understand that and work together on it, without question, we 
will be helping the indigenous peoples as much as we can.
    I also want to conclude with you by giving you a chance 
again, your opinion as to whether you have any ideas of how we 
can work better together as partners in helping our indigenous 
peoples.
    Mr. Laverdure. Thank you, Mr. Chairman. I think in my 
opinion to have continuous communication with the chief of 
staff and the others on both sides, and to look at the areas 
where we can get movement on sometimes existing legislation 
that is there that hasn't quite made it all the way through, 
and that we would promise to work in partnership with you on 
whatever it takes to improve the lives of indigenous people 
here.
    The Chairman. Thank you. I want to thank you very much for 
coming today. I really appreciate your contribution to the 
hearing. Thank you very much.
    Mr. Laverdure. Thank you, Mr. Chairman.
    The Chairman. And now I would like to invite the second 
panel to please come forward to the witness table. And they 
will be Robert Coulter, the Executive Director for the Indian 
Law Resource Center in Helena, Montana; James Anaya, a United 
Nations Special Rapporteur on the Rights of Indigenous Peoples, 
and lives in Tucson, Arizona. Also we have Lindsay Robertson, a 
Professor and Faculty Director of the American Indian Law and 
Policy Center at the University of Oklahoma School of Law in 
Norman. And Ryan Red Corn, an Osage Member of the 1491s, a 
group of young Native film makers and actors. Mr. Red Corn 
joins us from Pawhuska, Oklahoma. Let me thank you so much for 
the clip that we are able to show here and really appreciate 
that.
    So welcome to all of you. Mr. Coulter, will you please 
proceed with your testimony?

STATEMENT OF ROBERT T. COULTER, EXECUTIVE DIRECTOR, INDIAN LAW 
                        RESOURCE CENTER

    Mr. Coulter. Thank you, and good afternoon, Mr. Chairman.
    I am a member of the Citizen Potawatomi Nation and as you 
said, I am head of the Indian Law Resource Center.
    The Declaration on the Rights of Indigenous Peoples was 
initiated in 1976, primarily by American Indian leaders, but 
with the participation and support of Indian leaders from 
Central and South America. American Indian leaders turned to 
the international community principally because of the 
longstanding failure of the United States courts and Federal 
law to recognize that Indian nations and other native peoples 
in this country are entitled to constitutional rights and to 
equality before the law. That was denied to us then and it is 
denied to us now.
    Indian and other native nations in this country live with a 
system of Federal law today that is unconstitutional; it is 
discriminatory, and it is unworkable. It makes it almost 
impossible for native nations to overcome the social and 
economic conditions that they endure. It is like the separate 
but equal doctrine, it is like the Jim Crow laws that oppressed 
African Americans and others for many years in this country.
    The Federal courts, for example, say that the United States 
Government can take Indian property, Indian land, without due 
process of law and without any compensation. And this 
Government does do that today. Congress claims that it has 
plenary power to do as it wishes when it legislates about 
Indian and other native nations, without regard for the Bill of 
Rights and without regard for the limitations of the 
Constitution. Congress believes that it can terminate Indian 
nations. It is said that this body can do away with Indian 
governments at will, without limitation, can violate treaties, 
normally without any legal liability, and so on, under the so-
called plenary power doctrine.
    The Federal courts routinely approve of Federal legislation 
that would be declared unconstitutional if it affected any 
other group in this country. Well, the Declaration calls upon 
the United States to put an end to that kind of discriminatory 
legal doctrine and that kind of unconstitutional treatment. The 
Declaration is an international human rights instrument that is 
non-binding. But it does recognize rights, and it recognizes 
the rules that countries are expected to follow when they deal 
with indigenous peoples. It is supported by global consensus. 
No country in the world opposes the Declaration today.
    The Declaration includes many rights, including the right 
of self-determination, the right to be free from 
discrimination, rights of women, native women; these are very 
important. Rights to land and resources, real rights of 
ownership, not diminished rights, such as Federal law usually 
accords.
    Well, what does all this mean? Others, I am sure, will 
elaborate more on what those rights are in the Declaration. But 
what should it mean for Congress? What should Congress do? 
Congress should, I believe, embrace the Declaration. I am very 
pleased with the words that you have spoken here today.
    Congress should embrace the Declaration, because it is 
American. It is based on American values. It is American in its 
origin. It is an agenda for change that can easily be embraced. 
And it would be very positive.
    But the practice of enacting legislation that takes the 
property of Indian nations or other native nations must come to 
an end. This country doesn't need to go on taking things from 
Indian nations. Congress must give up the notion that when it 
legislates in the field of Indian affairs or with regard to 
other indigenous peoples ``subject to its jurisdiction, that it 
can ignore the Bill of Rights or the other limitations in the 
Constitution.''
    Native peoples too are entitled to Constitutional rights 
and to equality before the law. Native leaders are reviewing 
now what kind of proposals they want to make. And Congress 
should listen carefully to those proposals when they make them.
    Now, a starting point for some of the changes that could be 
made in Federal Indian law is the set of principles, general 
principles of law in this study that the Indian Law Resource 
Center has done. I will be submitting the entire study for the 
Committee's use. The Congress, this Committee, should conduct 
further hearings in the future to monitor what the 
Administration does to carry out the aspirations it has so well 
proclaimed and so well embraced. Let us see what progress is 
being made and whether we are getting at the root issues.
    Congress should, I believe, also conduct oversight hearings 
and consider what Congress could do to correct the many 
damaging, and I believe unconstitutional, decisions that have 
been made by the Federal courts. It was, after all, the Supreme 
Court of the United States in 1955 that said that this 
Government can take the property of Indian nations without any 
compensation and without due process. That was invented by the 
Supreme Court. And there are other doctrines like that that 
Congress didn't invent, the courts did. And they need to be 
reviewed, they need to be changed in order to come into 
compliance with the Declaration. I believe Congress can find 
ways to help in that important process.
    Thank you very much for having this oversight hearing, and 
I look forward to questions.
    [The prepared statement of Mr. Coulter follows:]

Prepared Statement of Robert T. Coulter, Executive Director, Indian Law 
                            Resource Center

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you so much for your statement. 
Personally, I really appreciate it.
    Now we will hear from James Anaya. Will you please proceed 
with your statement?

  STATEMENT OF JAMES ANAYA, PROFESSOR, UNIVERSITY OF ARIZONA 
   JAMES E. ROGERS COLLEGE OF LAW; SPECIAL RAPPORTEUR ON THE 
   RIGHTS OF INDIGENOUS PEOPLES, UNITED NATIONS HUMAN RIGHTS 
                            COUNCIL

    Mr. Anaya. Thank you, Mr. Chairman. As you mentioned, I 
live in Tucson, Arizona. I am a Professor at the University of 
Arizona College of Law in that city.
    Earlier this year, I was reappointed by the United Nations 
Human Rights Council as its Special Rapporteur on the Rights of 
Indigenous Peoples. My mandate from the Council, whose 
membership includes the United States, is to address the human 
rights conditions of indigenous peoples worldwide through 
various means, including by promoting the Declaration on the 
Rights of Indigenous Peoples.
    I would like to begin my testimony by stressing that the 
Declaration is an expression of a global consensus about the 
rights of indigenous people that has developed over decades 
upon a foundation of widely accepted international human rights 
principles. The Declaration makes clear that indigenous peoples 
are subjects of international concern. That is something that 
was understood by the founders of this Country, and in the 
early Supreme Court jurisprudence, but was lost to subsequent 
generations of political actors.
    The various provisions of the Declaration build upon core 
principles of self-determination and equality within a model of 
social cohesion that value diverse cultures and peoples. In 
fundamental respects, the Declaration is a remedial instrument 
aimed at addressing patterns of social exclusion, 
discrimination, cultural suffocation and even physical 
extermination that indigenous peoples have experienced and 
endured in ways not felt by others.
    The Declaration itself calls upon States and the 
international community as a whole to take affirmative measures 
to bring the actual conditions of indigenous peoples into 
conformity with the rights that are articulated in this 
instrument. The endorsement of the Declaration by the Obama 
Administration on behalf of the United States is a welcome 
signal to the world that the United States joins in both the 
global consensus about the rights of indigenous peoples and in 
the concerted call for action to make those rights a reality. 
Although the Declaration is not itself a treaty, it is a 
strongly authoritative statement that builds upon the 
provisions of multilateral human rights treaties to which the 
United States is abound as a party within the broader 
obligation of the United States to advance human rights under 
the United Nations charter.
    The Declaration is meant to serve as a frame of reference 
for reflecting upon the existing conditions of indigenous 
peoples, and the laws and policies that affect them, as well as 
a standard for developing needed reforms and programmatic 
action, both within domestic settings and at the international 
level. Legislative bodies, such as this one, should look to the 
Declaration to help guide its priorities and action. I am 
hopeful that this hearing will be an important step toward that 
end.
    The Declaration has bearing as well for executive agencies 
whose actions and responsibilities touch upon the interests of 
Native Americans in a multitude of ways. I am encourage to hear 
that already a number of executive agencies are learning about 
the Declaration and considering how to use it in decision-
making.
    Additionally, the courts should take account of the 
Declaration in appropriate cases concerning indigenous peoples, 
just as Federal courts, including the Supreme Court, have 
referred to other international sources to interpret statutes, 
constitutional norms and legal doctrines in a number of cases.
    Finally, I would like to point out that the United States 
has an important role to play in promoting the Declaration, 
both at home and abroad, as you, Mr. Chairman, have noted. In 
addition to guiding action concerning Native nations within the 
United States, the Declaration should also help guide the 
Federal Government's foreign aid, which in many places across 
the globe touches upon the lives of indigenous peoples. And the 
Declaration should be an important focal point of the United 
States' cooperation to advance human rights in multi-lateral 
settings, including at the UN.
    In my role as United States Special Rapporteur on the 
Rights of Indigenous Peoples, I look forward to pursuing 
discussions with the United States Government and tribal 
leaders through appropriate channels and procedures, 
discussions on how the Declaration can help catalyze action to 
address the aspirations of indigenous peoples in this Country 
and to fulfill unfulfilled promises.
    I believe that the United States' cooperation with the 
international system in this and other ways will not only help 
to advance the Declaration's objectives in this Country but 
will also contribute to greater cooperation within the United 
Nations and worldwide to advance the rights of indigenous 
peoples in keeping with the Declaration.
    Mr. Chairman, the United States was a principal leader in 
the UN's adoption in 1948 of the Universal Declaration of Human 
Rights and has since then been a leader in pursuing 
implementation of that declaration. Mr. Chairman, the United 
States can and should now play that leadership role again.
    I thank you very much, Mr. Chairman, for your attention.
    [The prepared statement of Mr. Anaya follows:]

  Prepared Statement of James Anaya, Professor, University of Arizona 
  James E. Rogers College of Law; Special Rapporteur on the Rights of 
        Indigenous Peoples, United Nations Human Rights Council

    Mr. Chairman, Members of the Committee, my name is James Anaya. I 
am a professor at the University of Arizona James E. Rogers College of 
Law in Tucson. Earlier this year I was reappointed by the United 
Nations Human Rights Council as its Special Rapporteur on the Rights of 
Indigenous Peoples. My mandate from the Council, whose membership 
includes the United States, is to address the human rights conditions 
of indigenous peoples worldwide through various means, including by 
promoting the Declaration on the Rights of Indigenous Peoples.
    I would like to begin my testimony by stressing that the 
Declaration is an expression of a global consensus about the rights of 
indigenous peoples that has developed over decades, upon a foundation 
of widely accepted international human rights principles. The 
Declaration makes clear that indigenous peoples are subjects of 
international concern, something that was understood by the founders of 
this country and in early Supreme Court jurisprudence but was lost to 
subsequent generations of political actors.
    The various provisions of the Declaration build upon core 
principles of selfdetermination and equality, within a model of social 
cohesion that values diverse cultures and peoples. In fundamental 
respects the Declaration is a remedial instrument, aimed at addressing 
patterns of social exclusion, discrimination, cultural suffocation, and 
even physical extermination that indigenous peoples have experienced in 
ways not felt by others. The Declaration itself calls upon States and 
the international community as a whole to take affirmative measures to 
bring the actual conditions of indigenous peoples into conformity with 
the rights that are articulated in this instrument.
    The endorsement of the Declaration by the Obama administration on 
behalf of the United States is a welcomed signal to the world that the 
United States joins in both the global consensus about the rights of 
indigenous peoples and in the concerted call for action to make those 
rights a reality. Although the Declaration is not itself a treaty, it 
is a strongly authoritative statement that builds upon the provisions 
of multilateral human rights treaties to which the United States is 
bound as a party, within the broader obligation of the United States to 
advance human rights under the United Nations Charter.
    The Declaration is meant to serve as a frame of reference for 
reflecting upon the existing conditions of indigenous peoples and the 
laws and policies that affect them, as well as a standard for 
developing needed reforms and programmatic action both within domestic 
settings and at the international level. Legislative bodies, such as 
this one, should look to the Declaration to help guide its priorities 
and action, and I'm hopeful this hearing will be an important step 
toward that end. The Declaration has bearing as well for executive 
agencies whose actions and responsibilities touch upon the interests of 
Native Americans. I am encouraged to hear that, already, a number of 
executive agencies are learning about the Declaration and considering 
how to use it in decisionmaking. Additionally, the courts should take 
account of the Declaration in appropriate cases concerning indigenous 
peoples, just as federal courts, including the Supreme Court, have 
referred to other international sources to interpret statutes, 
constitutional norms, and legal doctrines in a number of cases.
    Finally, I would like to point out that the United States has 
important role to play in promoting the Declaration both at home and 
abroad. In addition to guiding action concerning Native Nations within 
the United States, it should also help guide the federal government's 
foreign aid, which in many places across the globe touches upon the 
lives of indigenous peoples.
    And the Declaration should be an important focal point of the 
United States' cooperation to advance human rights in multilateral 
settings. In my role as United Nations Special Rapporteur on the Rights 
of Indigenous Peoples, I look forward to pursuing discussions with the 
United States Government and tribal leaders through appropriate 
channels on how the Declaration can help catalyze action to address the 
aspirations of indigenous peoples in the country and to fulfill 
unfulfilled promises. I believe that the United States' cooperation 
with the international system in this and other ways will not only help 
to advance the Declaration's objectives in this country, but will also 
contribute to greater cooperation within the United Nations and 
worldwide to advance the rights of indigenous peoples in keeping with 
the Declaration.
    The United States was a principal leader in the UN's adoption in 
1948 of the Universal Declaration of Human Rights and has since been a 
leader in pursuing implementation of that Declaration. The United 
States can and should now play that leadership role again.
    Thank you Mr. Chairman, and Members of the Committee, for your kind 
attention.

    The Chairman. Thank you very much, Mr. Anaya, for your 
statement.
    And now Professor Robertson, will you please proceed with 
your statement?

 STATEMENT OF LINDSAY G. ROBERTSON, JUDGE HASKELL A. HOLLOMAN 
              PROFESSOR OF LAW; FACULTY DIRECTOR, 
    CENTER FOR THE STUDY OF AMERICAN INDIAN LAW AND POLICY, 
             UNIVERSITY OF OKLAHOMA COLLEGE OF LAW

    Mr. Robertson. Thank you, Mr. Chairman. It is an honor to 
have been invited to participate in this.
    As you mentioned earlier, I am a professor of law at the 
University of Oklahoma. I am also an historian, and I have to 
apologize, because I find it difficult to think or speak about 
events of this magnitude without drifting into contextualizing 
them.
    I think it is important to appreciate, building on what my 
friend Mr. Coulter said earlier, and Mr. Anaya a moment ago, 
that there is some history to this, the preparation of this 
document. It actually even goes back even further than the mid-
1970s in a sense. This international expression resolves 
questions first raised at least in this hemisphere when the 
Spanish arrived in the late 15th century. So this has been 500 
years plus in coming, at least for this life-long resident of 
the western hemisphere, and I think that is worth reflecting 
upon.
    The other element of the construction of the Declaration I 
think is important, that hasn't been mentioned, is the extent 
to which indigenous peoples themselves were invited to 
participate and did participate in the formulation of the 
document, which is evidenced by the strong support that one 
sees in Indian Country in the U.S. and in indigenous 
communities around the world for the document. It really is an 
historic opportunity here to bring two large group together, 
the descendants of European colonizers and the indigenous 
peoples in the various countries of the world, and come up with 
a new regime that works better and in a fairer manner for 
everyone. I applaud the Committee for launching this exercise 
in the United States, and building on the initiatives that the 
Obama Administration has already started.
    I also thought it important to say a word about the 
Declaration in international context. This is also something 
that Mr. Anaya mentioned, and I am glad that he did. This is a 
global document, it is a comprehensive document. It is a global 
document as well. In my capacity as a law professor, I have had 
the opportunity since the Declaration has been passed to travel 
to different parts of the world as a private sector person, but 
invited to come in and consult in various countries on how to 
comply with its provisions.
    And one sees a range of experiences. One country, for 
instance, has simply adopted the whole thing as a statute. That 
is one extreme.
    At the other end, I might mention Japan, to which I 
traveled last fall at the invitation of a committee organized 
to put together their first statement of indigenous policy, 
relating to language and culture rights of the Ainu people on 
the northern island of Hokkaido. It is extraordinary to witness 
the birth of something like that, and to follow up on one of 
your comments a few moments ago, Mr. Chairman, in that sense I 
did acquire a perception that in certain ways, the United 
States could well act as a global leader, at least for some 
countries. It is not that we have done everything right, far 
from it. We have done a lot of things wrong .
    But the point is, we have done some things right, and we 
have done a lot of things. And that may be the most important 
lesson for this historian of all. We have over 200 years of 
experience of wrestling with the legal nature of this 
interaction between colonizers and indigenous peoples, 
experiments with all sorts of programs that other states in the 
world might be considering.
    I think it is important that the United States share its 
experience to the extent that that information is requested at 
the same time that we are analyzing it ourselves. We started a 
year and a half ago a clinic at the University of Oklahoma Law 
School focused on indigenous rights worldwide. We have sent 
teams of students out now to half a dozen countries with 
indigenous populations who have been largely voiceless. They 
are smaller countries, without the caliber of representation 
the tribes have had in the United States in recent years.
    And we have discovered the same sorts of issues in those 
countries. We do this to support the Universal Periodic Review 
process at the UN Human Rights Council. But as I said, we have 
discovered that there, too, the Declaration is a living 
document, but it is in some ways even more important, because 
their rights are well behind what they are in other parts of 
the world, to a certain extent including the United States.
    Now a word on current efforts and future efforts. I 
appreciated Del Laverdure's comments, which were similar to 
those of Kim Teehee at the Permanent Forum in May, emphasizing, 
among others, the current Administration's efforts to help 
indigenous peoples in the United States in the areas of 
education, health, safety, infrastructure and jobs.
    I would only add a few other things that might be thought 
about, and these are broad things. One has to do with process, 
and the other has to do with what I would call reconsideration 
of fundamentals. On process, I think one of the best things 
that came out of the Declaration and out of the current 
Administration's aggressive engagement with these issues is an 
emphasis on consultation with indigenous peoples themselves. I 
think that that ought to be continued, I think it ought to be 
expanded. I would like to see it happen more at the State level 
than it has been in many States. I think that is of crucial 
importance. The inclusion in the process results in a feeling 
of respect, which is understandable. Anyone would feel it. Also 
an opportunity to shape policy and to buy into the result. I 
think that has policy advantages that are maybe broader than 
may have been appreciated.
    Reconsideration of fundamentals I raise to echo and build 
on a bit on something that Mr. Coulter said. Three areas occur 
to me which are raised in the Declaration which do invite us to 
rethink things that were done a long time ago, and maybe not 
done well. One of those has to do with the nature of land 
rights and the distinction that Mr. Coulter alluded to 
indirectly between different types of Indian land holdings. 
Aboriginal lands, executive order lands and treaty lands, are 
treated very differently for constitutional purposes. It is not 
entirely clear why. That is something that the Declaration 
invites us to reconsider.
    Second, cultural and religious sites, which are an 
important part of the Declaration and something that we haven't 
entirely solved here is a problem. I think that is worth 
spending a little bit of brainpower, time and energy on.
    Lastly and maybe most importantly, self-governance. The 
self-governance stem works here, but it is extremely 
complicated, and I think a Federal initiative to help simplify 
self-governance, I don't advocate any particular position, but 
when you have a regime that is constructed by a patchwork of 
statute, treaty and lately, primarily Supreme Court decisions, 
at least in the civil jurisdiction area, it is confusing, it is 
unpredictable, it is hard to manage on the ground.
    And I think it is inconsistent with the goals of the 
Declaration of the Rights of Indigenous Peoples, which I read 
to be that the tribes, indigenous groups, be able to govern 
themselves and understand how that is supposed to operate and/
or facilitate effective self-governance. That also I think 
relates to the comment that Senator Franken made about 
impediments to economic development, which I think 
simplification of self-governance rules would facilitate.
    My time is more than up. I thank you again very much for 
the opportunity to appear here. As my colleagues, I welcome any 
questions.
    [The prepared statement of Mr. Robertson follows:]

 Prepared Statement of Lindsay G. Robertson, Judge Haskell A. Holloman 
 Professor of Law; Faculty Director, Center for the Study of American 
      Indian Law and Policy, University of Oklahoma College of Law

    Good afternoon, Chairman Akaka and Members of the Committee, and 
thank you. It is an honor to have been invited to participate in this 
hearing.
    My name is Lindsay Robertson and I am the Judge Haskell A. Holloman 
Professor of Law and Faculty Director of the Center for the Study of 
American Indian Law and Policy at the University of Oklahoma College of 
Law. From 2006 to 2008, I served as Private Sector Advisor to the 
United States delegation to the Working Group Sessions on the Draft 
U.N. Declaration on the Rights of Indigenous Peoples.
    In addition to being a professor of law, I am a historian, and I 
find it difficult to think or speak about events of this magnitude 
without contextualizing them. I think it is important to appreciate 
that there is a history to the preparation of this document, which 
actually goes back further than the mid-1970s. This international 
expression resolves questions first raised in this hemisphere when the 
Spanish arrived in the late 15th century. The Declaration has been 500 
years plus in coming, at least for us residents of the western 
hemisphere, and this is worth reflecting upon. Another important aspect 
of the construction of the Declaration is the extent to which 
indigenous peoples themselves were invited to participate and did 
participate in the formulation of the document, which is evidenced by 
the strong support for the document that one sees in Indian country in 
the United States and indigenous communities around the world.
    The drafting of the Declaration was historic, as two groups, the 
descendants of colonizers and indigenous peoples in the various 
countries of the world, came together and designed a new regime that 
works better and in a fairer manner for everyone, and I applaud the 
Committee for launching this exercise in the United States, building on 
the initiatives that the Obama administration has already started.
    I also thought it important to say a word about the Declaration in 
international context. This is a comprehensive document, and it is a 
global document. In my capacity as a law professor, I have had the 
opportunity since the Declaration was adopted to travel to different 
parts of the world and consult in various countries on how to comply 
with its provisions. One finds a range of experiences. Bolivia, for 
instance, has simply adopted the Declaration as a statute. I might also 
mention Japan, to which I travelled last fall at the invitation of a 
committee organized to put together Japan's first statement of 
indigenous policy, which focuses on language and cultural rights of the 
Ainu people on the northern island of Hokkaido. It was extraordinary to 
witness the birth of a new legal relationship, and the experience 
helped me appreciate the ways in which the United States could act as a 
global leader on these issues, at least for some countries. It is not 
that we have done everything right, far from it. We have done a lot of 
things wrong. But we have done some things right, and we have done a 
lot of things. We have over 200 years' experience wrestling with the 
nature of the legal relationship between colonizers and indigenous 
peoples, and we have experimented with all sorts of programs that other 
states in the world might be considering. It is important that the 
United States share its experience, to the extent that information is 
requested, even as we are assessing it ourselves. A year and a half 
ago, we started at the University of Oklahoma College of Law a clinic 
focusing on indigenous rights worldwide, which submits reports in 
support of the Universal Periodic Review process at the UN Human Rights 
Council. We have sent teams of students out to half a dozen countries 
with indigenous populations that have been largely voiceless, and we 
have seen first hand the extent to which for indigenous peoples in 
those countries the Declaration is a living document, in some ways 
perhaps even more so than for indigenous peoples in other parts of the 
world whose rights are relatively more secure. We all have much to 
learn from one another.
    Finally, I would like to share some thoughts on current and future 
efforts. I appreciate the Obama Administration's efforts to assist 
indigenous peoples in the United States in the areas of education, 
health, safety, infrastructure, and jobs. The Declaration provides an 
opportunity for additional efforts, and I would encourage focusing on 
process and a reconsideration of fundamentals.
    On process, I think one of the best things that came out of the 
Declaration and out of the Administration's aggressive engagement with 
these issues has been an emphasis on consultation with indigenous 
peoples themselves. That ought to be continued--and expanded. I would 
like to see more consultation at the state level than currently occurs 
in many states. Inclusion of indigenous peoples in the process 
evidences respect, provides an opportunity for indigenous peoples to 
shape policy, and makes it likelier that indigenous peoples will 
support the result.
    On reconsideration of fundamentals, first, we might look again at 
the nature of land rights and the distinction between different types 
of Indian land holdings. Aboriginal lands, executive order lands, and 
treaty lands are treated very differently for constitutional purposes. 
It is not entirely clear why. We might also look at protection and 
access issues relating to cultural and religious sites, which continue 
to be contentious. Lastly, and maybe most importantly, we might 
simplify self-governance. The self-governance system works here, but it 
is extremely complicated, built on jurisdictional rules derived from a 
patchwork of statutes, treaties, and Supreme Court decisions. It is 
confusing, limiting, unpredictable, and hard to manage on the ground. 
Simplification of the self-governance system would bring us closer to 
realizing the goals of the Declaration.
    Thank you.

    The Chairman. Thank you. Thank you very much for your 
testimony, Professor Robertson.
    Our next witness is Mr. Red Corn. But before we hear him, I 
would like to show a short video entitled Geronimo, Ekia. It 
will be on the screens, which is an example of reclaiming our 
icons and telling our own stories as Native peoples.
    [Video shown.]
    [Applause.]
    The Chairman. That was moving. Thank you very much, Mr. Red 
Corn. That was a moving presentation.
    I just want to recall between Senator Udall and me, that he 
chaired a hearing for me of this Committee on stereotypes. And 
of course, it pertains to this, what we are doing now. And it 
was unfortunate at that time that Geronimo was up in the news. 
But thank you again, Mr. Red Corn. I thought we would show it 
before I called you to make our statement. Will you please 
proceed?

   STATEMENT OF THOMAS RYAN RED CORN, FILMMAKER; MEMBER, 1491

    Mr. Red Corn. [Greeting in native tongue.]
    I would like to acknowledge you, Mr. Chairman. Thanks for 
having me here. I acknowledge Mr. Udall. My brother was a Udall 
scholar, got his bachelor's in civil engineering at the 
University of Kansas off that scholarship. I appreciate that. I 
follow Mr. Franken on Twitter, so I will catch up with him 
later.
    [Laughter.]
    Mr. Red Corn. I come here from the Wa.xa.k'o.lin district, 
actually outside of Pawhuska, Oklahoma. I would also like to 
acknowledge some of the people here in the panel, who have been 
working on this thing longer than I have been alive. I probably 
have no business being up here, because I don't represent 
anybody. I am not an elected official, I don't have a masters 
degree or a doctorate or anything like that, simply live in the 
exact spot where the road hits the pavement, as it were.
    So I am kind of here, like I said, representing nobody. But 
I would like to talk about the Declaration. And I would also, I 
don't really want to spend too much time talking about the 
past. Obviously being as young as I am, I know what happened. 
But I am really more concerned about the future. And I am 
concerned about the future of my young family, concerned about 
the future of my community.
    A lot of that has to do where law intersects with actually, 
where it intersects with people. The first place is that it 
intersects in jurisdiction. I live on trust land in a community 
that sits under Federal jurisdiction. I have neighbors that 
deal drugs, and they have been raided over and over and over 
and over, and I can't say that enough, how many times they have 
been picked up and raided by Federal agents. But no prosecution 
takes place. I see this as problematic. I see this as 
problematic if we can't police our own communities and we can't 
provide for the safety of our own citizens. And if the Federal 
Government isn't going to do that, I'd like to really see that 
power transferred over to tribes.
    At the time the Major Crimes Act was passed, perhaps the 
tribes were not infrastructurally viable to handle those 
situations. But I think that mode of thinking is probably 
outdated at this point.
    I would like to see these powers are given to cities and 
States. The Federal Government doesn't manage drug cases on 
that level. And if the State of Oklahoma is not going to do it 
either, I think it is just another reason for tribes to be able 
to manage that.
    The next thing I want to talk about is, drugs aren't the 
only issue in our community. I think nationally, the statistics 
say that one in three Native American women will be sexually 
assaulted or raped in their lifetime. These cases as well also 
fail to get prosecuted. I have a one year old daughter, she 
just turned one last week. I don't want to see her grow up in 
that situation. It is disturbing to me.
    I don't think any woman, any Native woman on a reservation 
should have to be subjected to grow up in that type of 
situation. Those people are our mothers, they are our aunties, 
they are our relatives, they are a lot of things.
    The next thing I would like to talk about, I was born in an 
Indian hospital in 1979 to a white mother and an Osage father. 
During the time that my mother was there, she was pressured for 
sterilization the entire time, until she was transferred out to 
another hospital where she could recover. I have friends that 
are my age that have given birth recently that are also still 
being pressured for sterilization.
    Lastly, where these two things intersect is that right now, 
as some of these gentlemen have mentioned, we have a case 
before the Supreme Court. It is pretty much a case, I would as, 
from my inexpert opinion, of legal amnesia. They are saying 
that we are not a reservation. Basically they are saying we can 
be a reservation when we have gaming compacts, we can be a 
reservation when we have tobacco compacts, we can be a 
reservation when they want oil and natural gas resources.
    And we say that, well, if we have our own jurisdiction and 
if we are a reservation, we should not be paying State income 
tax when we don't live on State jurisdiction and we do not work 
on State jurisdiction. If the State has jurisdiction over us, 
then where are they when the drug dealers are in my 
neighborhood? Where are they when rapes are going unprosecuted?
    So these things, they coincide, they all touch each other. 
I want to live in a time when human rights is not seen as a 
radical idea. I believe these are not extra right, but these 
are human rights, these are basic human rights that other 
people are afforded in the Country. I believe that is why this 
resolution passed on an international scale, and that is why I 
am here today, to set a series of events that took place to put 
me here to ask you for these things.
    So in that respect, I would just like to say that much. I.e 
ka.she.na ko.ko.na.
    [The prepared statement of Mr. Red Corn follows:]

  Prepared Statement of Thomas Ryan Red Corn, Filmmaker; Member, 1491

    Hawe, Thatsi.e. Wazhazhe zhazhe wita Wakontia. I.e to.e ekipshe 
konbra.
    I came here from the Wa.xa.k'o.lin district
    I'd like to acknowledge the Senators and staffers. And I'd like to 
acknowledge all the nobodies watching on C-SPAN the ocho as well as the 
Daily Show Intern watching this. Aye!
    I'm not an elected official. I'm not an expert. I'm not any kind of 
anybody. I come to you today representing nobody. I come to you 
representing all of the nobodies. I'm here to talk to you about the 
passage of the UN Delcaration on the Rights of Indigenous Peoples.
    I did not come here to talk about the past. I came here to talk 
about the future. The future of all nobodies.
    Where my home sits, in the Wa.xa.k'o.lin district outside the town 
of Pawhuska, Oklahoma, I live under a different set of rules than most 
Americans. Where I live there are people who sell drugs whose homes 
have been raided by federal drug agents over and over again and nothing 
ever happens, because no one is ever prosecuted. The power to enforce 
the law resides with the federal government and not the tribal 
government. And the federal government has little interest in rooting 
out this type of behavior in my neighborhood. If this Declaration is 
adopted, I want jurisdiction for my community over these affairs. 
Localized control has always proven to be more effective than Federal 
control over these matters. These powers are given to states and 
cities. They can be given to Tribes as well. Because, if the federal 
government will not address this situation, then give us the power to 
do it ourselves.
    Drugs arn't the only problems running rampant in my community, and 
the countless other reservation communities like it, because of the 
lack of true sovereignty, 1 in 3 Native American women will be raped or 
sexually assaulted in her lifetime. As appalling as that statistic is, 
the women in my life, real women, stats, have relayed their words to 
me. This breaks my heart and is not acceptable.These are my relatives. 
My cousins. My friends. My people. I have a daughter who just turned 1-
year old. I would very much like to see this power to protect her 
shifted to tribes in her lifetime. In the hopes that not one more 
Native woman, not one more daughter, auntie, or sister, has to grow up 
under these circumstances. This institution has that power to transfer 
the protection of our women to us. The Declaration and the Executive 
branch recognize that when tribes have this power, that we thrive 
instead of falter. There is a 40-year track record of the benefits of 
this power shift towards tribal sovereignty and self-determination to 
back that claim up.
    In 1979 I was born c-section in Hastings Indian hospital in 
Tahlequah Oklahoma, to a white mother and an Osage father. My white 
mother contracted an infection from that surgery. And while she sat 
there in the hospital, the staff repeatedly pressured her for consent 
to sterilize her. My grandmother had her transferred to Tulsa where she 
fully recovered eventually giving birth to three more boys. One has a 
master's degree in education and is a teacher. One is a civil engineer 
and the other one has a master's in architecture. My brothers are doing 
great things with their lives, and I'm proud of them. But my mother was 
nearly sterilized, and she was one of the lucky ones. Many other women 
were pressured and relented or were never even asked. I would like to 
tell you that this practice died with the 1970s but the Native women of 
my life today tell me that they are still being pressured in the same 
manner.
    As I speak right now, my Osage people have a case that waits to be 
heard by the Supreme Court. The case effects our full reservation 
status. The Attorney General last week made a recommendation for it to 
be thrown out. It is our last ditch effort to have a legally fully 
recognized home. Lawyers play semantics with words over demographics 
and not actual written law, instead of letting us call it what it is. 
Judicial erosion of our home. Our land. The land of those that came 
before us and hopefully those that will come after us. No treaties were 
signed. No new laws were passed. But the legal definition and premise 
that everyone had been functioning off of for the past 100 years now 
hangs in the balance. We are a reservation when the state wants money 
to build roads. We are a reservation when the state wants our gaming 
and tobacco compact money. We are a reservation when the state wants 
our Oil and Natural Gas resources. We are a reservation when we pay a 
gross production tax on those resources. Every land deed within our 
boundaries states that we are a reservation. We are a reservation for 
the tourists who pass signs, paid for by the state of Oklahoma that say 
YOU ARE NOW ENTERING THE OSAGE INDIAN RESERVATION. But the courts say 
we are not a reservation when we say we should not be paying state 
income tax when we do not live or work on land under the jurisdiction 
of the state of Oklahoma. If we are under Oklahoma jurisdiction then 
where are they when drug dealers are selling methanphetamines? Where 
are they when the women are being raped? Where are they when our homes 
are falling in? Give us the power to raise our own taxes to provide for 
our own infrastructure. Give us the power to prosecute outsiders, 
native or non-native, that break the law on our lands. This is not an 
``extra'' right. This is a human right. Rights this country was founded 
on.
    I want to live to see a day when the idea of human rights is not 
seen as radical. I am asking for the right not to be legally erased. I 
am asking for the right to be able to put my daughter's Indian name on 
her birth certificate in our own alphabet. I am asking for the right to 
attend a university where there are more live indians on campus than 
dead ones. The right for the Iroquois Nationals Lacrosse team's 
passports to be recognized so they can attend the World Championships 
for the sport that they invented. The right for the Prairie Band 
Potawatomi to put a tax on their tribal gas station to pay for roads 
and bridges on their reservation. I am asking for the right of self-
governance. The right for Tribal police departments not to be expected 
to permanently sustain themselves on grants and the federal funding 
whims of someone in Washington DC, someone who will never visit my 
reservation or see my face. I want Indian lands to be the last to be 
flooded for dam construction along the Missouri river, and not the 
first. I don't want consultation. I want the right to say NO. I want 
the United States to be a leader on Indigenous rights so that they do 
not have to suffer the international embaressment of being one of the 
last countries to sign on.
    And I do not want lip service. I want to be looked in the eye. I 
want you to shake my hand and tell me that you're on board to change 
the future of Indian Country. That you will adopt this declaration and 
make it binding. That you will give it teeth. That it will be the law 
of the land.
    I was born Indian and I will die Indian but today, my nation is at 
war by way of judicial amnesia. This supreme court case is a classic 
example of the corrosive efforts enacted by the US federal goverment to 
assimilate us, the indigenous people of this land, and in order to 
ultimately be rid of us. So our land, our people, our way of thinking 
can be absorbed and conveniently forgotten. And the thing is, 
legislation containing words from this declaration can stop a 500 year 
long quest to wipe indigenous people from the maps of this hemisphere. 
It will allow us, all of us, to develop ourselves economically and to 
provide for our citizens so that the federal government does not have 
to. In 2004, Republican Congressman Lucas from Oklahoma provided 
historic legislation that kept Osages from being abolished as a legal 
entity and allowed us, for the first time in our history, to function 
as a democracy. With that legislation we have made great strides. We 
have made health care and housing improvements as well as bolstered our 
scholarship opportunities for our youth. But the legislation stopped 
short of shoring up our reservation status which is what we are now 
fighting.
    That fight extending to Oklahoma passing state question 755, 
currently in litigation and billed as the ban of Sharia Law; it also 
banned recognition of tribal law. My marriage certificate was issued by 
a tribal court of the Pawnee Nation. Under such laws even my marriage 
is considered not valid.
    This Geronimo code name is just another way for the United States 
to paint Natives as enemies of the state. That has to change if we are 
not only to survive but thrive as respective nations. I am just one 
person. From one tribe. The issues I have raised here are not new and 
not relegated to my people alone. Many others struggle under the same 
set of laws. All that can change with this declaration. It can turn all 
those nobodies into somebodies.
    I.e ka.she.na ko.ko.na

    The Chairman. Thank you so much for being here, Mr. Red 
Corn. Thank you so much for your candid presentation here and 
your statement.
    We will have more than one round, Senator Udall. I will 
lead off with some questions and I will have you do the same as 
well.
    Mr. Coulter, thank you so much again for being here. Much 
of your testimony suggests the need for a, maybe this is an 
understatement, a fairly comprehensive review, and in cases 
revision of current Federal Indian law in order to be 
consistent with the U.S. Constitution and international 
standards. In my opening statement, I said we want to begin to 
look at setting these standards, such as the Declaration.
    Are there specific articles in the Declaration or specific 
areas of existing Federal law you prioritize for early review 
by this Committee and the Administration?
    Mr. Coulter. Well, sure. I can point out some of them. Just 
to be clear, the United States does a lot in its law and its 
policies that is pretty good. It is certainly ahead of many 
other countries in certain respects.
    But what I point out are fundamental problems that need to 
be corrected. It is not meant to say that everything the United 
States does is horrible, I don't believe that. The first 
article that I would particularly call attention to is Article 
2 that says that indigenous peoples are entitled to be free 
from discrimination in the exercise of their rights. That is, 
if I can say so, perhaps the fundamental problem. Indian and 
other native peoples subject to U.S. jurisdiction are treated 
badly in a way that is not in keeping with our American values. 
It is not in keeping with our Constitution. It is a case of 
being denied equality before the law.
    That fundamentally needs to be reviewed. That would sweep 
in this problem about treating tribal property as if it is not 
really property, treating money that belongs to tribes as if it 
doesn't really belong to them, treating other forms of property 
and other supposed legal rights of tribes as if they are not 
really protected by the law and that they can just be dealt 
with willy nilly without regard for the Bill of Rights when the 
Federal Government chooses to do so.
    That is all discriminatory. Other groups don't seem to 
suffer from that.
    I do call attention to the position of people who live in 
the territories of the United States that are also denied many 
constitutional rights. So that is a big one.
    Article 26 on land and resource rights is another important 
one, because there, United States law explicitly and expressly 
denies Indian and Alaska Native tribes the kinds of property 
rights that everyone else, including corporations and 
businesses and churches and canasta clubs have. They all have 
property rights that are protected by the Constitution. But not 
indigenous nations. There is no justification for that. It 
can't possibly be justified. It is un-American, if I can say 
so.
    So those are two big ones. Now, we could keep going, I 
suppose. But if we could deal with those, it would be awfully 
important and I think it would move us forward.
    The Chairman. Thank you for your response. Professor 
Robertson, having served as private sector advisor to the U.S. 
Delegation to the UN Declaration negotiations in Geneva, can 
you briefly describe the negotiation process that was taken?
    Mr. Robertson. Sure, I would be happy to, I will do my 
best. You realize you are speaking to a guy who is used to 
speaking in 50-minute blocks, but I will refrain from that.
    The negotiation process meetings, and I just helped out 
with this for the last three years or so, two and a half or 
three years, meetings held roughly twice a year, ten days to 
two weeks per session in Geneva. States and indigenous 
representatives were all in the same room for plenary sessions 
and for breakout sessions, so that we begin with assigned 
provisions from the draft, which everyone had had the 
intervening months to look over, to shop around their domestic 
governments. And we would begin addressing those on the floor. 
The chair would ask for comments from the states. The states 
would make comments, and then there would be weigh-in from 
members of the indigenous caucus.
    If negotiations went ahead and there was agreed-upon text, 
we would keep moving. If they broke down, we would break out 
into smaller groups to hammer out language that would then be 
brought back to the plenary. It was a slow process. In some 
ways a very frustrating process. I was an observer in certain 
measure, because I was sort of on both sides of the room.
    But in the end, a document was produced and we are here 
talking about implementation. So I guess I would have to say it 
was a successful process.
    The Chairman. Thank you very much. I have further questions 
for Mr. Anaya and for Mr. Red Corn. But let me pass this on to 
Senator Udall for his questions.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Senator Akaka. It was a pleasure 
chairing that stereotype hearing. I know that you had looked 
really forward to being there and you were unavailable to get 
there. But you were there in spirit and the staff really helped 
and backed me up on that. So I appreciate that.
    Let me ask kind of a broad question that I think maybe all 
of you may be able to jump into. One of you I think mentioned 
the Declaration that FDR talked about and the International 
Declaration on Human Rights. President Roosevelt talked about 
Four Freedoms. He talked about freedom of speech, freedom of 
religion, freedom from want, freedom from fear. And when you 
have these declarations and you talk about freedoms like this, 
one of the things that happens is it moves us all forward. 
There is no doubt about that.
    I think when we have a universal declaration like this, a 
universal declaration of rights of indigenous peoples, it is, 
Professor, you talked a little bit about it. It is a struggle 
getting there, but it is a struggle worth having and worth 
going through the process.
    I am wondering, can any of you give us some examples of 
what is happening around the world? What are the exciting 
things going on that we see growing out of this UN Declaration 
of rights? Is any of that applicable to the United States? What 
are the areas we could be doing a better job on?
    Mr. Coulter, do you want to start on that?
    Mr. Coulter. One of the very gratifying things was that 
even as we were developing the Declaration and pushing it 
through years and years of negotiations, countries all over the 
world began to take up these rights and understand that they 
were really good things that really helped the governance in 
their countries. Self-determination and autonomy regimes were 
implemented in country after country before they were ever 
adopted in the Declaration, that is before the adoption of the 
Declaration. Countries found out that these rights are good 
things. It is really helpful to everyone involved.
    That was very gratifying, and I think that is continuing.
    Mr. Anaya. Just briefly, I have been very happy to see in 
various countries that I have engaged in in my role as UN 
Special Rapporteur, that there is more and more awareness at 
all levels of government and discussions in the broader public 
about the Declaration itself and the rights of indigenous 
peoples more generally. What we see is a pattern of legislation 
and even constitutional reform taking place that incorporates, 
if not explicitly the Declaration, it incorporates the 
principles that are found in the Declaration. So that is 
extremely positive.
    The educational value of the Declaration, I think, cannot 
be underestimated. There are of course still negative attitudes 
towards indigenous peoples worldwide. I think the last hearing 
that was referenced has to do with those negative attitudes 
persisting in this Country, as they do elsewhere.
    The Declaration, I think, can and should be thought of as 
an educational instrument. What we see in many countries is it 
being used and promoted as an educational instrument within the 
public schools even, within various media, through various 
media, through films. That perhaps is something that can be 
learned from experiences elsewhere, that educational value of 
the Declaration, which is I think necessary for real change to 
come about in any society. We can talk about good policies, we 
can talk about good legislation, but unless there is that solid 
social foundation for those policies, and for those changes, 
they are going to be difficult to come about.
    Mr. Robertson. I agree with what both my colleagues have 
just said, and I would only add to that, another sort of side 
effect of this that I have observed first-hand has to do with 
simple communication. Ten years ago, I sat down and thought, I 
should really teach a class in Canadian First Nations law. And 
about a minute later, I thought, I know nothing about Canadian 
First Nations Law, and I would be the worst person in the world 
to teach it.
    So I called a friend of mine, Brad Morse, who is now a dean 
in New Zealand, teaching at the University of Ottawa then, and 
said, hey, Brad, I don't know anything about what you do and 
you know a lot about what I do, but maybe your students don't. 
And we set up a distance ed course, turned out to be the first, 
between law schools, or so we have been told, where my students 
and I taught Brad and his students U.S. Indian law and they 
taught us Canadian First Nations law.
    That opened our eyes to the fact of the utter ignorance of 
most everybody we knew as to what other countries with similar 
legal questions, I am talking about English-speaking countries 
here, had done, sort of an interaction with indigenous 
populations. So we expanded this, we now have six, seven 
universities around the world, in Canada, New Zealand, 
Australia and the University of Oklahoma, engaged in this 
conversation. That has been enormously enlightening.
    What the Declaration did, as Tim mentioned, is it sort of 
made this a live issue everywhere. There wasn't a country in 
the world that could ignore it. So we have started to, and I 
have started to get communications from people all over the 
place who are interested in learning what is going on here and 
sharing what they are doing and talking about questions.
    One thing I would mention to both of you gentlemen as 
members of the United States Senate is that a lot of this seems 
to be happening on the university level or as Jim is doing, as 
Special Rapporteur, making contact with people around the 
world. There hasn't been, to my knowledge, outside of some 
stuff that Interior has done, that Del Laverdure mentioned 
earlier, a focused U.S. comparative effort on this. I think 
maybe the place to house it would be Interior. Maybe it would 
be the State Department.
    I would just mention that the Canadian equivalent of the 
State Department, the Canadian Foreign Office and the 
Australian both have desks dedicated to international 
indigenous issues. It seems to me that if we are really serious 
about this, providing some sort of funding to the legal office 
of the State Department to put somebody in place to start 
having these conversations on behalf of the United States would 
go a long way not only toward helping us get educated as to 
what was happening in the rest of the world, but to help the 
rest of the world understand what was happening here on these 
issues. Then we might have some real meaningful global effort 
to improve what the species does on the issue of the rights of 
indigenous peoples.
    Senator Udall. Thank you.
    Mr. Red Corn. I am going to be really honest. I don't leave 
Oklahoma that much, so I have no idea.
    [Laughter.]
    Mr. Red Corn. That is just really brutally honest. The only 
thing that I can tell you is that in my lifetime, and I am not 
very old, I have seen a large improvement in m own community. 
When I was a little kid, the road in front of my house was 
dirt, and now it is super keen, it has curbs and everything. 
But a lot of that has to do with an influx of money. It is not 
sustainable money, it is Federal money. It doesn't respond to 
or it doesn't represent a structural change for sustainability 
within the community.
    Now, on a global level, I can tell you that the communities 
in New Zealand, the communities in Australia and the 
communities in Canada have all started kicking out incredible 
films in and around indigenous issues. And it has really, I 
think, served to put wind in the sail for a lot of these types 
of issues that otherwise people wouldn't know about. There was 
a great film out of Australia, I think, called Rabbit Proof 
Fence, that came out. There is an elder that I met from Canada 
named Alana Subomsowim, who did an amazing documentary on the 
Oka Crisis in Canada, when they were trying to put a golf 
course over a burial ground. Had a standoff there, it was not 
pretty.
    But those types of things can be avoided. I think in the 
modern area, with the democratization of media, which is how I 
am even here, because I don't have a big movie studio behind me 
or anything like that, I have a camera, I point it at 
something, I edit it and I throw it up on the internet along 
with a bunch of my friends. That is pretty much it.
    Without any type of funding, that message spreads. And it 
spreads to Canada. We have a lot of people in Canada that 
follow us and contacts we have made, and these other countries 
that are considering this declaration, like I said, New 
Zealand, Australia and Canada.
    Like I said, I don't leave Oklahoma that much, so I just 
know what I see on the internet. And everybody knows everything 
on the internet is perfectly true.
    [Laughter.]
    Senator Udall. Thank you, Chairman Akaka.
    The Chairman. Thank you very much, Senator Udall. If you 
have further questions, we can certainly pick it up.
    Let me ask this to Mr. Anaya. And again, I am going to ask 
for your opinion. Will meeting the Declaration standards 
substantially affect our standing in the world or enhance our 
ability to achieve other foreign policy goals?
    Mr. Anaya. Mr. Chairman, thank you very much for that 
softball that you have thrown me. And of course, unexpectedly, 
the answer from me is yes, absolutely yes. The U.S., as I said 
in my initial statement, has, has been a leader for human 
rights in the world and has stood for human rights in the 
world.
    It has been somewhat slow to take any kind of leadership 
role on the issue of indigenous peoples for reasons that have 
to do with negotiations and the no vote on the Declaration and 
other reasons.
    But with the endorsement of the Declaration by the 
Government, by the Obama Administration, the attention of the 
world has been focused on the United States to see now what 
that is going to mean in practical terms. That, as I said, was 
an extremely and still is an extremely welcome development. It 
is rare when a Government delegate at a meeting on indigenous 
peoples at the United Nations gets an applause.
    In the last few statements I witnessed by the United States 
representative at the UN Permanent Forum on the Rights of 
Indigenous Peoples, the representative has gotten applause. 
There is a lot of hope in what the United States will do 
because of its leadership role. And that leadership role can 
help to catalyze developments elsewhere. It can help to 
motivate action on a global scale. It can help to solidify the 
United Nations and other international institutions' focus on 
the issue, and specific action by specific countries as well. 
Not only by the example that the U.S. may give, but also by its 
bilateral and multi-lateral cooperation, which I think is very 
important and has a great potential to genuinely contribute to 
specific and concrete, positive developments on the ground for 
indigenous peoples worldwide.
    So yes, absolutely, the U.S. can take a leadership role, 
and its endorsement of the Declaration positions the Country 
extremely well to do just that.
    The Chairman. Thank you so much for that. The reason why I 
am asking you that is that this panel is pretty well acquainted 
with what is going on with the Declaration. I want your 
opinions, not necessarily that of other groups or the 
Administration or the Congress, but your opinion on this. So 
thank you very much for that.
    Mr. Red Corn, I want to tell you agin, thank you for the 
clips and what you are doing with young people, and using the 
media to get to them and attract their attention as well to 
these issues. So let me ask you in a sense a different kind of 
question. As a young native man, what does the Declaration mean 
to you?
    Mr. Red Corn. I would say that it means there is hope. Like 
I said, there is a lot of work that has been done before I was 
even born. I live in a completely different time than my father 
has, a completely way different time than my grandfather did. 
And all the work that has been done really serves to even like, 
I run a small business out in the middle of nowhere. Without 
the rising tide of all of Indian Country, I would not be able 
to sustain a living to provide for my family on my reservation. 
I would be in a big city somewhere working for a large white ad 
agency or something like that, in all likelihood.
    But because of all the work that has been done and all the 
work that continues to be done, it create, the rising tide 
raises all boats.
    As far as reaching the youth, there is relatively little 
indigenous new media that is being created, at least on a high 
end basis that has viral capacity, able to access their minds 
and their thoughts. We are in a different era of assimilation 
and acculturation. There is more than one or two or three or 
four or five threats that are served to replace our languages, 
to replace our songs and our iPods, to replace what we do on 
the weekends, from going to ceremony as opposed to going to Six 
Flags. There are a lot of different things that serve to pull 
our attention away.
    Without those things, without those cornerstones of who we 
are, which I consider cornerstones of our sovereignty, those 
types of things will go away. And I don't, at least for me and 
my family, I am not going to stand there and watch that happen 
in my lifetime. So you know I am going to make sure my daughter 
knows her language. I try to only speak Wa.xa.k'o.lin to her. I 
am trying to raise her with everything that I have been taught. 
When I got to college, I realized what a unique situation I was 
in, because there were kids from relocation families that were 
there that had probably five times the blood quantum, looking 
at me having right now. And they were without their ways, 
without their culture. And that move back towards that and 
their ability to reclaim that is paramount in this struggle, 
because this Declaration protects those things. It protects the 
erosion of those things and it holds them up and says that they 
are important as alternative ways of thinking, alternative ways 
of farming, alternative ways of behaving, of alternative ways 
of respect and all the protocol that goes in that. It is 
embedded in the way that we conduct ourselves. It is the very 
fabric which holds what we have left together.
    From that respect, I fully support this and I would like to 
see teeth put into it, so that I can feel the effects of this 
Declaration from where I live at home.
    The Chairman. Thank you so much for your statement. Now I 
feel good about this hearing. Without question, it is beginning 
to reach people out there. I am sure it will ring about a lot 
of comment, which we can probably use to make the kinds of 
changes that are needed.
    So as I said, we will have a second round. Any further 
questions you may have, Senator Udall?
    Senator Udall. I think I am okay, Senator Akaka. And also, 
I am looking forward to the third panel.
    The Chairman. Yes. Well, thank you very much.
    With that kind of comment, and the comments from our panel, 
I want to again really, really thank you folks. Because I look 
upon you as experts in the Declaration and legal side. We need 
to really look hard on that sand see what we can do to make 
things, in Hawaii we call it pono, or make it right. So that is 
where I am.
    Thank you for joining us and helping us. We are looking 
forward to the days ahead to see what we can do about this. So 
mahalo nui loa, thank you very much.
    Now we will have our final panel to the witness table, 
please. We have the Honorable Fawn Sharp, President of the 
Quinault Indian Nation from Taholah, Washington. Frank 
Ettawageshik, the Executive Director for the United Tribes of 
Michigan in Harbor Springs. Duane Yazzie, the Chairperson of 
Navajo Nation Human Rights Commission, in Window Rock, Arizona, 
and Melanie Knight, Secretary of State for the Cherokee Nation 
in Tallequah, Oklahoma. I want to welcome our third panel, and 
President Sharp, will you please proceed with your statement.

  STATEMENT OF HON. FAWN R. SHARP, PRESIDENT, QUINAULT INDIAN 
                             NATION

    Ms. Sharp. Thank you, Chairman Akaka, Senator Udall. It is 
an honor and privilege to be here to provide testimony on this 
very important topic.
    On behalf of the Quinault Indian Nation, we applaud the 
decision of the United States to support the United Nations 
Declaration on the Rights of Indigenous Peoples. I think it is 
important at this point in time to recognize where we are in 
history, and at this generation.
    When you think back to centuries of despair, 
discrimination, the loss of life, resources, by means that, as 
the earlier panel pointed out, were contrary even to the laws 
of the United States and unconstitutional, the devastation 
continues through today's generation. But on December 16th, 
2010, when President Obama announced that the United States 
would change its position and now embrace fundamental 
principles and values that transcend national borders, I 
believe this Country, the United States, began to embark on a 
path to heal the soul of Indian Country, a soul that we see the 
symptoms every day in every community within our nations, the 
levels of poverty, unemployment, alcohol and drug abuse.
    So today is a very positive day that Congress is taking 
positive steps to ask us tribal leaders, how can we begin to 
take steps toward healing, and on that new path. So it is quite 
remarkable to point out, and we truly appreciate the time we 
have here today.
    I am going to point to five specific questions. I have 
provided written testimony, but I do want to focus on some 
basic questions that I believe will help this Committee and 
provide some guidance.
    The first question is, what are the next steps? From the 
Quinault Nation's perspective, we believe that some of the next 
steps are for this Congress to adopt policies and legislation 
that address the notion of free prior and informed consent as 
well as protections of intellectual property. Throughout my 
testimony, I will provide some reference to some very specific 
articles within the Declaration to illustrate these points.
    The next question that was posed to our nation is, what is 
good domestic policy and what are the benefits to tribal 
governments, communities and citizens. For us, good domestic 
policy will recognize and embrace our long and traditional 
histories, our cultures, our values that are unique to Indian 
Country and recognize that we do have a unique political 
relationship with the United States, as a fundamental 
principle.
    The second way that we think good domestic policy can be 
addressed is to positively recognize, affirm and protect our 
jurisdictional sovereign powers. We believe that that action in 
and of itself gets to the point that President Obama made that 
words are words, but action means so much more. And we have 
heard many, many colorful words over the years. But actions 
come down to where the rubber meets the road in our 
jurisdictional and sovereign powers.
    How is good public policy, domestic policy formulated, the 
second question. We believe that good policy is so much more 
than a consultation process. We believe that implementing 
standards for the UN Declaration means that the United States 
no longer has the permission nor the power to unilaterally make 
decisions that affects our lands, our people and our resources.
    Fourth, what has not been addressed in Federal policy and 
how have tribal efforts for economic development and commerce 
been impacted? This is probably one of the more near and dear 
to the Quinault people. In the United States, the 
implementation of the Declaration must be taken in the context 
of our treaty-reserved rights, including the rights to hunt, 
fish and gather our resources. That is the blood line of 
communities in the Northwest, our ability to hunt and fish has 
provided viable economies from the beginning of time. We hope 
that the protections of the Declaration will continue to 
sustain those efforts.
    Lastly, with the jurisdictional morass that is created by 
the courts, Congress and the Administration, we believe we are 
at a unique point in time where all three branches of 
government can get behind the declaration to ensure that future 
generations will have a strong foundation in which to govern 
their lands and territories.
    A last recommendation that we would like to offer is for 
Congress to appropriate $12 million to allow capacity building 
for indigenous peoples to participate in international 
conferences worldwide. As an example, in the climate change 
crisis, the world is making policy decisions without the 
important knowledge that Indian people possess. We are not at 
the table. And a global crisis like climate change requires 
that responsible leadership draws on all forms of knowledge, 
social, political, economic and cultural. And until we get to 
the table, it is not only hurtful and harmful to us as Indian 
nations, but to the rest of the world. They do not have the 
benefit of our knowledge.
    So we ask that that will, with that action, we would see 
strong implementations of Article 3, Article 18, 19, 23, 
Article 21, subparagraph 1 with that one initiative. Thank you.
    [The prepared statement of Ms. Sharp follows:]

 Prepared Statement of Fawn R. Sharp, President, Quinault Indian Nation

    The Quinault Indian Nation applauds the decision of the United 
States to support the United Nations Declaration on the Rights of 
Indigenous Peoples (UNDRIP). UNDRIP recognizes Indigenous rights in 
vital areas of self-determination, rights to lands, territories and 
natural resources, cultural rights, and the concept of free, prior, and 
informed consent for actions affecting indigenous peoples.
    After several decades of debate and negotiation, the world 
community has now reached consensus on minimum standards for the 
survival, dignity, and well-being of indigenous peoples. Although the 
United States has a well earned record denouncing the human rights 
records of other states that violate the rights of peoples within their 
jurisdiction, it was not until 1975 that the U.S. and the Union of 
Soviet Socialist Republics concluded the Helsinki Accords. It is within 
the framework of those accords that the U.S. agreed to conduct its 
relations with Indian governments on a government-to-government basis 
and to implement policies consistent with the accords' Human Rights 
baskets. The U.S. Department of State was obliged to report to the 
Commission on Security and Cooperation in Europe (CSCE) about U.S. 
treatment of Indian peoples. In its 1979 report, the U.S. government 
submitted statements, which lend considerable weight and significance 
to UNDRIP.
    The report included remarkable statements concerning the U.S. 
government's policy on Indian self-determination:

<bullet> [The policy] is designed to put Indians, in the exercise of 
    self-government, into a decisionmaking position with respect to 
    their own lives. (USA Helsinki Report to CSCE 1979, p. 149)

<bullet> The report further asserted that the state's relationship to 
    Indian nations is one where ``. . . the U.S. Government entered 
    into a trust relationship with the separate tribes in 
    acknowledgment, not of their racial distinctness, but of their 
    political status as sovereign nations.'' (USA Helsinki Report to 
    CSCE 1979)

    At its core, UNDRIP is a vindication of long-standing U.S. human 
rights policy since President Woodrow Wilson introduced the concept of 
self-determination at the beginning of the 20th century. As the Special 
Rapporteur on the situation of human rights and fundamental freedoms of 
indigenous peoples for the United Nations stated in his August 2008 
report:

        [The Declaration] ``represents an authoritative common 
        understanding, at the global level, of the minimum content of 
        the rights of indigenous peoples, upon a foundation of various 
        sources of international human rights law.''

    Last winter, President Obama announced the support of the United 
States for UNDRIP at a gathering of tribal leaders, finally embracing 
an international instrument that enshrines the very principles it 
claimed as relevant to the Helsinki Final Act of 1975.
    Now that the United States has embraced UNDRIP, attention must turn 
to implementing its spirit and principles in domestic policy towards 
Indian nations. UNDRIP sets forth fundamental principles within an 
international framework which can guide political relationships between 
the United States and its indigenous peoples.
    The Quinault and other Indian Nations of this country have 
experienced firsthand the loss of land and resources expropriated 
through force, coercion, fraud, treachery, and sometimes treaties, and 
continue to experience a sad legacy of devastation, frustration and 
despair left behind by a trail of broken promises and disregard for 
human rights of their peoples. Poverty, unemployment, and economic 
deprivation are extreme. Social systems are inadequate to provide basic 
health, education, and public safety. Tribal natural resources continue 
to be subject to colonial exploitation and deterioration from neglect.
    I do not raise these points to dwell on the injustices of the past, 
but rather to express my opinion that full endorsement of the UNDRIP by 
the United States opens the way to embark on a path to forge a better 
future for the generations of tribal and non-tribal peoples to come; 
and constructive relations between Indian nations and the United 
States:

<bullet> Indigenous peoples have the right to maintain and strengthen 
    their distinct political, legal, economic, social and cultural 
    institutions, while retaining their rights to participate fully, if 
    they so choose, in the political, economic, social and cultural 
    life of political states.

<bullet> Indigenous peoples have rights to lands, territories and 
    resources which they have traditionally owned, occupied or 
    otherwise used or acquired.

<bullet> Indigenous peoples and individuals are free and equal to all 
    other peoples and have the right not to be subject to any kind of 
    discrimination based on their indigenous origin or identity.

<bullet> Political states have the obligation to provide for 
    substantive, good faith participation by indigenous peoples in 
    legislative or administrative processes and measures which affect 
    their rights and interests and to obtain their free, prior and 
    informed consent.

<bullet> Indigenous peoples have the right to the full enjoyment, as a 
    collective or as individuals, of all human rights and fundamental 
    freedoms as recognized in the Charter of the United Nations, the 
    Universal Declaration of Human Rights and international human 
    rights law.

<bullet> It must be understood, furthermore, that by endorsing UNDRIP, 
    the United States took a key step to enable the United States 
    government to constructively contribute to the current climate 
    change negotiations. The U.S. government's foreign policy is now in 
    line with its domestic pronouncements, providing a firm foundation 
    upon which key implementation policies beneficial to both the U.S. 
    and Indian Nations internally and externally can be built.

    In appearing before the Committee today, I was asked to comment on 
four basic questions:

    Question 1. What's next now that there is a U.N. Declaration on the 
Rights of Indigenous Peoples?
    Answer. The United States should adopt policies and enact 
legislation as necessary to effectuate the principles enunciated in the 
Declaration, particularly those relating to free, prior, and informed 
consent, protection of intellectual property rights.

    Question 2. What is good domestic policy? What are the benefits to 
Tribal governments, communities and citizens?
    Answer. Good domestic policy for implementing the UN Declaration 
would reflect the unique body of law policy, and political 
relationships with the indigenous peoples of the United States. Good 
domestic policy would also affirm tribal jurisdiction over their lands, 
resources, and peoples, instead of the mish-mash created by the social 
engineering of the federal courts, Congress, and the federal 
Administration. Implementation of the UN Declaration would demonstrate 
the commitment and leadership of the United States to the world 
community.

    Question 3. How is it formulated?
    Answer. Good domestic policy to implement the UN Declaration for 
application within the U.S. would be developed through government-to-
government dialogue between Indian Nations. By ``dialogue'', I mean 
substantive discussion between sovereigns to resolve differences, not 
``consultation'' which has been interpreted to enable the United States 
to unilaterally retain all decisionmaking power.

    Question 4. What has not been addressed in the federal policy? How 
have Tribal efforts for economic development and commerce been 
impacted?
    Answer. I am unaware of a federal policy that has been adopted to 
implement UNDRIP. In the United States, implementation of UNDRIP must 
occur within the historical context of treaties, reserved rights, and 
judicial decrees
    However, it must be recognized and understood that despite its 
frequent protestations against other states' governments deem 
dismissive of human rights norms, the political, administrative, and 
legal arms of the United States government have kept American Indian 
nations in a state of perpetual dependency. Tribal communities suffer 
from a legacy of over a hundred and fifty years of political and 
economic oppression.
    The long-term economic and social future of Indian nations is 
dependent on maintaining access to sufficient quantities of traditional 
foods and medicines both inside and outside the boundaries of reserved 
territories. In accord with the Stevens' Treaties signed by Indian 
nations and ratified by the U.S. Senate, Indian nations reserved the 
right and privilege to hunt, fish, and gather resources to maintain 
tribal life ways. The United States Congress should in accord with 
Article 3 of these and similar treaties affirm the authority of Indian 
nations to regulate and manage tribal hunting and gathering activities 
to promote our social and economic well being implementing clauses in 
Article 24 and 26 of the UNDRIP. New legislation respecting these two 
Articles of UNDRIP and clauses contained in treaties concluded between 
Indian nations and the United States should bar federal, state, county 
and local governments from interfering with Indian nations' exercise of 
reserved rights.
    The U.S. Senate should consider and enact legislation that ensures 
that all American Indians, Alaskan Natives and Native Hawaiians are 
able to access and benefit from financial and technical assistance in 
the future available to indigenous peoples from states' governments and 
multi-lateral agencies acting in support of indigenous peoples as a 
result of international cooperation and agreements thereby implementing 
Article 23 and Article 39 of UNDRIP.
    For Indian nations of the U.S., UNDRIP's general principles must be 
implemented under conditions where lands and resources are held in 
trust for the benefit of Indians by the U.S. The trust status protects 
these resources from alienation to some degree, but it also imparts 
special fiduciary obligations on the U.S. which increase transaction 
costs for both the beneficiaries and trustee, and imposes difficult 
challenges for securing loans to finance economic development 
activities.
    Lastly, the jurisdictional morass resulting from social engineering 
by Congress and the Courts must be rectified. Tribal sovereign powers 
need to be affirmed. Jurisdictional conflicts and voids have created a 
no-man's land on reservations where the power to govern depends on the 
type of land ownership, the nature of offenses, and the tribal 
affiliation of the offenders. For regulation of commerce, 
jurisdictional problems have increased the difficulty of controlling 
development and business activities within reservation boundaries and 
created a difficult social environment that has rendered tribal members 
extremely vulnerable to victimization by drug and alcohol abuse and 
domestic violence.

Tribal concerns and views on Commerce, Environmental Stewardship on 
        federal lands and Tribal Economic Development and Trade.
    The Senate with the free, prior and informed consent of affected 
Indian governments should recognize the right of Indian nations to 
freely trade and conduct commerce without interference by U.S. 
government agencies provided that Indian nations conduct trade and 
commerce consistent with agreed international trade and commerce 
statues implementing clauses in Article 21 (2), Article 36 and Article 
37 of UNDRIP.
    Regarding environmental stewardship, there is a long, sad history 
of Tribal needs and interests falling victim to policy and economic 
decisions made by federal and state jurisdictions. Tribes are suffering 
environmental injustice as their rights to self-determination over 
their lands, resources, and peoples have often been sacrificed to 
benefit non-tribal interests--for instance tribal prerogatives are 
being denied to compensate for environmental degradation caused by non-
tribal development. At Quinault, because of extensive and intensive 
non-Indian logging of old growth forests, species like the marbled 
murrelet and northern spotted owl have become listed under the ESA. 
This has led to the imposition of restrictions on tribal activities, 
resulting from the loss of tens of millions of dollars in stumpage 
revenues, loss of businesses and jobs in the community, and devaluation 
of trust assets. An additional concern is that our reservation homeland 
that was set aside for our exclusive use and occupancy is becoming a 
refuge for ESA-listed species because of continuing environmental 
deterioration elsewhere. Displacement of environmental costs onto 
tribes is not limited to reservation lands. Desires to provide 
additional protection for non-Indian lands in the Chehalis Basin, dams 
and levees are being proposed without adequate consideration to the 
threats that these structures pose to habitat critical to sustaining 
treaty-protected fishery resources that are central to QIN's economy 
and way of life.
    This travesty must end. Implementation of UNDRIP should include 
provisions that protect territorial dominion of Tribal governments over 
their lands and resources.
    Finally, I wish to recommend that the U.S. Senate consider and 
enact an appropriation of $12 million annually for ten years to support 
American Indian, Alaskan Native and Native Hawaiian delegations to 
participate in international conferences, workshops, seminars, and 
intergovernmental consultations as an International Development 
initiative promoting indigenous peoples' dialogue and agreements 
advancing trade, commerce, and improved understanding concerning 
intellectual property rights, biological diversity, climate change, and 
opportunities for economic cooperation thus implementing clauses in 
Article 3, Article 18, Article 19, Article 23, Article 29 (1) of 
UNDRIP.
    Many of these recommendations align with consensus views of 
indigenous nations and organizations in the international community. I 
have attached two documents which lend context. Annex A is a joint 
statement entitled: ``Implementation of the UN Declaration on the 
Rights of Indigenous Peoples: Positive Initiatives and Serious 
Concerns'' and Annex B entitled: ``Open-Ended Ad Hoc Intergovernmental 
Committee for the Nagoya Protocol on Access to Genetic Resources and 
the Fair and Equitable Sharing of Benefits Arising from their 
Utilization.''
    I thank the Committee on Indian Affairs for its invitation to 
provide testimony regarding implementation of the clauses and sections 
of UNDRIP for consideration.

    The Chairman. Thank you so much. And now we will receive 
the statement from Mr. Ettawageshik.

  STATEMENT OF FRANK ETTAWAGESHIK, EXECUTIVE DIRECTOR, UNITED 
                       TRIBES OF MICHIGAN

    Mr. Ettawageshik. Thank you, Mr. Chairman, Senator Udall. I 
would like to acknowledge all of the folks that are here that 
are listening and that are part of this, those who will read 
this record and who are concerned about these issues, and who 
are working toward the implementation of this Declaration and 
working toward the goodwill of people all over the earth.
    There have been a number of different comments that have 
been made. One of them was talking about what is happening in 
other places in the world and what is happening with indigenous 
peoples. And there are, I have more detail in my written 
testimony, but there are several documents that I have attached 
to that written testimony that demonstrate and talk about some 
of these things and what has been happening.
    The first one that I talk about is the United League of 
Indigenous Nations Treaty. There are in excess of 80 indigenous 
nations that are signers to this at this point. And there are 
Maori from New Zealand area, from Australia, aborigines, First 
Nations from Canada, and tribes from the United States. We have 
interests from a number of other areas, of people who are 
interested in this.
    This is working toward the idea of finding ways to share 
with each other and to strengthen each other's endeavors in a 
variety of different areas, but mostly just to work together 
with each other. These are things that, there have been a lot 
of attempts at this at various times in the past. This is 
another one, and it is in light of a lot of the discussion that 
was occurring at the UN. We actually signed this treaty prior 
to the time when the Declaration had passed. And yet it was all 
part of that process in a way.
    A second one is the statement from the first Roundtable for 
the World Parliament of Indigenous Peoples from this last 
January. I attended this in India, where representatives of the 
native indigenous nations all across the continental United 
States, Native Alaskans, Native Hawaiians, people from a 
variety of other indigenous nations all over the earth that 
attended. It was in the idea of working toward implementation, 
but in an international way.
    Another one is the Message of the Living Spirit of the 
Convening of Indigenous Peoples for the Healing of Mother Earth 
at the cultural territory of the Maya. It is quite a big title, 
takes the full top of the page. You get a pretty good idea what 
this is. This was put together by North American indigenous 
people from Mexico, Canada and the United States. This was done 
in Palenque, in the State of Chiapas, in Mexico. We had nearly 
150 representatives who put this document together, talking 
about maintaining balance in the direction, the four direction 
teachings, maintaining of balance between earth, water, fire 
and wind. And the things that need to be done to protect, the 
document goes into some detail about assessing the strengths 
and our traditional teachings in these areas.
    But also the disharmony that is occurring in each of these 
directions and the disharmony that is threatening our very 
existence on earth, addressing some of the points that 
President Sharp talked about, in terms of, it is important for 
us to be at the table. We have some very important teachings 
that can inform the process.
    Other documents are the Mystic Lake Declaration, which came 
from the Native Peoples Native Homelands Climate Change 
Workshop II. NASA was one of the sponsors of this, as well as 
others who were people from all over the continent who came to 
that. And this was putting together a statement that would help 
inform the process in Copenhagen. Once again, talking about the 
harmony and disharmony and things that were there. There are 
some very strong things that come out of that.
    And the last document that I have is the Tribal-State 
Climate Accord in the State of Michigan, where the tribal 
governments and the State of Michigan have signed an accord on 
how we are going to be working on implementing the discussions 
to deal with the issues that come relative to climate.
    These all have two major things that they are dealing with. 
They are dealing with environmental traditional knowledge and 
how that relates to climate. And they are dealing with inherent 
sovereignty, and they are making the statement that as 
indigenous peoples, we have this inherent sovereignty that is, 
no one can give you sovereignty. You are either sovereign or 
you aren't.
    The indigenous peoples, when you have the recognition 
process, for instance, which is one of the areas that I gave 
testimony on here before this Committee, in a previous hearing, 
the problem that comes up is that we often, the system seems to 
look at this as if you are looking at a people and you are 
either, you are going to decide whether you are going to grant 
them sovereignty.
    But that isn't the case. It is a case of deciding whether 
you are going to have diplomatic relations with this sovereign 
entity. You have to decide that. I don't think that, the 
process has not been one that looks at this as a two-way 
street. Frankly, it needs to. In light of the Declaration, I 
think we need to review all of those things.
    To conclude, I am calling for, as well as other people have 
called for this, is that there needs to be a comprehensive 
review of existing United States laws and relationships with 
tribal nations. But this needs to be done carefully and 
thoughtfully, but it needs to include all parties that are 
affected. A special joint commission of the U.S. and tribal 
nations should be created and charged with this review, 
creating a record that will inform the process of 
implementation.
    Indigenous peoples' knowledge, the traditional teachings 
guide us in our relationship with our mother, the earth. We 
know that we must respect the forces of nature. We must seek 
balance in our lives and communities and nations. We must 
consider the consequences of our actions through the coming 
seven generations. We have gifts, knowledge, traditions and a 
way of life that has been handed down from the preceding 
generations. These gifts not only benefit our own peoples, they 
also enrich and provide guidance for the preservation of all 
humankind. We seek the strength and wisdom to do our part to 
continue this sacred responsibility.
    I thank you for the opportunity to provide this testimony. 
I would be glad to answer any questions when the time comes. 
Thank you.
    [The prepared statement of Mr. Ettawageshik follows:]

 Prepared Statement of Frank Ettawageshik, Executive Director, United 
                           Tribes of Michigan

Introduction
    Aanii. Pipigwa ododem. Naakwegeshik n'dizhnikaz. Waganakising 
n'doonjibaa. (Hello. Sparrow Hawk is my clan. Noon Day in my name. I'm 
from the place of the Crooked Tree.) I live near Harbor Springs, 
Michigan in the Odawa homeland of Waganakising. I want to acknowledge 
the Elders across Indian Country who have maintained our traditional 
ways and shared with us the knowledge, strength and guidance to help us 
to live in a good way.
    Thank you for the invitation to give testimony today before the 
Senate Committee on Indian Affairs. Over the past 20 years I've been 
privileged to serve my tribe, the Waganakising Odawak (Little Traverse 
Bay Bands of Odawa Indians of Michigan), in both elected and appointed 
office. After leaving the office of Tribal Chairman in 2009, I became 
the Executive Director of the United Tribes of Michigan, a position in 
which I still serve. I also serve as the co-chair of the National 
Congress of American Indians' Federal Recognition Task Force. In this 
capacity on Wednesday, November 4, 2009, I presented the testimony on 
behalf of the National Congress of American Indians at an oversight 
hearing on the federal recognition process before this Committee.
    During my tenure as a Tribal Chairman, I attended several State 
Department meetings with tribal leaders regarding the negotiation for 
the proposed United Nations Declaration on the Rights of Indigenous 
Peoples (Declaration). I considered this work to be of the highest 
importance and was disappointed when the United States did not vote in 
the affirmative when the final declaration was considered by the United 
Nations in September 2007. Many tribal citizens and leaders throughout 
Indian Country made repeated and consistent efforts to encourage the 
United States to reconsider this position and to endorse the 
Declaration. Meanwhile, the three other Nation States who voted no, one 
at a time, changed their positions over the intervening years. And 
then, in December 2010, we were excited to hear President Obama 
indicate that after careful consideration the position of the United 
States was changed.
    The lengthy and difficult process by which this Declaration was 
negotiated and approved by the Nation States of the world gives 
indication of the ongoing complexity of Indigenous Peoples' positions 
within diverse governing systems of the world nations. The Indigenous 
Peoples' place in the unfolding history of human development is one of 
significant struggle against oppression, exploitation, genocide, and 
marginalization.
    While there are myriad ramifications for all parties concerned in 
the implementation of the provisions of the Declaration, in this 
testimony I will be mainly focused on the issues of recognition of 
Indigenous Peoples and the collective challenge facing humankind in 
dealing with our changing climate.

Federal Recognition
    The Declaration acknowledges indigenous peoples and outlines 
standards which the world community of Nation States believes that the 
member nations should uphold in their relationships with Indigenous 
Peoples. In the United States Constitution North America's indigenous 
peoples are referred to as Indian Tribes whose existence predates that 
of the United States itself. These Indian Tribes are nations with 
inherent sovereignty with our own laws and customs. By recognizing or 
acknowledging a tribal nation the U.S. government is not creating a 
nation or sovereign entity. The U.S. government is merely recognizing 
an already existing tribal nation. No one can give sovereignty to a 
nation. A nation or entity either is sovereign or it is not.
    It is the responsibility of each sovereign to negotiate the 
acceptance of its sovereignty by the other sovereigns with whom it 
interacts. Tribal nations, like all the world's nations, must 
constantly negotiate the acceptance of their sovereignty with each 
other and with other national governments in a continually changing 
world.
    Indigenous Peoples have banded together with each other in support 
of this negotiation for the acceptance of their sovereignty. A couple 
of examples are the United League of Indigenous Nations Treaty (ULIN) 
and the World Parliament of Indigenous Peoples, although there are many 
other organizational efforts.
    The ULIN Treaty has a growing number of Indigenous Peoples as 
signers, currently numbering in excess of 80. These signatories are so 
far to date from Indigenous Peoples and Nations who are located within 
the Nation States of Australia, New Zealand, Canada and the United 
States. The opening principles within the treaty include that ``The 
Creator has made us part of and inseparable from the natural world 
around us . . .'' and that the ``Political, social, cultural and 
economic relations between our Indigenous Nations have existed since 
time immemorial and our right to continue such relationships are 
inseparable from our inherent Indigenous rights of nationhood. 
Indigenous Peoples have the right of self-determination and, by virtue 
of that right, our Peoples freely determine our political status and 
freely pursue our social, cultural and economic development.'' (copy of 
treaty attached)
    Booshakti Kendra (Mother Earth Center) near Tumkur, India, was the 
location for the First Roundtable discussing the creation of the World 
Parliament of Indigenous Peoples on the 7th through the 10th of January 
2011. Thirty-nine representatives of Indigenous Peoples from around the 
world held three days of discussions and ceremonies, issuing a 
statement that said, in part,

        ''The unrelenting assault on the cultures, histories and 
        dignity of the Indigenous Peoples and the living Universe must 
        be understood and responded to creatively by Indigenous Peoples 
        themselves. The First Round Table of the World Parliament of 
        Indigenous Peoples asserts that while we recognize our cultural 
        differences, we simultaneously and synergistically gather 
        together our common cultural ethics and ancestral 
        understandings toward the fulfilment of our self-assertion, 
        self-actualization, self-determination, sovereignty and 
        ultimately, our transformation. These at once ancient and 
        contemporary strengths will enable us to move within the 
        formation of nation-states within which we find ourselves, 
        transforming them in ways that embody Indigenous ethics of 
        respect, relationship and reciprocity for Indigenous 
        communities, along with all other peoples, particularly 
        marginalised and/or excluded communities. `` (copy of full 
        statement attached)

    In the United States, the U.S. Supreme Court has grappled with the 
issues relating to the Indian Tribes and has made many rulings that 
govern the relationship of the U.S. government and its political 
subdivisions with the Indian Tribal Nations. The Constitution and court 
rulings however do not direct the internal sovereignty and affairs of 
the Tribal Nations or limit that sovereignty. These rulings do, 
however, make the exercise of sovereignty by a Tribal Nation more 
difficult by placing limits within U.S. law on federal, state and local 
governments in dealing with tribal issues.
    There are 565 federally recognized Indian Tribal Nations in the 
U.S. There are many unrecognized sovereign Tribal Nations not counted 
in this number who are seeking acknowledgement of federal/tribal 
relations. The manner in which the United States has been 
``negotiating'' its acceptance of these Tribal Nations has been a 
process that is cumbersome, expensive, demeaning, excessively lengthy, 
and filled with contradictions. The process takes so long that this 
alone creates an injustice not in keeping with the Declaration. The 
Declaration acknowledges that whether federally recognized or not, the 
U.S. and all world nations have responsibilities, standards for action, 
and ethical duties to respect Indigenous Peoples rights and existence.
    The U.S. recognition process assumes that recognition is a one-way 
arrangement when actually it is an acknowledgment of a two-way 
relationship. Both parties have rights, responsibilities and duties in 
the maintenance of this relationship. The Declaration outlines 
parameters for this relationship that were previously not commonly 
utilized. Implicit within the Declaration is the expectation that all 
Indigenous Peoples can expect and demand that their inherent rights are 
respected in their relations with Nation States.

Climate Change
    The traditional knowledge held by the indigenous peoples of the 
world, and within the United States, is a vast reservoir of teachings 
and lore that contains within it much that is needed as we collectively 
face an uncertain future, filled with a rapidly changing climate, 
rising sea levels, and cataclysmic natural disasters. This uncertainty 
is having, and will continue to have, significant effects within 
individuals, families, communities, nations and across the entire 
world.
    Indigenous Peoples from around the world have been preparing for 
dealing with these changes. In 2008, in Palenque, Mexico, the Convening 
of Indigenous Peoples for the Healing of Mother Earth was held with 
nearly 150 representatives from all across North America. Using our 
traditional knowledge and teachings a document was drafted outlining 
the imbalance that Indigenous People feel in the Earth today and 
issuing a warning of the dire consequences humankind is facing because 
of this imbalance (copy attached).
    In 2009, at Prior Lake, Minnesota, the Native Peoples Native 
Homelands Climate Change Workshop II was held. The result was the 
Mystic Lake Declaration the intent of which was to inform the 
discussions at the 2009 Copenhagen Climate Summit. In this Declaration 
Native Peoples stated:

        ''We hereby declare, affirm, and assert our inalienable rights 
        as well as responsibilities as members of sovereign Native 
        Nations. In doing so, we expect to be active participants with 
        full representation in United States and international legally 
        binding treaty agreements regarding climate, energy, 
        biodiversity, food sovereignty, water and sustainable 
        development policies affecting our peoples and our respective 
        Homelands on Turtle Island (North America) and Pacific Islands.

        We are of the Earth. The Earth is the source of life to be 
        protected, not merely a resource to be exploited. Our 
        ancestors' remains lie within her. Water is her lifeblood. We 
        are dependent upon her for our shelter and our sustenance. Our 
        lifeways are the original ``green economies.'' We have our 
        place and our responsibilities within Creation's sacred order. 
        We feel the sustaining joy as things occur in harmony. We feel 
        the pain of disharmony when we witness the dishonor of the 
        natural order of Creation and the degradation of Mother Earth 
        and her companion Moon.'' (see attached copy)

    The North American tribal nations who reside within the territory 
of the United States are among the first in the U.S. to directly feel 
the impacts of the changing climate just as around the world, 
indigenous peoples are today and will continue to be the earliest and 
most severely impacted. In the arctic whole seaside native villages are 
threatened as erosion from rising waters and melting permafrost combine 
in a relentless process that is causing them to be destroyed. The 
Indian Tribal Nations along the coast of the Gulf of Mexico have 
suffered loss of land, resources, heritage sites, and have suffered 
severe economic hardship due to storm erosion and rising ocean levels.
    Across the whole United States tribal nations' physical, social, 
emotional and spiritual environments are under attack by outside 
pressures which now include the changing climate which is adjusting the 
habitat around us. In the past when the climate changed we were free to 
move with the changes, but today we are for the most part fixed in 
place. This will cause our cultures to have to adapt in ways that we 
have never before had to face.
    Tribal Nations need to have access to adequate resources to work 
with each other and with the U.S. and state governments to help 
mitigate the negative impacts being caused by this changing climate. 
There are two ways that this can be accomplished. One is to remove 
restrictions on Tribal Nations that make it difficult for us to help 
ourselves. Better access to capital and economic development 
opportunities is needed. The ability to exercise our sovereign rights 
to regulate and develop our own lands without excessive U.S. government 
oversight and regulation is long overdue.
    The second way to help Tribal Nations is to adequately fund 
existing programs that are used by tribes to prepare for the climate 
challenges that we are facing. Equity in funding opportunities to 
create and coordinate climate planning amongst our tribal nations and 
with other governments around us is essential.
    In some areas of the country several steps have already been taken. 
In Michigan for example, I was appointed to represent tribal interests 
on the Michigan Climate Action Council. The resulting Climate Action 
Plan that the Council presented to Michigan's governor contained 
several tribally specific recommendations including the negotiation of 
a Tribal State Climate Accord. This has been completed and adopted (see 
attached copy).
    Through the provisions of this accord, twice yearly staff level 
meetings among state and tribal officials are held to discuss common 
issues in dealing with the changing climate. In at least one other 
state, tribal interests were recognized in the adoption of a Climate 
Action Plan.

Conclusion
    To guide the implementation of the Declaration's provisions a 
comprehensive review of existing United States laws and relationships 
with Tribal Nations needs to be begun. This needs to be done carefully 
and thoughtfully including all parties which are affected. Land uses, 
regulatory systems, territorial jurisdiction, agricultural development, 
and disaster preparedness and relief are just a few of the areas for 
review. A special joint commission of the U.S. and Tribal Nations 
should be created and charged with this review creating a record that 
will inform the process of implementation.
    Indigenous Peoples traditional teachings guide us in our 
relationship with our Mother the Earth. We know that we must respect 
the forces of nature, we must seek balance in our lives and communities 
and nations, we must consider the consequences of our actions through 
the coming seven generations. We have gifts, knowledge, traditions and 
a way of life that has been handed down from the preceding generations. 
These gifts not only benefit our own peoples, they also enrich and 
provide guidance for the preservation of all humankind. We seek the 
strength and wisdom to do our part to continue this sacred 
responsibility.
    I thank the Committee for its consideration of this testimony.

    Attachments

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 
    Statement from the First Roundtable for the World Parliament of 
    Indigenous Peoples, 2011 (Booshakthi Kendra, \1\ Tumkur, India)
---------------------------------------------------------------------------
    \1\ Booshakthi Kendra is the first ever Dalit Ashram in India 
initiated by Jyothi and Raj in Tumkur, India. It means Mother Earth 
Centre. It has the avowed purpose of being the springboard of learning, 
indigenous spirituality, indigenous philosophy and through these 
learning also generate liberative action for indigenous and other 
excluded peoples of the world.
---------------------------------------------------------------------------
    We, 39 Indigenous delegates from 10 countries who attended the 
First round Table of the World Parliament of Indigenous Peoples from 07 
to 10 January 2011 at the first ever Dalit Ashram, Booshakthi Kendra 
(1), Tumkur in India, make the following Statements.

Preamble
    Today the world is in need of Indigenous Peoples to ensure its 
survival into the future. The Indigenous Peoples of the world have 
sustained life with vibrancy, despite thousands of years of assault on 
their dignity and life-ways by dominant and colonial powers. The 
inclusive worldviews of the Indigenous Peoples have inherent capacity 
of providing the critical values and ethics, understandings, processes 
and protocols of respect and reciprocity, which unfold in ways that 
include relationship with all of life, ensuring that everyone is valued 
for their own unique gifts and contributions, which is the essence of 
real leadership and governance.
    The unrelenting assault on the cultures, histories and dignity of 
the Indigenous Peoples and the living Universe must be understood and 
responded to creatively by Indigenous Peoples themselves. The First 
Round Table of the World Parliament of Indigenous Peoples asserts that 
while we recognize our cultural differences, we simultaneously and 
synergistically gather together our common cultural ethics and 
ancestral understandings toward the fulfilment of our self-assertion, 
self-actualization, self-determination, sovereignty and ultimately, our 
transformation. These at once ancient and contemporary strengths will 
enable us to move within the formation of nation-states within which we 
find ourselves, transforming them in ways that embody Indigenous ethics 
of respect, relationship and reciprocity for Indigenous communities, 
along with all other peoples, particularly marginalised and/or excluded 
communities. The historic First Round Table in Tumkur, India has been 
held with the purpose of forming a World Parliament of Indigenous 
Peoples, which will provide an alternative model of leadership, 
protocols and understandings, envisioning and expanding into a future 
in which all the world's children have the possibility of living 
healthy, happy and fulfilled lives, secure in their identity, strong in 
their culture, proud of who they are, and able to carry themselves with 
honour, respect and dignity into our collective future.

Statements
    1. Humanity has the opportunity to benefit and grow from the 
collective spiritual strengths that arise in the global spirit of 
Indigenous Peoples and have been honed in their struggles.
    2. The mindless exploitation of the cosmos in its totality poses a 
serious problem to the Indigenous Peoples, as we consider Earth as our 
Mother and we have lived in harmony with nature for millennia. Any 
threat to the Earth and other planets is a simultaneous and inseparable 
threat to the existence of Indigenous Peoples. Our suffering has been 
inextricably intertwined with the sufferings of the cosmos. The World 
Parliament of Indigenous Peoples, when it becomes a reality in world 
history will become a veritable mouthpiece of the peoples of the world.
    3. The adoption of the United Nations Declaration on the Rights of 
Indigenous Peoples signals a commitment to Indigenous Peoples that has 
not been much demonstrated to this point.
    4. Further, this adoption shows that the time has come for 
Indigenous Peoples to unite in collective action aimed at creating 
benefits for Indigenous communities and the world at large.
    5. The formation of indigenous parliaments and indigenous political 
entities will facilitate this unity, as well as facilitate 
collaboration, discussion, decisionmaking, monitoring roles and support 
for Indigenous communities and individuals.
    6. We see merit in developing closer ties among the political 
entities of Indigenous Peoples. We are confident that our knowledge, 
experience, and worldviews can be valuable resources in addressing 
common challenges for human beings, animals and plants and in assuring 
our survival. We see these possibilities as both opportunity and 
responsibility.
    7. In anticipation and preparation for the United Nations World 
Conference on Indigenous Peoples in 2014, we invite indigenous 
parliaments, governments, and other indigenous political entities to 
join the efforts in recognizing our full and just participation in the 
global political arena.
    8. The role of the World Parliament will also be to raise awareness 
in the dominant world about the true nature and value of indigeneity. 
The world will then realize that Indigenous Peoples have the answer to 
most problems that beset the world that is groping in darkness today.
    The following delegates took part in the historic First Round Table 
of the World Parliament of Indigenous Peoples in Tumkur, India.--

    1. Ms. Ang Dawa Sherpa--Nepal
    2. Ms. Shanti Jirel--Nepal
    3. Mr. Walter Hahn--Germany
    4. Ms. Heidi Oline Salmi--Sapmi, Norway
    5. Mr. Jarle Jonassen--Sapmi, Norway
    6. Ms. Maria Therese Aslaksen--Sapmi, Norway
    7. Mr. Rune Fjellheim--Sapmi, Norway
    8. Ms. Kirsten Anne Guttorm--Sapmi, Norway
    9. Ms. Silja Somby--Sapmi, Norway
    10. Ms. Donna Ngaronoa Gardiner--New Zealand
    11. Mr. Tiopira Porutu Keith McDowell--New Zealand
    12. Mr. Charles Royal--New Zealand
    13. Ms. Trish Johnston--New Zealand
    14. Ms. Monica Royal--New Zealand
    15. Mr. Kerry Laiana Wong--Hawaii
    16. Ms. Eomailani Kukahiko--Hawaii
    17. Ms. Margaret Jane Maaka--Hawaii
    18. Ms. Darlene Hoskins McKenzie--Australia
    19. Ms. Debrah Ann Hocking--Australia
    20. Mr. Lenzerini Federico--Italy
    21. Mr. D Thangaraj IAS--India
    22. Ms. Rose Mary--Nagaland, India
    23. Mr. Anil Gaikwad--India
    24. Dr. Ruth Manorama--India
    25. Dr. Nara Singh--Manipur, India
    26. Mr. Jon Ross--Alaska
    27. Ms. Leanndra Ross--Alaska
    28. Ms. Jessica Ross--Alaska
    29. Ms. Ruby Shannon Vail--USA
    30. Mr. John Vail--USA
    31. Ms. Amanda Holmes--N. America
    32. Ms. June Lorenzo--N. America
    33. Mr. Frank David Ettawageshik--N. America
    34. Ms. Rosalie Little Thunder--N. America
    35. Mr. Tupac Enrique--N. America
    36. Mr. V B Rawat--India
    37. Ms. Jyothi--India
    38. Mr. M C Raj--India
    39. Ms. Arul Kani--India
                                 ______
                                 
Message of the Living Spirit of the Convening of Indigenous Peoples for 
   the Healing of Mother Earth (2008--Cultural Territory of the Maya)

    Dear Friends,
    It is a great honor to share the ``Message of the Living Spirit of 
the Convening of Indigenous Peoples for the Healing of Mother Earth,'' 
the outcome of the Convening that took place in the Cultural Territory 
of the Maya in Palenque, Chiapas, Mexico on March 10-13, 2008. At the 
direction of the participants at this gathering, this message is a Call 
To Action to Indigenous peoples, and to all peoples of the world.
    The Convening for the Protection of Mother Earth was planned by and 
for Indigenous peoples from North America to bring together Indigenous 
leaders, including spiritual and traditional healers, elders, wisdom 
keepers, and practitioners, to address the need for immediate 
intervention and action, based upon our original teachings, in order to 
ensure a healthy future for coming generations. We recognize that our 
current and future actions must not be based upon the same worldview 
that has brought such global destruction to Mother Earth. We must 
reclaim and revitalize the wisdom passed on to us from our Ancestors 
about how to be responsible to each other and to the Natural World.
    This Message was created through ceremony and prayer, but it is up 
to each of us to find ways to give this Message life and meaning as we 
all take steps to protect the Natural World. It is intended to be a 
living document that serves as a source of inspiration to Indigenous 
peoples, governments, and civil society, to take our responsibilities 
to protect Mother Earth seriously, and to provide some guidance for 
moving forward.
    Finally, we wish to acknowledge the participation and deliberations 
of the Indigenous peoples, representing Indigenous nations and 
communities from throughout North America, and gratefully thank the 
following organizations for their generous contributions and support 
including: U.S. Environmental Protection Agency, Health Canada, The 
Mexican Secretariat of Environment and Natural Resources, The Mexican 
National Commission for the Development of Indigenous Peoples, and the 
Commission for Environmental Cooperation.
    Please visit the Convening for the Protection of Mother Earth 
website for further information at: www.indigenousconvening.com.

Introduction
    Having been welcomed to convene in ceremony at the sacred site of 
Palenque (Cerco de Estacas) to heed the call of Mother Earth and honor 
the sacred elements of water, air, earth and fire in unity as 
Indigenous Peoples of Lak % Lum upon the traditional territory of the 
Maya People on the 10-13 of March 2008, we commit in unity to the 
Message of the Living Spirit.
    We the Indigenous Nations, Peoples, tribes, pueblos, communities, 
villages, situated within the geopolitical boundaries claimed by the 
nation-states of Mexico, Canada, and the United States hereby make this 
declaration and urgent message to the world on the basis of our 
spirituality and the natural biological Laws of Life on Mother Earth, 
the Sacred Life-Giver. It is our inherent birthright and responsibility 
as the original free and independent Peoples of Turtle Island to care 
for Mother Earth in keeping with our Original Instructions from 
Creation.
    These natural laws are inclusive of Honor, Respect, Love, 
Compassion, Peace, and Friendship. It is in keeping with these natural 
laws and Indigenous values that the traditional knowledge and wisdom 
bequeathed to us by our ancestors, and carried today by our Elders, 
teaches us how to live in balance with the Four Sacred Elements of 
Life: Earth, Water, Air, and Fire. We are the guardians of these 
elements of Life.
    Fire is meant to ignite and unite the spirit of humanity. Water is 
the life blood of all living things. Air is the sacred breath of life. 
Earth is the Mother that nurtures us all. Beyond the tangible aspect of 
our relationships with all the sacred elements, there is intangible 
interaction. The role of the sacred elements is central in our customs, 
traditions, stories, songs, and dances.
    The Indigenous prophecies foretell the urgent environmental crisis 
we face today. The Indigenous Peoples have the responsibility to 
provide our traditional knowledge to the world. The ancestral ways of 
Indigenous peoples have the power to heal our Mother Earth. We demand 
that the nation-state and state governments stop the destruction and 
violations against the four elements of Life.
    Western legal and religious histories, philosophies and laws have 
totally disrupted our ways of life. Our traditional spiritual ways and 
knowledge systems honor the interconnections and interrelationships of 
the Web of Life, and sustain, not destroy Mother Earth.

Vision
    As caretakers of Mother Earth, speaking with one spirit, one mind, 
one heart and as one family, utilizing the original teachings given to 
human beings by the Creator, we will restore balance and harmony to 
Mother Earth and all her children.
    Guided by the wisdom and vision of our ancestors in the spirit 
world, elders, spiritual leaders and traditional and Indigenous 
community leaders, we understand the Natural Law given to us by the 
Creator guides our traditional way of life in harmony with all creation 
upon the land and waters of Mother Earth.

The Pain of Mother Earth
    As the peoples of the land, we are the first to hear, see, feel, 
taste and spiritually sense the pain of Mother Earth. She is dying and 
we hear her cry. Her heart is wounded and her pain is our pain, her 
illness is our illness, our survival is dependent upon her survival.
    As Indigenous peoples, we have a spiritual and familial 
relationship to the sacred elements of water, air, earth and fire, and 
understand their holistic and inseparable relationship with each other. 
Through the western claim of asserting ownership over these sacred 
elements their spiritual interdependence is being destroyed.
Water

Minan ja' Minan kuxtal--Without Water, There Is no life
    The water represents the life-blood and the sustenance of all life. 
The purity and natural flow of water is necessary for maintaining the 
interdependent balance between all forms of life. Our sacred birthright 
includes the rivers, streams, natural springs, hot waters, lakes, 
underground aquifers, seas, bays, inlets, oceans, ice, snow, rain and 
all forms of and bodies of water.
    Deforestation and the removal of flora and fauna have resulted in 
the destruction of water sources. Organic and inorganic waste, refuse, 
and industrial wastewater are dumped directly into rivers and water 
sources that people need for drinking. As a result of toxins and 
pollutants, and industrial wastes many sources of water are unfit to 
drink and lead to serious and deadly health problems for humans and 
other forms of life. Indigenous peoples are often in the situation of 
having to choose between thirst and the possibility of serious illness 
or death from drinking polluted and contaminated water.
    Dams and hydroelectric projects pose a massive problem for the 
integrity of ecosystems and the ability of Indigenous Peoples to 
maintain their traditional ways of life, hunting, fishing, trapping, 
and harvesting. As a result of diversion and depletion of pristine 
water sources, many Indigenous Peoples do not have access to water. 
Regulatory frameworks also infringe upon Indigenous peoples' rights to, 
use of, and access to water. The privatization and commodification of 
water is a critical issue. No one owns water.

Air
    The air is the Messenger that announces the rains, it is a voice of 
our ancestors, and it is the central element for the preservation of 
cultures. The main causes of air pollution are industrialization, 
militarization, electricity generation, energy generation from 
nonrenewable sources, means of transport and inadequate management of 
toxic wastes. This situation threatens the health of our ecosystems, 
putting life at risk. Air pollution caused by automobile exhaust, has 
great impacts on the respiratory health of all peoples, particularly in 
urban areas. The pollution carried by the wind from coal-fire plants 
emit toxins negatively impact peoples at great distances. The burning 
of oil, gas, and coal (``fossil fuels'') causing the global warming is 
the primary source of human-induced climate change.

Earth
    Our sacred lands are under siege. The Western world improperly 
asserts that they have a right to extract the natural resources from 
our lands and territories without regard for our rights. This 
extraction has left in its wake a legacy of contamination, waste and 
loss of life. Indigenous peoples are facing the negative impacts of 
pollution, mining, deforestation, logging, oil prospecting, dumping of 
toxic waste, genetic engineering, fertilizers and pesticides, and soil 
erosion, all of which contribute to a severe loss of biodiversity. All 
of these threaten food security, subsistence lifestyles, human health 
and our ability to sustain our peoples. Our peoples are suffering from 
high rates of cancers, diabetes, heart disease and other serious 
diseases previously unknown to our peoples. In the name of conservation 
of biodiversity, Indigenous Peoples have been displaced from our 
territories designated as protected areas. There is a direct 
correlation between the health of the land and the holistic health and 
well-being of the people. This has particular and significant impact on 
Indigenous Women--the rape and desecration of Mother Earth is reflected 
in what has happened to Indigenous Women.

Fire
    The fire that sparks life is being disrespected by technology of 
the industrialized world that allows it to take life such as the fire 
in the coal-fired powered plants, the toxic waste incinerators, the 
fossil-fuel combustion engine and other polluting technologies that add 
to greenhouse gases, a primary cause of climate change. The abuse of 
the sacred element of fire conflicts with Indigenous knowledge and 
practices. Human beings are using fire in an exploitive, manipulative, 
destructive and deadly manner. The culturally inappropriate use of fire 
is manifested in the atomic bomb, military weaponry and warfare, 
nuclear power and radioactive waste, the extractive energy industries 
of coal, oil and gas, and the burning of forests and grasslands that 
result in the extinction of flora and fauna within our ancestral 
territories.

The Healing of Mother Earth
    Based on our inherent sovereignty and consistent with our inherent 
birthright to self-determination in international law, including the 
United Nations Declaration on the Rights of Indigenous Peoples, we 
affirm our responsibility to protect water, air, earth and fire. 
Because of our relationship with our lands, waters and natural 
surroundings since time immemorial, we carry the knowledge, ideas and 
solutions that the world needs today. We know how to live with Mother 
Earth because we are her children. We commit to sharing certain 
teachings of our peoples to all humanity so that they can find their 
original, sacred relationship to Mother Earth, Father Sky, and all 
Creation. It is our responsibility given to us by the Creator to speak 
for the plants, for the animals, and all life to bring their message to 
all of peoples and nations of the world.
    Traditional knowledge can aid in providing accurate ecological 
baselines embedded in and carried in Indigenous languages, including in 
traditional names of places, stories and oral narratives that reveal 
the original roles of natural habitats as given to us by the Creator. 
These baselines are critical for societal adaptation to environmental 
change, land use change and climate change, as well as indigenous 
cultural survival in the face of these detrimental changes in the world 
we live in today.

Call to Action to Indigenous Peoples
    Based on our inherent sovereignty and consistent with our right of 
self-determination in international law, we affirm our inherent 
birthright to water, air, earth and fire. We call upon our Indigenous 
brothers and sisters to fulfill our responsibilities bequeathed by our 
ancestors to secure a healthy environment for present and future 
generations. We know how to live with Mother Earth because we are her 
children. We are a powerful spiritual people. It is this spiritual 
connection to Mother Earth, Father Sky, and all Creation that the rest 
of the World must respect. Our extended family includes our Mother 
Earth, Father Sky, and our brothers and sisters, the animal and plant 
life, therefore, it is the responsibility given to us by the Creator to 
speak for the plants, for the animals, for the rest of Creation, for 
the future of all the children, for the future of Mother Earth and 
Father Sky. We commit to continue our traditional practices for the 
environment based on standards consistent with the Natural Laws of the 
Creator for the benefit of future generations.
    We call upon all Indigenous Peoples to:
    Honor and defend all the sacred elements by conducting their 
traditional ceremonies and prayers revitalizing and perpetuating 
traditional values and knowledge systems and applying them to today's 
realities. We the Indigenous Peoples at this Convening, offer to share 
the following gifts of knowledge through our own skills that have been 
developed and through proven best practices/successful indigenous 
practices or knowledge that have been successful:

  <bullet> Develop recycling capabilities for plastic, paper, glass and 
        metals in our own communities, ending the use of plastic;

  <bullet> Exercise traditional ways of growing crops; and

  <bullet> Plant more trees to clean the air and water, a holistic 
        reforestation with endemic plants.

  <bullet> Educate Indigenous Peoples and non-Indigenous people 
        beginning with our children and including individuals, 
        communities, governments, institutions and the media about the 
        role of these sacred elements in our world and our livelihoods.

  <bullet> Create and develop an Indigenous education circle without 
        borders, based on traditional knowledge using appropriate tools 
        of science to protect our sacred elements. This network can 
        include traditional practices, research experience, development 
        of curriculum for our children, and a library of knowledge that 
        can be shared with all of our Peoples.

  <bullet> Collaborate and organize events, gatherings and conferences 
        for the protection of the sacred elements.

  <bullet> Acknowledge the ancestral time in uniting ``All Nations, All 
        Faiths, One Prayer'' on June 21st to pray for united healing.

  <bullet> Assert and exercise our inherent, prior and collective 
        rights to manage, maintain and protect our lands and 
        territories.

  <bullet> Express our full support for the existing Indigenous 
        organizations and associations which are currently advocating 
        for the protection, stewardship and sustainability of water as 
        a resource and as a part of Indigenous identity, spirituality, 
        culture and nationhood.

  <bullet> There are numerous documents, resources, tools, instruments, 
        treaties, agreements and other constructive arrangements that 
        have been created by or in partnership with Indigenous Peoples. 
        We encourage more Indigenous Peoples to create such tools in 
        accordance with their respective customs, protocols and laws, 
        to articulate, implement or enforce our inherent rights and in 
        exercising self determination. We also urge Indigenous Peoples 
        to share such tools, skills, knowledge and resources with each 
        other.

  <bullet> Exercise the right of free, prior and informed consent to 
        any actions that may affect their lands and territories.

Call to Action to the Global Community
    Acknowledging the dignity of all life, peoples and nations, we call 
upon the global community to unite with Indigenous Peoples to learn the 
teachings and wisdom as bestowed to us by the Creator in order to heal 
Mother Earth. The realization of this Call to Action will only occur 
with the full, active and collaborative partnership of all peoples and 
nations. We call upon Leaders of all Nations of the World at all levels 
of decisionmaking, to accept responsibility for the welfare of future 
generations. Living by the traditional principles and values of Honor, 
Respect, Love, Compassion, Peace and Friendship, we call upon the 
Global Community:

International
  <bullet> Fully implement the United Nations Declaration on the Rights 
        of Indigenous Peoples.

  <bullet> Protect Indigenous peoples from the negative impacts of 
        trade agreements.

  <bullet> Recognize the rights of Indigenous Peoples consistent with 
        the United Nations Declaration on the Rights of Indigenous 
        Peoples and other international law, in the implementation of 
        international treaties, conventions and agreements relevant to 
        the environment, trade, and human rights including:

           --Convention on Biological Diversity, including Articles 
        8(j) and 10.

           --United Nations Framework Convention on Climate Change 
        (UNFCC) and the Kyoto Protocol

           --International Labour Organization Convention (ILO) 107 and 
        169

           --Organization of American States

           --OAS Proposed Declaration on the Rights of Indigenous 
        Peoples

           --Universal Declaration of Human Rights

           --International Convention on the Elimination of All Forms 
        of Racial Discrimination

           --International Covenant on Economic, Social and Cultural 
        Rights

           --International Covenant on Civil and Political Rights

           --Declaration on the Granting of Independence to Colonial 
        Countries and Peoples

           --General Assembly resolution 1803 (XVII) of 14 December 
        1962, ``Permanent sovereignty over natural resource''

           --Declaration on the Elimination of All Forms of Intolerance 
        and of Discrimination Based on Religion or Belief

National
  <bullet> Commit to the full implementation at the domestic level of 
        the United Nations Declaration on the Rights of Indigenous 
        Peoples.

  <bullet> That all levels of nation-state and state governments live 
        up to their commitments to Indigenous Peoples by recognizing 
        our inherent rights, cultural rights and rights held pursuant 
        to treaties, agreements and other constructive arrangements.

  <bullet> Implement a system of legislation, regulation, fines or 
        taxation for excessive use or abuse of any of the four sacred 
        elements.

  <bullet> Enter into a collaborative, and active partnership with 
        Indigenous Peoples to protect, sustain and maintain sacred 
        sites of Indigenous Peoples.

  <bullet> Governments should guarantee the restructuring and repair of 
        the damage done to the cultural patrimony and territory of 
        Indigenous Peoples.

Non-Governmental and Civil Society
  <bullet> Civil society and non-governmental organizations to involve 
        and support Indigenous Peoples in the protection of our lands, 
        territories and rights. This includes advocacy concerning any 
        activity impacting the four sacred elements.

  <bullet> Encourage civil society, and non-governmental organizations 
        to respect and honor the roles and responsibilities of 
        Indigenous Peoples in carrying out their mandates and roles;

Private Sector and State Corporations
  <bullet> Indigenous laws governing the four sacred elements must be 
        respected by the private sector, in addition to relevant 
        international, and national laws that are consistent with the 
        United Nations Declaration on the Rights of Indigenous Peoples 
        in carrying out their business or projects.

  <bullet> Ensure the free, prior and informed consent of Indigenous 
        Peoples prior to commencing any undertaking which impacts the 
        four sacred elements, including assessments or exploration, and 
        involving the participation of governments if necessary.

Declaration
    We, the Convening of Indigenous Peoples for the Healing of Mother 
Earth, support the spirit and intent of this message and send it out to 
all Indigenous peoples and to the World as a living document.
                                 ______
                                 
 The Mystic Lake Declaration (from the Native Peoples Native Homelands 
  Climate Change Workshop II: Indigenous Perspectives and Solutions--
                Prior Lake, Minnesota--November 21, 2009

    As community members, youth and elders, spiritual and traditional 
leaders, Native organizations and supporters of our Indigenous Nations, 
we have gathered on November 18-21, 2009 at Mystic Lake in the 
traditional homelands of the Shakopee Mdewakanton Dakota Oyate. This 
Second Native Peoples Native Homelands Climate Workshop builds upon the 
Albuquerque Declaration and work done at the 1998 Native Peoples Native 
Homelands Climate Change Workshop held in Albuquerque, New Mexico. We 
choose to work together to fulfill our sacred duties, listening to the 
teachings of our elders and the voices of our youth, to act wisely to 
carry out our responsibilities to enhance the health and respect the 
sacredness of Mother Earth, and to demand Climate Justice now. We 
acknowledge that to deal effectively with global climate change and 
global warming issues all sovereigns must work together to adapt and 
take action on real solutions that will ensure our collective 
existence.
    We hereby declare, affirm, and assert our inalienable rights as 
well as responsibilities as members of sovereign Native Nations. In 
doing so, we expect to be active participants with full representation 
in United States and international legally binding treaty agreements 
regarding climate, energy, biodiversity, food sovereignty, water and 
sustainable development policies affecting our peoples and our 
respective Homelands on Turtle Island (North America) and Pacific 
Islands.
    We are of the Earth. The Earth is the source of life to be 
protected, not merely a resource to be exploited. Our ancestors' 
remains lie within her. Water is her lifeblood. We are dependent upon 
her for our shelter and our sustenance. Our lifeways are the original 
``green economies.'' We have our place and our responsibilities within 
Creation's sacred order. We feel the sustaining joy as things occur in 
harmony. We feel the pain of disharmony when we witness the dishonor of 
the natural order of Creation and the degradation of Mother Earth and 
her companion Moon.
    We need to stop the disturbance of the sacred sites on Mother Earth 
so that she may heal and restore the balance in Creation. We ask the 
world community to join with the Indigenous Peoples to pray on summer 
solstice for the healing of all the sacred sites on Mother Earth.
    The well-being of the natural environment predicts the physical, 
mental, emotional and spiritual longevity of our Peoples and the Circle 
of Life. Mother Earth's health and that of our Indigenous Peoples are 
intrinsically intertwined. Unless our homelands are in a state of good 
health our Peoples will not be truly healthy. This inseparable 
relationship must be respected for the sake of our future generations. 
In this Declaration, we invite humanity to join with us to improve our 
collective human behavior so that we may develop a more sustainable 
world--a world where the inextricable relationship of biological, and 
environmental diversity, and cultural diversity is affirmed and 
protected. We have the power and responsibility to change. We can 
preserve, protect, and fulfill our sacred duties to live with respect 
in this wonderful Creation. However, we can also forget our 
responsibilities, disrespect Creation, cause disharmony and imperil our 
future and the future of others.
    At Mystic Lake, we reviewed the reports of indigenous science, 
traditional knowledge and cultural scholarship in cooperation with non-
native scientists and scholars. We shared our fears, concerns and 
insights. If current trends continue, native trees will no longer find 
habitable locations in our forests, fish will no longer find their 
streams livable, and humanity will find their homelands flooded or 
drought-stricken due to the changing weather. Our Native Nations have 
already disproportionately suffered the negative compounding effects of 
global warming and a changing climate.
    The United States and other industrialized countries have an 
addiction to the high consumption of energy. Mother Earth and her 
natural resources cannot sustain the consumption and production needs 
of this modern industrialized society and its dominant economic 
paradigm, which places value on the rapid economic growth, the quest 
for corporate and individual accumulation of wealth, and a race to 
exploit natural resources. The non-regenerative production system 
creates too much waste and toxic pollutions. We recognize the need for 
the United States and other industrialized countries to focus on new 
economies, governed by the absolute limits and boundaries of ecological 
sustainability, the carrying capacities of the Mother Earth, a more 
equitable sharing of global and local resources, encouragement and 
support of self sustaining communities, and respect and support for the 
rights of Mother Earth and her companion Moon.
    In recognizing the root causes of climate change, participants call 
upon the industrialized countries and the world to work towards 
decreasing dependency on fossil fuels. We call for a moratorium on all 
new exploration for oil, gas, coal and uranium as a first step towards 
the full phase-out of fossil fuels, without nuclear power, with a just 
transition to sustainable jobs, energy and environment. We take this 
position and make this recommendation based on our concern over the 
disproportionate social, cultural, spiritual, environmental and climate 
impacts on Indigenous Peoples, who are the first and the worst affected 
by the disruption of intact habitats, and the least responsible for 
such impacts.
    Indigenous peoples must call for the most stringent and binding 
emission reduction targets. Carbon emissions for developed countries 
must be reduced by no less than 40 percent, preferably 49 percent below 
1990 levels by 2020 and 95 percent by 2050. We call for national and 
global actions to stabilize CO<INF>2</INF> concentrations below 350 
parts per million (ppm) and limiting temperature increases to below 
1.5c.
    We challenge climate mitigation solutions to abandon false 
solutions to climate change that negatively impact Indigenous Peoples' 
rights, lands, air, oceans, forests, territories and waters. These 
include nuclear energy, large-scale dams, geo-engineering techniques, 
clean coal technologies, carbon capture and sequestration, bio-fuels, 
tree plantations, and international market-based mechanisms such as 
carbon trading and offsets, the Clean Development Mechanisms and 
Flexible Mechanisms under the Kyoto Protocol and forest offsets. The 
only real offsets are those renewable energy developments that actually 
displace fossil fuel-generated energy. We recommend the United States 
sign on to the Kyoto Protocol and to the United Nations Declaration of 
the Rights of Indigenous Peoples.
    We are concerned with how international carbon markets set up a 
framework for dealing with greenhouse gases that secure the property 
rights of heavy Northern fossil fuel users over the world's carbon-
absorbing capacity while creating new opportunities for corporate 
profit through trade. The system starts by translating existing 
pollution into a tradable commodity, the rights to which are allocated 
in accordance with a limit set by States or intergovernmental agencies. 
In establishing property rights over the world's carbon dump, the 
largest number of rights is granted (mostly for free) to those who have 
been most responsible for pollution in the first place. At UN COP15, 
the conservation of forests is being brought into a property right 
issue concerning trees and carbon. With some indigenous communities it 
is difficult and sometimes impossible to reconcile with traditional 
spiritual beliefs the participation in climate mitigation that 
commodifies the sacredness of air (carbon), trees and life. Climate 
change mitigation and sustainable forest management must be based on 
different mindsets with full respect for nature, and not solely on 
market-based mechanisms.
    We recognize the link between climate change and food security that 
affects Indigenous traditional food systems. We declare our Native 
Nations and our communities, waters, air, forests, oceans, sea ice, 
traditional lands and territories to be ``Food Sovereignty Areas,'' 
defined and directed by Indigenous Peoples according to our customary 
laws, free from extractive industries, unsustainable energy 
development, deforestation, and free from using food crops and 
agricultural lands for large scale bio-fuels.
    We encourage our communities to exchange information related to the 
sustainable and regenerative use of land, water, sea ice, traditional 
agriculture, forest management, ancestral seeds, food plants, animals 
and medicines that are essential in developing climate change 
adaptation and mitigation strategies, and will restore our food 
sovereignty, food independence, and strengthen our Indigenous families 
and Native Nations.
    We reject the assertion of intellectual property rights over the 
genetic resources and traditional knowledge of Indigenous peoples which 
results in the alienation and commodification of those things that are 
sacred and essential to our lives and cultures. We reject industrial 
modes of food production that promote the use of chemical substances, 
genetically engineered seeds and organisms. Therefore, we affirm our 
right to possess, control, protect and pass on the indigenous seeds, 
medicinal plants, traditional knowledge originating from our lands and 
territories for the benefit of our future generations.
    We can make changes in our lives and actions as individuals and as 
Nations that will lessen our contribution to the problems. In order for 
reality to shift, in order for solutions to major problems to be found 
and realized, we must transition away from the patterns of an 
industrialized mindset, thought and behavior that created those 
problems. It is time to exercise desperately needed Indigenous 
ingenuity--Indigenuity--inspired by our ancient intergenerational 
knowledge and wisdom given to us by our natural relatives.
    We recognize and support the position of the International 
Indigenous Peoples Forum on Climate Change (IIPFCC), operating as the 
Indigenous Caucus within the United Nations Framework Convention on 
Climate Change (UNFCCC), that is requesting language within the 
overarching principles of the outcomes of the Copenhagen UNFCCC 15th 
Session of the Conference of the Parties (COP15) and beyond Copenhagen, 
that would ensure respect for the knowledge and rights of indigenous 
peoples, including their rights to lands, territories, forests and 
resources to ensure their full and effective participation including 
free, prior and informed consent. It is crucial that the United Nations 
Declaration on the Rights of Indigenous Peoples (UNDRIP) is entered 
into all appropriate negotiating texts for it is recognized as the 
minimum international standard for the protection of rights, survival, 
protection and well-being of Indigenous Peoples, particularly with 
regard to health, subsistence, sustainable housing and infrastructure, 
and clean energy development.
    As Native Nations and Indigenous Peoples living within the occupied 
territories of the United States, we acknowledge with concern, the 
refusal of the United States to support negotiating text that would 
recognize applicable universal human rights instruments and agreements, 
including the UNDRIP, and further safeguard principles that would 
ensure their full and effective participation including free, prior and 
informed consent. We will do everything humanly possible by exercising 
our sovereign government-to-government relationship with the U.S. to 
seek justice on this issue.
    Our Indian languages are encoded with accumulated ecological 
knowledge and wisdom that extends back through oral history to the 
beginning of time. Our ancestors created land and water relationship 
systems premised upon the understanding that all life forms are 
relatives--not resources. We understand that we as human beings have a 
sacred and ceremonial responsibility to care for and maintain, through 
our original instructions, the health and well-being of all life within 
our traditional territories and Native Homelands.
    We will encourage our leadership and assume our role in supporting 
a just transition into a green economy, freeing ourselves from 
dependence on a carbon-based fossil fuel economy. This transition will 
be based upon development of an indigenous agricultural economy 
comprised of traditional food systems, sustainable buildings and 
infrastructure, clean energy and energy efficiency, and natural 
resource management systems based upon indigenous science and 
traditional knowledge. We are committed to development of economic 
systems that enable life-enhancement as a core component. We thus 
dedicate ourselves to the restoration of true wealth for all Peoples. 
In keeping with our traditional knowledge, this wealth is based not on 
monetary riches but rather on healthy relationships, relationships with 
each other, and relationships with all of the other natural elements 
and beings of creation.
    In order to provide leadership in the development of green 
economies of life-enhancement, we must end the chronic underfunding of 
our Native educational institutions and ensure adequate funding sources 
are maintained. We recognize the important role of our Native K-12 
schools and tribal colleges and universities that serve as education 
and training centers that can influence and nurture a much needed 
Indigenuity towards understanding climate change, nurturing clean 
renewable energy technologies, seeking solutions and building 
sustainable communities.
    The world needs to understand that the Earth is a living female 
organism--our Mother and our Grandmother. We are kin. As such, she 
needs to be loved and protected. We need to give back what we take from 
her in respectful mutuality. We need to walk gently. These Original 
Instructions are the natural spiritual laws, which are supreme. Science 
can urgently work with traditional knowledge keepers to restore the 
health and well-being of our Mother and Grandmother Earth.
    As we conclude this meeting we, the participating spiritual and 
traditional leaders, members and supporters of our Indigenous Nations, 
declare our intention to continue to fulfill our sacred 
responsibilities, to redouble our efforts to enable sustainable life-
enhancing economies, to walk gently on our Mother Earth, and to demand 
that we be a part of the decisionmaking and negotiations that impact 
our inherent and treaty-defined rights. Achievement of this vision for 
the future, guided by our traditional knowledge and teachings, will 
benefit all Peoples on the Earth.
    Approved by Acclamation and Individual Sign-ons.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 

    The Chairman. Thank you very much for your statement.
    And now I would like to call on Senator Udall to make the 
next introduction of a panelist.
    Senator Udall. Thank you very much, Chairman Akaka. Let me 
welcome here Duane Yazzie, from the Navajo Nation. Mr. Yazzie 
has served the Navajo Nation at all levels of government, from 
a local chapter level to the Navajo Nation, and I think ha a 
wealth of experience, particularly in this area. He has chaired 
the Navajo Nation Human Rights Commission and I think has a lot 
to say about this UN Delegation.
    I hope I will be able to be here at the questioning phase, 
but if I am not, I hope that you talk about climate change and 
the impacts we are going to see on indigenous people around the 
world, and impacts you will see there at the Navajo Nation.
    Welcome. It is good to have you here. Please proceed with 
your testimony.
    Thank you, Chairman Akaka.
    The Chairman. I thank you, Senator Udall.

STATEMENT OF DUANE H. YAZZIE, CHAIRPERSON, NAVAJO NATION HUMAN 
                       RIGHTS COMMISSION

    Mr. Yazzie. [Greeting in native tongue.] Thank you, my good 
leaders.
    Senator Udall, I now hold the greater position than all 
that you see on my resume, that of a grandpa and a farmer.
    On behalf of the Navajo Nation Human Rights Commission and 
the Navajo Nation, we thank you for the opportunity to speak 
about how the United Nations Declaration on the Rights of 
Indigenous Peoples will improve current U.S. legislation that 
concerns Native Americans. The Declaration sets the standard to 
guarantee Native Americans the rights to sacred sites. The 
Declaration fills the gaps where U.S. domestic policy and law 
has failed to protect sacred sites.
    We Navajos and many other Native peoples consider the 
Navajo Mountain, Dook'o'oosliid, the San Francisco Peaks, 
located in Arizona, near Flagstaff, as a sacred entity. Since 
2004, the Navajo Nation has litigated for the protection of the 
Peaks pursuant to the American Indian Religious Freedom Act, 
the National Historic Preservation Act, the National 
Environmental Policy Act and the Religious Freedom Restoration 
Act. Although we revere the Peaks as a sacred, single living 
entity, these Federal acts have failed to protect the Peaks 
from desecration and economic exploitation.
    In 2009, the U.S. Supreme Court denied certiorari to the 
Ninth Circuit en banc decision upholding the Coconino National 
Forest Permit authorizing the Arizona Snowbowl Ski Resort to 
use reclaimed water to produce artificial snow for economic and 
recreational purposes. On May 24, 2011, the Snowbowl began 
construction to install a water pipeline for manufacturing 
artificial snow. The Navajo Nation continues to oppose the 
Snowbowl efforts, because the use of wastewater poses great 
concern to us.
    The use of wastewater will contaminate the soil and the 
medicinal vegetation needed to perform ceremonies and prayers. 
The use of wastewater will prevent a Navajo traditional 
medicine person from effectively treating his or her patient.
    The implementation of the Declaration will hold the U.S. 
accountable to its responsibility toward Native Americans. The 
Declaration recognizes Native Americans' possession of distinct 
rights to sacred sites since time immemorial, whereas the 
United States recognizes a few rights post-colonization.
    The Declaration Articles 11 and 12 acknowledge the 
indigenous peoples' rights to protect and access past, present 
and future cultural and Religious sites. Also, the Declaration 
recognizes the right to practice tradition, custom and 
ceremonies. The Peaks constitute one of the four main sacred 
sites to Navajos. Four sacred mountains surround the Navajo 
Nation, and the cultural integrity rests on the four sacred 
mountains remaining pure. If one of the mountains is 
contaminated, it negatively impacts the quality of Navajo life.
    Furthermore, the Declaration Article 24 and 25 recognizes 
the right to traditional medicines and medicinal vegetation, 
and the right to maintain and strengthen the distinctive 
spiritual relationship with the land. Navajos gather 
traditional medicine on the peaks. However, the same vegetation 
may not exist in the future, due to the contamination.
    The Commission and the Navajo Nation advocate for the 
implementation of the Declaration and have identified three 
methods in which the U.S. can implement the Declaration. One, 
ratify the Declaration. Two, integrate the Declaration into 
existing law and policy. And three, legislatively address 
Indian law jurisprudence.
    Ratifying the Declaration will mandate the U.S. to change 
its laws and policies toward Native Americans. Integrating the 
Declaration into existing law will focus substantively on the 
value of sacred sites, instead of placing an undue burden on 
procedure. Also, the Declaration will emphasize international 
policy instead of relying on domestic policy alone.
    Legislatively addressing Indian law jurisprudence will 
repair the disposition of Native American rights to sacred 
sites. While implementing the Declaration creates a challenge, 
the United States must balance its own interests with the 
rights of Native Americans. The United States must respect and 
abide by international law regarding indigenous human rights, 
specifically those that address sacred sites.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Yazzie follows:]

Prepared Statement of Duane H. Yazzie, Chairperson, Navajo Nation Human 
                           Rights Commission

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much, Mr. Yazzie.
    And now we will receive the statement of Melanie Knight, 
Secretary of State from Oklahoma.

   STATEMENT OF MELANIE KNIGHT, SECRETARY OF STATE, CHEROKEE 
                             NATION

    Ms. Knight. Thank you, Mr. Chairman, Senator Udall. Thank 
you both for convening this hearing and giving the Cherokee 
Nation the opportunity to present testimony regarding the 
effects of the UN Declaration on the Rights of Indigenous 
Peoples.
    I am Melanie Knight, Secretary of State for the Cherokee 
Nation. I am here to testify on behalf of over 300,000 citizens 
of the Cherokee Nation.
    The Cherokee Nation applauds President Obama's recent 
decision to endorse the Declaration. However, it is important 
to remember that actions, rather than words, are what will heal 
the centuries of the Government's failed Indian policies. A 
central theme of the UN Declaration is the right of indigenous 
peoples to make the decisions that will shape our cultures, 
traditions, governments and future generations.
    The domestic policy of the United States should support the 
ability of tribal nations to make the decisions that are best 
suited for our own specific needs. The history of the Cherokee 
Nation indicates that tribal governments, when allowed to 
freely govern, are better suited to meet the needs of our 
citizens than the bureaucracy of Federal agencies. I ask that 
this Committee support the President's endorsement of the UN 
Declaration, and ensure that the human rights of indigenous 
peoples living in the United States are respected, protected 
and fulfilled.
    I would like to offer the Committee some positive examples 
of the Cherokee Nation exercising its rights of self-
determination. Self-reliance and economic development is 
imperative to our development. As prescribed in Article 21 of 
the Declaration, indigenous peoples have the right to the 
improvement of their economic and social conditions. We ask 
that the Federal Government uphold this provision by continuing 
to sustain policy that is conducive to economic self-reliance 
of tribes.
    Cherokee Nation has created an economy through diversified 
businesses and those include safety and security, hospitality, 
IT, manufacturing and aerospace. The policies that allow 
business to flourish in Indian Country must be protected and 
advanced by the Federal Government.
    The Nation uses revenue earned from our businesses to 
supplement Federal Government funding for Cherokee programs and 
services. During the last decade, more than 5,000 jobs have 
been created. This allows our citizens to stay in Cherokee 
communities instead of seeking employment outside the Cherokee 
Nation, thereby solidifying community ties and creating 
economic self-reliance for our citizens.
    The revitalization of culture and language is the primary 
purpose of several articles of the Declaration, most prominent 
being in Article 13. The Cherokee Nation invests considerable 
resources and effort into the revitalization of our history, 
language and culture. We ask this Committee to ensure and 
protect our rights through facilitating the inclusion of Native 
language, history and culture throughout all programs and 
activities that affect Indian Country. For instance, policy 
changes are required to enable both public and private schools 
to further language preservation efforts.
    An example of how language preservation can flourish is 
seen in our language immersion school in Oklahoma. Students 
learn math, science and writing and other core subjects, much 
like their counterparts in public schools. But the language of 
instruction is done entirely in the Cherokee language.
    Because the immersion school is currently limited to one 
school, access to resources is needed to allow language 
preservation efforts in the public school system for the more 
than 20,000 Cherokee citizen students who don't attend our one 
school.
    The health of our people continues to be a priority for the 
Cherokee Nation. The Declaration, as described in Article 24, 
supports self-determination in providing the resources and 
support to create positive change in the care of our citizens 
by stating, ``Indigenous peoples have the right to maintain our 
health practices and access to all social and health 
services.'' We ask the Committee to support our efforts to 
increase the quality of health care for our people by removing 
barriers to access to care and increasing health care 
appropriations to support the wellness of our citizens.
    Currently, we have a network of eight outpatient clinics 
and a hospital that provides Native people with primary and 
specialty medical and dental services, as well as other public 
heath programs. We need to remove bureaucratic policy barriers 
that inhibit our ability to truly self-govern and efficiently 
provide health care for our citizens.
    In conclusion, on behalf of the Cherokee Nation, I 
respectfully request that all levels of government become 
informed of the obligations in the Declaration and continue 
taking steps toward ensuring human rights. We do think the 
global community will look to the United States to model the 
way we work to improve the quality of life for Native people 
here. I have seen first-hand what Cherokees can do when we are 
free to determine our own destiny. We must continue to work 
together to improve and advance self-determination in Indian 
Country, so that we can build stronger nations for future 
generations.
    Thank you.
    [The prepared statement of Ms. Knight follows:]

  Prepared Statement of Melanie Knight, Secretary of State, Cherokee 
                                 Nation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much for your statement.
    President Fawn Sharp, how can the United States enhance 
trade relations and conduct commerce by Indian nations?
    Ms. Sharp. I believe that if the United States looks to 
Article 21, Article 36 and Article 37 and allows and embraces 
the notion that Indian tribes can enter into trade and commerce 
outside of the United States with other countries throughout 
the world, that would be a significant step. The Quinault 
Nation looked at carbon sequestration a number of years ago. We 
had an opinion that even though the United States was not a 
signatory to the Kyoto Protocol, we could enter into a trade 
agreement with nations outside of the United States.
    At that time, carbon was being traded on the domestic 
market at about $5 a metric ton. The international market was 
$25 a metric ton. So we believed that with our own resources at 
home, if we had the opportunity to trade freely, within the 
United States and outside of the U.S. economy in this new and 
emerging marketplace, that seeks to reduce the carbon footprint 
throughout the world, it would be a huge, huge step for Indian 
Country.
    The Chairman. I asked you two parts, one of course was how 
can the United States enhance trade relations. Is it working 
fine at this point in time?
    Ms. Sharp. No, it is not. It is not working at this point 
in time. We do have a number of barriers. Take for example our 
timber industry. The U.S., through ESA laws, has significant 
burdens placed on our timber industry. Because our timber 
industry relies on the stumpage values back to the tribe, the 
ability of not only our tribal businesses but individual 
Indian-owned business to enter into the forestry and trade 
business, when there are heightened restrictions on the marbled 
murrelet and spotted owl within our territories, but they don't 
exist outside of Quinault in adjacent lands, we have found that 
those species are now taking refuge on our lands, to our 
detriment.
    So the consequence is we are burdening, we are taking the 
burden for all those other companies to do as they choose. So 
it is not working, and we think that if you look to those 
provisions of the Declaration that I mentioned, as well as some 
domestic laws like the ESA and the unfair and discriminatory 
burdens it places on us, there is a lot of room for 
improvement.
    The Chairman. Thank you very much for your responses.
    Mr. Ettawageshik, in your testimony you state that the 
current Federal recognition process does not meet the 
principles set forth in the Declaration. How might the Federal 
recognition process be improved to meet those principles?
    Mr. Ettawageshik. Thanks for the question. As I think of 
this, I think about this process. As you know, I am the Co-
Chair of the Federal Acknowledgment Task Force for the National 
Congress of American Indians. I have been working on these 
issues for quite a long time. There have been, I myself was the 
former chairman of a tribe that went through the process and 
ended up with legislative, with being recognized through 
legislative efforts as opposed to the administrative process.
    I have been on both side of this as a leader. I have seen a 
lot of other people that have done this. I know that the 
biggest problem that we have seems to be that the process 
assumes at the beginning that we are not a sovereign nation, 
and that the process seems to be one that will, one of granting 
sovereignty, which I don't believe you can do. It needs to be 
one where you are looking at the kinds of questions and the 
things that the tribes are required to meet, a sovereign entity 
would be doing those things. Yet the United States has not been 
acknowledging that sovereignty.
    So therefore, it inhibits the practice of the jurisdiction 
over the peoples that are involved within the tribal citizenry.
    The other problem that we have is that since the process 
has been, to just look at it from the outside and take a look 
at it, right now this process is one that, it seems to be a 
process whose job it is to deny. And if somebody makes it 
through, it is just by luck or by just all the cards just fall 
together just the right way. Pardon the pun on that one.
    What happens is, it is sort of a miracle that anybody makes 
it. And then as soon as somebody does, it is like the system 
changes and adjusts and says, oops, we made a mistake, somebody 
got through, now we have to tighten it up a little more. So 
they keep changing the line. It is like somebody drawing a line 
in the sand and saying, cross that line. Oops, well, you did 
that one, now cross this line. This is what the people who are 
in this process believe.
    So what we look at through the Declaration is the 
Declaration talks about the inherent rights of the indigenous 
peoples and the expectation that they will be treated fairly. 
When you are in a process where an entire generation, sometimes 
two generations of elders die at the tribe while their petition 
for recognition is pending, that is not fair.
    So what has to happen is a more timely process needs to be 
done. It needs to be reviewed. And frankly, I think that we 
have now a very good tool to use, the provisions of the 
Declaration, to be analyzed in the process in light of many of 
these provisions. I can't cite the specific sections, but as I 
have read the Declaration and been involved in it over the 
years, there are many different places in there that intersect 
the recognition process.
    So I would say that this now gives us a tool for that 
review of the process in a way that we haven't done before. I 
think we do need to accomplish that.
    The Chairman. Thank you for your response.
    Mr. Yazzie, do you have specific recommendations on how 
Federal laws can be amended or improved to better comport with 
the ideals expressed in the Declaration, particularly, for 
instance, around protecting the practices around spirituality, 
religion and traditional healing, this area? Do you have 
specific recommendations to improve the Federal law on this?
    Mr. Yazzie. Thank you, Mr. Chairman, I have only one 
recommendation, which is to have the Federal Government hear 
what it is that we say. Oftentimes, too many times throughout 
our relationship, the Federal Government has decided that it 
knows best what is proper for us. When all throughout time, we 
have always known what is best for us. We continue to know what 
is best for us.
    In terms of the protection of sacred sites and any facet of 
our lives that relate to the implementation of the Declaration, 
the Federal Government has to understand what it is that we are 
trying to say. And I believe that that will be the first step 
in making those changes to Federal policy.
    I could not elaborate on the specific steps that need to be 
made. But we certainly have people who can articulate those 
specific measures. Mr. Chairman, we appreciate this 
opportunity.
    The Chairman. Thank you very much, Mr. Yazzie.
    Ms. Knight, how can the Declaration ensure that this era of 
self-determination continues into the future for all indigenous 
people?
    Ms. Knight. Thank you, Mr. Chairman. I have been giving 
some thought in terms of, the United States has made a good 
step with the advent of the 1975 Indian Education and Self-
Determination Act. But very often, nations are still treated as 
vendors, as grantees, as contractors, and not necessarily as 
nations. Units of local government, even, and not necessarily 
as nations.
    So advancement of a true nation to nation policy would be 
one area that I would recommend. There are still barriers to 
true self-determination. While we have the Act, it is not 
completely, fully realized. There are a lot of barriers. It 
also doesn't extend across the Federal Government. So one area 
to look at is, are there other applications of the Self-
Determination Act that can be made in other agencies of the 
Federal Government. There have been studies and proposals done 
to that end.
    Finally, in regard to land and the rights to determine what 
goes on on that land, over a decade ago, the Cherokee Nation, 
along with other of the Five Civilized Tribes, advanced land 
reform policy to change some of the detrimental effects of the 
1906 Act that governs our lands in Oklahoma, that allows for 
adverse possession and allows for other means that lands can go 
out of the hands of Indians. And so policies like that, and I 
am sure there are pieces of legislation that affect other 
tribes across the Country in a similar way, that are 
detrimental to Native peoples holding onto their lands and how 
they are able to conduct activities on those lands should be 
examined. Thank you.
    The Chairman. Thank you very much for your response.
    I want to tell all of the witnesses and those present that 
for me, this has been a great hearing. At least we have brought 
the issue to bear here. And the kind of responses that this 
Committee has received will help us determine where we go next. 
As Ms. Sharp did mention that there are next steps that we need 
to take. We certainly want to do that.
    So what we are doing now is to get ideas from you and put 
this together and see where we go from there. Mr. Yazzie, you 
had a comment.
    Mr. Yazzie. Mr. Chairman, as five-fingered brothers and 
sisters, and with a humble heart, I stand before you with an 
appeal to you and this honorable Committee. On behalf of my 
fellow commissioners, my elders, our children, our generations 
to come, this great Committee has been the champion of Native 
America for many years. We ask that this Committee, that your 
colleagues in this great institution stand with us at this time 
in defense of our earth mother.
    The equilibrium of the earth is precariously out of 
balance. The increasing incidence of so-called natural 
catastrophe and climate change are no accident. They are 
undeniable messages from the earth mother that she grows weary 
of the unrelenting abuse. It may be soon when the earth gives 
us that ultimate disaster, by giving a great convulsive shudder 
when she grows no longer tolerant.
    As Native peoples, as indigenous peoples and keepers of the 
knowledge of the original intent, we are gravely concerned. We 
have something to say, we have something to offer. The key that 
we have may not avert the ultimate and inevitable fate of the 
earth. But what we have, we believe we can help heal the hurt 
and to provide hope for a future.
    Mr. Chairman, western science is not enough. We must be at 
the table. It is our earth, too. And honorable sir, it is our 
life too. Thank you.
    The Chairman. Thank you very much. That was a great 
statement.
    Since we are at the close of this hearing, let me provide 
the opportunity for any other of the panel to speak at this 
time before we adjourn, if you wish to.
    Mr. Ettawageshik?
    Mr. Ettawageshik. These are great words that were just 
spoken. I want to endorse those thoughts and say that we have 
people standing all over this continent for achieving harmony, 
for trying to restore that harmony. We have people, while we 
are speaking, walking for the water right now, walking from the 
four directions, from Hudson Bay down to Lake Superior, from 
Maine west, from Washington State east, from the Gulf of Mexico 
north, carrying water and a eagle staff in each of those four 
directions, all getting ready to meet, and saying prayers for 
all the water that they come along on the way.
    They are doing this, these are grandmothers that are doing 
this. These grandmothers are walking. They walk nearly four 
miles an hour. I have to tell you, it is hard to keep up with 
these ladies. But they are on a mission to help all of us. It 
is not, the water that is there is not water that is any one of 
ours. That water is sacred, and it is all of ours. That water 
is that sacred water of which we heard testimony from my 
brother here, who spoke about the need for the medicines and 
the water that they have.
    This is something that is very important. And something as 
simple as walking carrying a bucket is something that each of 
us can do in our way, in our own hearts and our own lives. This 
is the things that we need to do. This is part of that 
traditional knowledge of which we were speaking when we talk 
about what the Declaration brings to light. We need to be at 
that table, as has been said. We are willing to be there, and 
we have gifts that we are willing to share. We thank you so 
much for this opportunity to share here and to share on the 
record for these things that will be, that can help to be the 
very savior of all of us here on this earth, to help these 
things. It is a perilous time. And I want to just once again 
stand with my brother here who spoke and the words that he 
spoke rang true in my heart and in my being. I feel very 
privileged to have been here to hear him speak.
    The Chairman. Thank you very much for your statement. Yes, 
Ms. Sharp?
    Ms. Sharp. Thank you.
    The last thing I would like to leave this Committee with 
is, again, a recognition of the time and place that we now 
stand. We have had many, many eras, many Presidents contend 
with the Indian issue. We have seen many laws, many policies, 
many regulations, many appropriation of dollars. It has not 
worked to the degree that we need to restore our communities, 
our children, our futures.
    This opportunity to embrace the Declaration in totality is 
the beginning and the only path that we have if we are to see 
this Nation stand behind Indian people and allow us to seize 
our futures and to chart our own course successfully. Until we 
embrace and fully implement those basic principles, it is going 
to continue for centuries more into the future.
    On behalf of the Quinault Nation, again, we thank you so 
much for this opportunity.
    The Chairman. Thank you so much. Ms. Knight?
    Ms. Knight. Mr. Chairman, I would just reiterate my thanks 
for this Committee beginning the dialogue on how to implement 
the UN Declaration, and that we in Indian Country stand ready 
to work with you to determine how to implement this policy, 
whether it involves legislation or policy. Again, our thanks.
    The Chairman. Thank you very much. I want to thank our 
witnesses, and all of our witnesses today for participating in 
today's hearing. I look forward to working with my colleagues 
on this Committee as we take your input to work to implement 
the policy goals expressed in the UN Declaration, so the United 
States may serve as a leader, as a leader and a model for other 
nations.
    So in a way we need to all work together to achieve this, 
and to do it where the rights of indigenous peoples are 
concerned. This is why we are here at this hearing.
    Again, I am repeating, the record is open for written 
testimony for two weeks. I will encourage all of you to submit 
testimony to the record.
    Again, mahalo nui loa, thank you very much. This hearing is 
adjourned.
    [Whereupon, at 4:55 p.m., the Committee was adjourned.]

                            A P P E N D I X

 Joint Prepared Statement of the National Congress of American Indians 
                  and the Native American Rights Fund

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Joint Prepared Statement of the American Civil Liberties Union and the 
                     Human Rights at Home Campaign

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Prepared Statement of Amnesty International USA's Native American and 
                     Alaska Native Advisory Council

    The Honorable Chairman Akaka and Members of the Committee:
    On behalf of Amnesty International USA's Native American and Alaska 
Native Advisory Council, we would like to express our deep appreciation 
and thanks for inviting Amnesty International USA to submit written 
testimony for the hearing held on June 9th, 2011 for ``Setting the 
Standard: Domestic Policy Implications of the UN Declaration on the 
Rights of Indigenous Peoples (UNDRIP).'' As you may know, Amnesty 
International is a world-wide grassroots human rights movement with 
over 3 million members worldwide, and on behalf of nearly half a 
million members here in the U.S., thank you for the opportunity to 
submit written testimony for the Congressional record.
    We applaud the Administration's long-awaited endorsement of the UN 
Declaration on the Rights of Indigenous Peoples this past December 2010 
and the leadership role that President Obama and the Administration 
have taken in addressing the issues that Indigenous populations face 
here in the United States. The U.S. endorsement of the Declaration is a 
long-awaited step in the right direction and demonstrates leadership 
and commitment to upholding and ensuring the universal human rights of 
all peoples. On behalf of Amnesty International, we continue to urge 
the U.S. government's full and unqualified adoption of the human rights 
principles articulated in the UNDRIP. Additionally, we call on Congress 
and the Administration to work in full partnership and consultation 
with Indigenous peoples, tribal governments and nations to best address 
the human rights abuses that Native American and Alaska Native peoples 
face in the U.S.
    There have been many important issues raised around which 
Indigenous issues must be addressed in order to uphold the U.S.'s 
obligations to the UNDRIP. We believe what merits immediate and 
continued attention from the Committee, Congress, and the U.S. 
government, is the ongoing effort to end the horrific rates of sexual 
violence perpetrated against Native American and Alaska Native women 
with impunity.
    The U.S. Federal Government has a legal responsibility under the 
federal trust responsibility to ensure protection of the rights and 
wellbeing of American Indian and Alaska Native peoples. This federal 
trust responsibility is set out in treaties between tribal nations and 
the federal government, further solidified in federal law, federal 
court decisions and policy. It includes the protection of the 
sovereignty of each tribal government. The U.S. government has 
specifically recognized that this responsibility extends to assisting 
tribal governments in safeguarding the lives of Indian women. However, 
the capacity of tribal governments to uphold the rights of their 
citizens is constrained by legal limitations on their jurisdiction 
imposed by federal law and, in many cases, by the fact that the funds 
for the services they deliver are controlled by federal agencies.
    As this Committee knows well, the rates of sexual violence 
perpetrated against Native American and Alaska Native women in the U.S. 
are at epidemic proportions--more than one of three Indigenous women 
will be raped in their lifetimes and the rates of sexual violence 
perpetrated against Indigenous women in the U.S. are 2.5 times higher 
than those of women in the U.S. in general. In order to achieve 
justice, survivors of sexual violence frequently have to navigate a 
maze of federal, state and tribal law. The U.S. Federal Government has 
created a complex interrelation between these three jurisdictions that 
undermines equality before the law and often allows perpetrators to 
evade justice. In some cases this has created areas of effective 
lawlessness which encourages violence. Continued and concerted action 
by the U.S. Congress is necessary to eliminate any possibility that the 
complex jurisdictional rules and legislation in practice may deny 
survivors of sexual violence access to justice.
    The Senate Committee on Indian Affairs has demonstrated its 
leadership on this issue by passing legislation such as Pub. L. 111-
211, the Tribal Law and Order Act of 2010, and by working with the 
Administration to make additional policy changes such as ensuring the 
addition of federal agents and U.S. Assistant Attorney Generals to 
Indian Country, which will begin to help improve public safety and 
ensure justice services to survivors of sexual violence in Indian 
Country. Yet much more remains to be done.
    Amnesty International strongly urges Congress and the 
Administration to continue to prioritize ending sexual violence against 
Native American and Alaska Native women in the U.S. The U.S. government 
has a legal responsibility to ensure the well-being and safety of all 
its citizens. The legacy of abuse, disempowerment and erosion of tribal 
government authority, and the chronic under-resourcing of law 
enforcement agencies and services which should protect Indigenous women 
from sexual violence must be reversed.
    As a starting point for upholding and demonstrating the United 
States' unqualified support and commitment to the UNDRIP, we urge this 
Committee to evaluate and ensure the full and timely implementation of 
Pub. L. 111-211, including by ensuring full funding, resources, and 
agency capacity as necessary and required for full implementation of 
the law. PL 111-211 will begin to address the long-standing public 
safety and justice services disparities in Indian Country, by beginning 
to restore to tribal governments the authority and resources to protect 
their citizens.
    Yet, despite the strides made by Congress and the Administration to 
restore tribal authority, true tribal empowerment and sovereignty will 
not be possible without the reversal of the Supreme Court's 1978 ruling 
on Oliphant vs. Suquamish, which stripped tribal governments of the 
authority to prosecute non-Indian perpetrators for crimes committed on 
tribal lands, and particularly undermines and denies due process and 
equal protection for many Indigenous survivors of sexual violence. We 
therefore urge the US Congress to recognize the concurrent jurisdiction 
of tribal authorities over all crimes committed on tribal land, 
regardless of the Indigenous identity of the accused, including by 
legislatively overriding the U.S. Supreme Court's decision in Oliphant 
v. Suquamish.
    While we recognize the difficulties posed by the current budget 
climate, we further call on Congress to fully support the President's 
FY12 budget request as relevant to the full and necessary funding for 
agencies and programs affecting Indigenous persons in the U.S. This 
includes but is not limited to increased funding for the Indian Health 
Service in order to ensure the timely and appropriate collection of 
forensic evidence, the specific designation of increased appropriations 
for tribal law enforcement training programs, and specific funding 
allocations within the Office of Violence Against Women in the 
Department of Justice to ensure specific analysis, research and data 
collection on violence against Indigenous women and the development of 
a national clearinghouse to provide information and technical 
assistance on violence against Indigenous women.
    Chairman Akaka and the Committee, we are grateful for the 
opportunity to submit written testimony and for your continued 
leadership and partnership with the Indigenous people of the U.S. Both 
Congress and the Obama Administration have demonstrated a renewed 
commitment to addressing the urgent and pressing concerns of Indigenous 
peoples. Endorsement of the UNDRIP further demonstrates commitment and 
the opportunity for the U.S to overcome a long history of injustice. 
Thank you for the Committee's time and consideration.
        *Amnesty International's MAZE OF INJUSTICE--The failure to 
        protect Indigenous Women from Sexual Violence in the USA has 
        been retained in Committee files and can be found at http://
        www.amnestyusa.org/pdfs/MazeOfInjustic.pdf.
                                 ______
                                 
   Prepared Statement of Alan R. Parker, Secretary, United League of 
                           Indigenous Nations

    Chairman Akaka and Members of the Indian Affairs Committee, United 
States Senate, I am pleased to have the opportunity to provide 
testimony to you regarding Implementation of the UN Declaration on the 
Rights of Indigenous Peoples. I am testifying in my capacity as 
``Secretary'' to the United League of Indigenous Nations.
History of the United League of Indigenous Nations
    The United League was formed by Treaty Agreement between U.S. 
Tribal Nations, 1st Nations of Canada, Maori Tribal Nations of New 
Zealand and the Ngerrindjeri Aborigine Peoples of Southwest Australia. 
The United League Treaty was negotiated in August 2007 on the lands of 
the Lummi Indian Nation that are located in NW Washington State. The 
meeting at Lummi was sponsored by the National Congress of American 
Indians who had created a Special Committee on Indigenous Nation 
Relations at their 2005 Annual Conference. I was appointed by the NCAI 
Executive Board to serve as Co-Chair of the Special Committee along 
with Juana Majel, a legislative representative of the Pauma Band of the 
Loisano Indian Nation of Southern California. Juana Majel currently 
serves as the 1st Vice President of the National Congress of American 
Indians. A series of meetings took place between U.S. Tribal delegates 
who served as members of the NCAI Special Committee and representatives 
of other Indigenous Nations of the Pacific Rim. As a result of this 
work, the Special Committee developed a ``draft Treaty Agreement'' 
designed to establish political and economic alliances among the 
Indigenous Nations of the Pacific Rim. A key step in the process 
defining the focus of our work resulted from our deliberations which 
took place in December of 2005 when we met in Whakatane, NZ at the 
invitation of the Mataatua league of Maori Tribal Nations. When this 
group was convened at the Lummi Nation in August 2007, final terms of 
the Treaty were negotiated and signed by representatives of eleven 
nations who had been authorized by their respective governing bodies to 
sign the Treaty and commit their nation to its terms. Since this 
meeting in August 2007, 84 Indigenous Nations have signed the Treaty 
and more are expected to join in the near future.

Historical Background to the UN Declaration
    Mr. Chairman, I am confident that you will hear today from 
witnesses who are more knowledgeable about the Historical Background to 
the Declaration on the Rights of Indigenous Peoples and the steps that 
led to its adoption by a vote of the General Assembly of the UN on 
September 13, 2007. My purpose in providing this testimony on behalf of 
the United League is to provide you with a perspective of Indigenous 
Nations as distinguished from private individuals and organizations who 
have been active in the multiyear effort to develop the language of the 
Declaration. Many of these activist leaders did their work with the 
support of their own Indigenous Communities, such as the Navajo Nations 
and the Iroquois League, and they working through the various Non-
Governmental Organizations (NGO''s) who had been able to gain NGO 
credentials from the UN. No doubt many of these Indigenous Leaders also 
held office within the governing bodies of their communities. While you 
are aware that the history of this work makes it clear that the 
carefully crafted language of the Declaration purposely used the terms 
``Indigenous Peoples'' to refer to the ``Collective'' as well as the 
individual rights and concerns of the Indigenous Peoples in a Global 
Context, I believe that the primary focus and purpose of the ``Working 
Group on the Rights of Indigenous Peoples'' was to address the 
``Collective interests and rights of Indigenous Peoples''.
    Mr. Chairman, you and the members of this Committee are aware that 
U.S. Policy has, from the beginnings of the founding of this Nation, 
recognized the proper legal and political status of U.S. Tribal 
Nations. The U.S. Constitution provides for the development of Treaty 
Relationships between the United States and Tribal Nations. As we know, 
a Nation State doesn't enter into treaties with individuals or Non-
Governmental Organizations but with other nations. The Commerce clause 
of the U.S. Constitution also authorizes the Executive Branch of the 
United States to regulate ``Commerce'' between the States and with the 
U.S. Tribal Nations. Beginning with its Cherokee Nation vs. Georgia 
decision of 1832, the U.S. Supreme Court has recognized and defined the 
U.S. Tribal Nations as ``domestic dependent nations'' possessing 
``inherent rights of sovereignty'' such as may be necessary to govern 
their own lands and people. Consequently, I would like to turn now and 
address the distinctive questions and issues raised by your hearing on 
the topic of ``Implementing'' the UN Declaration.
    In November of 2010, it was my privilege to participate in the work 
of the Cultural Concerns and the Law and Governance Committees of the 
Nations Congress of American Indians during the time that they were in 
session at their 2010 Annual Meeting in Albuquerque, NM. I assisted in 
the drafting of what is now known as Resolution #ABQ-1-064. (A copy of 
the resolution is attached to my testimony) This NCAI Resolution is 
entitled: ``Calling for the United States to Endorse the United Nations 
Declaration on the Rights of Indigenous Peoples''. Prior to the 
November meeting of the NCAI, I had the opportunity to serve as an 
advisor to the Affiliated Tribes of Northwest Indians, a regional 
organization of 54 Tribal Nations, at their 2010 annual meeting. During 
this meeting in Spokane, Washington, I drafted the text of their 
resolution on the UN Declaration which was subsequently adopted by the 
NCAI Cultural Concerns Committee.
    In the 7th ``Whereas clause'' of the NCAI resolution, it provides. 
. .

        WHEREAS, at the Department of State Consultation session in 
        July (2010) in Washington DC, the Lummi Nation was requested by 
        the Department of Interior, without objections from the 
        Department of State, to secure a coordinated national legal 
        position of Indian Country as to recommendations and 
        justification for securing U.S. Support for the Declaration and 
        developed the following recommendations with the concurrence of 
        the Affiliated Tribes of Northwest Indians: (1) President Obama 
        should create a National Commission comprised of American 
        Indian and Alaska Native leaders, as well as representatives of 
        the Departments of State, Interior and Justice to develop a 
        plan for implementing the Declaration; (2) The Obama 
        Administration should recommend to the UN that they modify 
        their practice and policy of treating Indigenous Nation 
        delegates to UN functions as NGO representatives, and instead 
        should create a special category of Indigenous Nation 
        Governmental Representatives with the rights and privileges of 
        submitting their views and testimony directly to UN Agencies; 
        and (3) The Obama Administration should request that the laws 
        and standards known as Intellectual Property and administered 
        by the World Intellectual Property Organization of the UN 
        should be adjusted to accommodate the concerns of Indigenous 
        Peoples regarding their unique cultural resources; and. . .(the 
        resolutions continues)

        The NCAI resolution, # ABQ-10-064, concludes by calling upon 
        President Obama to officially change the position of the United 
        States and accept and support the Declaration, not merely as an 
        ``aspiration'' but as obligatory principles of International 
        Law. The Resolution then, in a later paragraph, calls for the 
        development of a Native American & Alaska Native Commission to 
        develop recommendations for implementation of the provisions of 
        the Declaration and address their relevance to the duties and 
        responsibilities of the different federal departments and 
        independent agencies of the Federal Government.

    Mr. Chairman, I believe that your hearing is an important step in 
the process of developing the future policies of this United States 
government. By joining with President Obama who, during his meeting 
with Tribal Leaders in Washington, DC on December 16, 2010, expressed 
to the assembled Tribal Leaders that he had decided to change the 
position of the U.S. to one of supporting the UN Declaration. I 
recommend that your Committee inform President Obama that you have also 
reviewed the recommendations of the National Congress of American 
Indians and that you agree with their proposal that a Joint Commission 
on Implementation be established as soon as reasonably possible. The 
Declaration was not meant to be simply a piece of paper, it is meant to 
serve as a ``Standard'' whereby the laws and policies of the United 
States should be reviewed and examined. The task of conducting such an 
examination should not take years and years; it should be done 
carefully and expediently. It should be done in a manner that provides 
opportunity for U.S. Tribal Nations and their people to work together 
with the Administration and the U.S. Congress to address the 
recommendations of the Joint Commission on Implementation. Thank you 
again for the opportunity to submit this testimony and I would be 
pleased to respond to any questions you may have,

    Attachment

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 
     Prepared Statement of the International Indian Treaty Council

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
   Prepared Statement of the Black Hills Sioux Nation Treaty Council

    Greetings from the traditional legal government of the Lakota Oyate 
that has governed the Lakota people since before the time of Europeans 
in our territory and the period of colonization. We govern with the 
support of our people. Our authority comes from the Creator who 
provided us with Original Instructions for living on the lands set 
aside for the Lakota Oyate.
    Through our work on the Declaration on the Rights of Indigneous 
Peoples (``the Declaration''), this same authority is acknowledged 
under 21st century international law based our right to self-
determination and with free, prior and informed consent as set forth in 
Articles 1, 2, 3 and 19 of the Declaration on the Rights of Indigenous 
peoples.
    Further, as set forth in our submittal ``Resolution of the Black 
Hills Sioux Nation Treaty Council Rejection of the United States' 
Statement of U.S. Support for the United Nations Declaration on the 
Rights of Indigenous Peoples'' (``Rejection of U.S. Statement''), of 
January 19, 2011, we reject and refuse to acknowledge any limits on our 
rights which utilize Federal Indian Law, including these Congressional 
Hearing by the Senate Committee on Indian Affairs. Federal Indian Law, 
its exercise, and its institutionalization are wholly discriminatory, 
racist and exercised with the intention to do harm to the Lakota people 
and our territory in violation of the Declaration and other 
international standards, laws, and treaties, including the Fort Laramie 
treaties of 1851 and 1868.
    Indian Reorganization Act governments (``the IRA'') were illegally 
installed on our territories utilizing force and deception and maintain 
their ``authority'' only at the will of the United States government, 
its money, weapons and citizenry that continue to permit human rights 
violations. On the Pine Ridge Territory of the Lakota Oyate no less 
than three ``elections'' were held and all of them defeated the IRA. 
Nonetheless, the IRA was forcibly installed. This is a violation of 
Articles 18 and 19 and makes any collaboration with or presentation by 
IRA government to the United States government a violation of our 
``right to participate in decisionmaking in matters which would affect 
[our] rights, through representatives chosen by [us] in accordance with 
[our] own procedures,as well as to maintain and develop [our] own 
indigenous decisionmaking institutions.'' (Declaration Article 18)
    IRA governemnts are, in fact, no different than any of the colonial 
governments imposed upon peoples around the world during Euro-American 
conquests of the 15th, 16th, 17th, 18th, 19th and 20th centuries. This 
governments do not comply with the right of self-determination or the 
right to free, prior and informed consent. Therefore, consultations, 
hearings, discussions or any other form of meaningless input, on a 
government-to-government basis, between the IRA governments of the 
United States and the Congress of the United States, are by definition 
violations of the contents of the Declaration. Further, the Lakota 
Nation has internationally recognized treaties with the Untied States. 
Congressional, government-to-government hearings, violate the nation-
to-nation status of our relationship with the United States under the 
Fort Laramie Treaties of 1851 and 1868.
    The Declaration is the minimum standard acceptable to the Lakota 
people who have worked at the United Nations on this issue since 1975. 
The current attempts of the United States to appear to ``support'' the 
Declaration are nothing more than the same pattern of ``ripe and rank . 
. . dishonorable dealings'' (U.S. Court of Claims) employed by the 
invented nation of the United States since its incorporation in the 
18th century. The United States, frequently defeated in battle (at 
least by the Lakota, Cheyenne and Arapahoe alliance of nations), had to 
invent such fictions as ``plenary power'', ``dependent domestic 
nations'', the Dawes Act, the Citizenship Act, the Removal Act, the 
Indian Reorganization Act, and the Relocation Act, all to deny Indian 
people our rights under any standard of fair play, justice and 
international law. This latest deception, involving the Declaration, is 
nothing more than an attempt to domesticate the provisions of the 
Declaration within the meaning of U.S. domination, racism, colonialism 
and environmental degradation in order to steal resources.
    Additional evidence is seen in the fact that at the same time that 
the United States engages in fraudulent Congressional Hearings, 
corporations are on our territory preparing to further contaminate our 
water and destroy our land with the poisons of uranium mining. If the 
United States were truly interested in any provisions of the 
Declaration this would not be occurring. Yet, it is not only happening 
on this very day, it is the policy of the same Administration that has 
stated its ``support'' for the Declaration. This is a violation of 
Articles 25, 26, 27, 28, 29 and 30 of the Declaration. Is the United 
States of American and its people capable of ever ending the lies and 
deceit? What possible motive can we, as Lakota people, see but human, 
environmental and cultural genocide?
    Finally, we address our brothers and sisters who participate in 
this process with the United States. We urge us all to remember our 
history, to hear the voices of our ancestors who died during the 
American Holocaust, and to take a stand on behalf of the generations to 
come. Reject the lies and stand with your people.
                                 ______
                                 
    Joint Prepared Statement of the Metis National Council and the 
     International Organization of Indigenous Resource Development

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Prepared Statement of Hon. Eni F.H. Faleomavaega, U.S. Representative 
                          from American Samoa

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Prepared Statement of D'Shane Barnett, Executive Director, National 
                     Council of Urban Indian Health

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Prepared Statement of Jeffrey A. Crawford, Attorney General, Forest 
                      County Potawatomi Community

    The Forest County Potawatomi Community (FCPC) wishes to thank the 
Committee for the opportunity to present testimony on the domestic 
policy implications of the United Nations Declaration on the Rights of 
Indigenous Peoples (hereafter the Declaration). We also thank Chairman 
Akaka for his call to us and all those who care about these issues to 
consider what specific legislation is needed so that the United States 
can truly support the Declaration. We believe that although the 
adoption of the Declaration was an important step forward, of equal 
importance is what steps we take next.
    As we noted in our comments to Ambassador Rice on July 15, 2010 and 
October 29, 2010, the Declaration is fundamentally consistent with the 
law and policy of the United States. See letters of July 15, 2010 and 
October 29, 2010 from Douglas Endreson to Ambassador Susan E. Rice 
(expressing the commenting Tribes' support for the U.S. endorsement of 
the Declaration). The law and policy of the United States are 
characterized by two fundamental tenets: the government-to-government 
relationship between the United States and tribes and the policy of 
self-determination. This framework underscores the importance of our 
ability to make decisions for ourselves.
    Sadly and all too often the United States has fallen short of its 
duties and obligations to Indian tribes. But it is not our purpose here 
to focus on the past. Instead, the Declaration sets the standard for 
what our nations' relationship can and should be. The adoption 
signifies a new step in the shared story of our nations. We look 
forward to working together with the United States to realize the 
future envisioned by the United States' legal framework and the 
Declaration.
    FCPC is a federally recognized tribe with a government-to-
government relationship with the United States. We are organized under 
the Indian Reorganization Act of 1934 and exercise governmental 
authority under a Constitution originally adopted in 1937. We have a 
membership of more than 1,200 people to whom we provide services in 
numerous areas that include natural resources, environmental 
protection, education, health services, cultural resources, and 
emergency management.
    While working to support our people culturally, socially, and 
economically, we often encounter barriers from other government 
organizations. The Declaration offers a framework for identifying those 
barriers and creating new pathways to enable tribal governments to 
function more efficiently. We have identified a few such areas that are 
of particular concern to us, but these examples are not exhaustive. We 
look forward to working with Congress to improve our ability to serve 
our people in all the domains of our Tribal government.

1. Environmental Policy: Resource Management
    Our land base includes a Reservation of over 12,000 acres located 
in northern Wisconsin and trust lands in Milwaukee, Wisconsin. The 
Nicolet National Forest, which encompasses 661,000 acres and includes 
many water sources, including springs and lakes, largely surrounds our 
Reservation. Further, the Headwaters National Wilderness Area is within 
ten miles of the Reservation, while a State Wildlife management area 
adjacent to the eastern portion of the Reservation contains spring 
ponds, secluded lakes, and many historically and culturally significant 
properties.
    We are very committed to the conservation and development of our 
common resources in order to promote the welfare of our members and our 
descendants. We believe that the health and integrity of the land and 
all its components cannot be separated from the health and continued 
existence of the Potawatomi people. In order to ensure the continued 
health of our land, our Natural Resources department is aggressively 
involved in the stewardship of our natural resources. Among our other 
efforts, we have taken on the regulation of our air and water 
resources.
    The current policy of the United States recognizes our rights to 
control such domains as tribal governments. For instance, the Clean Air 
Act and the Clean Water Act make provisions for tribes to take over 
monitoring duties, should they so choose. Further, President Obama 
recently recommitted his Administration to the goal of involving tribes 
in policy and regulatory decisions when he reinvigorated Executive 
Order 13175 Consultation and Coordination with Indian Tribal 
Governments. 65 FR 67249, November 9, 2000. This Executive Order, 
recognizing the unique government to government relationship between 
the United States and tribes and the sovereign powers exercised by 
tribes over their land and members, requires the Federal Government to 
``encourage Indian tribes to develop their own policies;'' ``where 
possible, defer to Indian tribes to establish standards;'' and ``in 
determining whether to establish Federal standards, consult with tribal 
officials as to the need for Federal standards and any alternatives 
that would limit the scope of Federal standards or otherwise preserve 
the prerogative sand authority of Indian tribes.'' Id. Sec. 3 (c)(1-3). 
The Declaration ensures similar rights, recognizing that tribes ``have 
the right to own, use, develop and control the lands, territories and 
resources that they possess by reason of traditional ownership or other 
traditional occupation or use, as well as those which they have 
otherwise acquired.'' Declaration, art. 26.
    Although United States' policy and the Declaration both strongly 
support a tribe's ability to manage its own resources, there are still 
barriers to our ability to truly take control of our own land. For 
instance, our Tribe recently went through the process of designating of 
our Reservation as a Clean Air Act Class I area. We felt strongly that 
this was necessary to protect our land and resources which form the 
basis of not only the health of our territory but also the health of 
our peoples. Although we were eventually able to succeed in designating 
the areas as Class I, it took us 13 years from start to finish to 
achieve the Class I status. Such a time delay demonstrates that we have 
not yet achieved full control over our natural resources. In order to 
truly live up to the standards of the Declaration, the United States 
must work to remove the barriers that continue to stand in the way of 
true self-determination.

2. Environmental Policy: International Cooperation
    As evidenced by many international agreements and compacts, the 
environment and its concerns do not respect international borders. 
Although we have exercised our regulatory authority over the land and 
resources within our borders, we cannot truly address the needs of our 
people for healthy ecosystems and environments without working closely 
with the international community at our borders.
    Much of the current legal framework recognizes our place at the 
table: as already mentioned, many environmental statutes make 
provisions for tribal stewardship of our resources. The Declaration 
supports these efforts by providing that indigenous peoples ``have the 
right to the conservation and protection of the environment and the 
productive capacity of their lands or territories and resources. States 
shall establish and implement assistance programmes for indigenous 
people for such conservation and protection, without discrimination.'' 
Declaration, art. 29.
    In order to meet the calls of both United States statutes and the 
Declaration, we must participate with our international neighbors in 
addressing the conservation of our resources. In order to do so, the 
United States must secure access for a tribal presence in any 
discussion or negotiation on these issues and recognize tribal 
governments' indispensable part in the process. This entails 
recognizing our international ties and relations and allowing us free 
movement across borders. It also means a strong effort on the part of 
the United States to both always be cognizant of the needs of tribes 
when they negotiate on these issues and perhaps more importantly, 
ensuring a seat for tribes at any such negotiation.
    We depend on our natural resources for the economic, cultural, and 
spiritual health of our Tribe. We have much to offer in the pursuit of 
our common goal of protecting the health of our land. But in order to 
do so, in order to meet the needs of our people, and in order to be 
able to fully exercise our rights under the governing statutes and the 
Declaration, the United States must recognize our place at the table. 
Only together can we achieve success.

3. Land Leasing Capabilities
    As all nations know, communities cannot flourish without strong 
economies. The economic health of our peoples is, thus, of paramount 
importance to us and we are proud of the steps we have taken thus far 
to build a strong economy. We are committed to ensuring its continued 
vitality, but in order to do so we must be free to seize economic 
opportunities.
    The United States has recognized the importance of tribal economic 
self-determination. Starting with the Indian Self-Determination and 
Educational Assistance Act, the United States policy has been to 
encourage economic development and self-sufficiency, including the 
Indian Gaming Regulatory Act, 25 U.S.C.   2701 et seq., and the 
Native American Business Development, Trade Promotion and Tourism Act, 
25 U.S.C.   4301 et seq.
    The Declaration also recognizes the importance of economic 
stability, providing indigenous peoples the right to ``maintain and 
develop their . . .economic . . .systems or institutions, to be secure 
in the enjoyment of their own means of subsistence and development, and 
to engage freely in all their traditional and other economic 
activities.'' Declaration, art. 20. But as the Declaration also 
recognizes, the ability to exercise such rights is not ensured simply 
through recognition of the right. See arts. 38, 39. Instead there must 
be assurance that barriers preventing the exercise of such rights will 
be addressed by States. Thus, the Declaration provides that indigenous 
peoples must ``have access to financial and technical assistance from 
States and through international cooperation, for the enjoyment of the 
rights contained in this Declaration.'' Id. art. 39.
    One such barrier to economic self-determination is addressed in a 
bill that was recently introduced, the Helping Expedite and Advance 
Responsible Tribal Homeownership Act (HEARTH Act) of 2011, which would 
expand our ability to lease tribally-owned land, especially for the 
development of economic opportunities. The bill would help accelerate 
leasing opportunities with economic partners and will eliminate the 
risk of losing opportunities due to the lengthy approval process 
currently in place. By doing so, it will help fuel our economy. We are 
strong supporters of the HEARTH Act and thank Vice Chairperson Barrasso 
for his work on such an important issue. We urge all the members of the 
Committee and Congress to work together to ensure this legislation 
achieves its goals.
    In order to build a strong economy, we must have the cooperation of 
the United States. Tribes must have the right to freely negotiate with 
economic partners and we cannot be constrained by requirements that 
limit our ability to enter into contracts or require that we receive 
approval from the Bureau of Indian Affairs before proceeding forward.
    As history has taught us, tribes do better when we make decisions 
for ourselves. This is true across the myriad of functions and services 
we perform for our people. Although we consider the United States a 
valued partner in our efforts, we ultimately must chart our own course. 
The Declaration provides a valuable reiteration of the fundamental 
principles embodied in the law and policy of the United States. We look 
forward to working with Congress to fully realize the promises of those 
fundamental principles.
    Once again, we thank you for the opportunity to submit this 
testimony.
                                 ______
                                 
  Prepared Statement Hon. Kevin C. Keckler, Chairman, Cheyenne River 
                              Sioux Tribe

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
          Prepared Statement of the Puyallup Tribe of Indians

    The Puyallup Tribe of Washington wishes to thank the Committee for 
the opportunity to present testimony on the domestic policy 
implications of the United Nations Declaration on the Rights of 
Indigenous Peoples (hereafter the Declaration). We also thank Chairman 
Akaka for his call to us and all those who care about these issues to 
consider what specific legislation is needed so that the United States 
can truly support the Declaration. We believe that although the 
adoption of the Declaration was an important step forward, of equal 
importance is what steps we take next.
    As we noted in our comments to Ambassador Rice on July 15, 2010 and 
October 29, 2010, the Declaration is fundamentally consistent with the 
law and policy of the United States. See letters of July 15, 2010 and 
October 29, 2010 from Douglas Endreson to Ambassador Susan E. Rice 
(expressing the commenting Tribes' support for the U.S. endorsement of 
the Declaration). The law and policy of the United States are 
characterized by two fundamental tenets: the government to government 
relationship between the United States and tribes and the policy of 
self-determination. This framework underscores the importance of our 
ability to make decisions for ourselves.
    Sadly and all too often the United States has fallen short of its 
duties and obligations to Indian tribes. But it is not our purpose here 
to focus on the past. Instead, the Declaration sets the standard for 
what our nations' relationship can and should be. The adoption 
signifies a new step in the shared story of our nations. We look 
forward to working together with the United States to realize the 
future envisioned by the United States' legal framework and the 
Declaration.
    The Puyallup Tribe is a federally recognized Tribe located in 
Pierce County, Washington along the shores of Commencement Bay, a large 
inlet of Puget Sound. The history of relations between the United 
States and our Tribe is spotted, but in recent decades we have made 
great strides forward achieving recognition of our Treaty rights, 
restoring our Tribal land base, and developing programs to better serve 
our members.
    The Reservation consists of approximately 28 square miles in Pierce 
County, and includes the city of Fife and portions of the city of 
Tacoma. Today, the Tribe has more than 4000 members. Further, in 
addition to serving our members, we serve more than 25,000 Native 
Americans from over 355 federally recognized tribes and Alaskan 
villages, who, due to the Indian relocation program of the 1940s and 
1950s, now call the area on and around the Puyallup Reservation home. 
These services include law enforcement services, elder services, health 
care services, and educational services.
    While working to support our people culturally, socially, and 
economically, we often encounter barriers from other government 
organizations. The Declaration offers a framework for identifying those 
barriers and creating new pathways to enable tribal governments to 
function more efficiently. We have identified a few such areas that are 
of particular concern to us, but these examples are not exhaustive. We 
look forward to working with Congress to improve our ability to serve 
our people in all the domains of our Tribal government.

        a) Environmental Policy

    As evidenced by many international agreements and compacts, the 
environment and its concerns do not respect international borders. 
Although we have exercised our regulatory authority over the land and 
resources within our borders, we cannot truly address the needs of our 
people for healthy ecosystems and environments without working closely 
with the international community at our borders.
    Much of the current legal framework recognizes our place at the 
table: For instance, both the Clean Air Act and the National 
Environmental Protection Act make provisions for tribal stewardship of 
our resources. The Declaration supports these efforts by providing that 
indigenous peoples ``have the right to the conservation and protection 
of the environment and the productive capacity of their lands or 
territories and resources. States shall establish and implement 
assistance programs for indigenous people for such conservation and 
protection, without discrimination.'' Declaration, art. 29.
    In order to meet the calls of both United States statutes and the 
Declaration, we must participate with our international neighbors in 
addressing the conservation of our resources. In order to do so, the 
United States must secure access for a tribal presence in any 
discussion or negotiation on these issues and recognize tribal 
governments' indispensable part in the process. This entails 
recognizing our international ties and relations and allowing us free 
movement across borders. It also means a strong effort on the part of 
the United States to both always be cognizant of the needs of tribes 
when they negotiate on these issues and perhaps more importantly, 
ensuring a seat for tribes at any such negotiation.
    We depend on our natural resources for the economic, cultural, and 
spiritual health of our Tribe. We have much to offer in the pursuit of 
our common goal of protecting the health of our land. But in order to 
do so, in order to meet the needs of our people, and in order to be 
able to fully exercise our rights under the treaty governing statutes 
and the Declaration, the United States must recognize our place at the 
table. Only together can we achieve success.

        b) Economic Opportunities

    Our Tribe is proud to be in the process of developing a new 
international container terminal facility that, when fully constructed, 
will be the largest in the Pacific Northwest. Our ability to take on 
such a project was facilitated by the historic Settlement Agreement 
between our Tribe, the Port of Tacoma, the State of Washington, several 
local county and city governments and the United States and was enacted 
by Congress. Puyallup Tribe of Indians Settlement Act of 1989, Pub.L. 
No. 101-41 (codified at 25 U.S.C.   1773 et seq.). This agreement 
included a provision recognizing the right of our Tribe to engage in 
foreign trade consistent with Federal law. We anticipate developing 
relationships with international trade partners in the Pacific Rim and 
around the world and are very excited about the economic opportunities 
this gives us.
    Again, much of the current legal framework seeks to enable such 
ventures. Starting with the Indian Self-Determination and Educational 
Assistance Act, the United States policy has been to encourage economic 
development and self-sufficiency, including the Indian Gaming 
Regulatory Act, 25 U.S.C.   2701 et seq., and the Native American 
Business Development, Trade Promotion and Tourism Act, 25 U.S.C.   
4301 et seq. More recently, Congress enacted a law expanding our 
ability to lease tribally-owned land, especially for the development of 
economic opportunities. Pub.L. 111-336. This law will help accelerate 
leasing opportunities with national and global partners and will 
eliminate the risk of losing opportunities due to the lengthy approval 
process currently in place. By doing so, it will help fuel our economy.
    The Declaration also recognizes the importance of economic 
stability, providing indigenous peoples the right to ``maintain and 
develop their . . . economic . . . systems or institutions, to be 
secure in the enjoyment of their own means of subsistence and 
development, and to engage freely in all their traditional and other 
economic activities.'' Declaration, art. 20. But as the Declaration 
also recognizes, the ability to exercise such rights is not ensured 
simply through recognition of the right. See arts. 38, 39. Instead 
there must be assurance that barriers preventing the exercise of such 
rights will be addressed by States. Thus, the Declaration provides that 
indigenous peoples must ``have access to financial and technical 
assistance from States and through international cooperation, for the 
enjoyment of the rights contained in this Declaration.'' Id. art. 39.
    In order to pursue economic opportunities such as the container 
facility, we must have the cooperation of the United States. Our 
ability to enter into trade agreements depends on the continued 
reduction of barriers like those created by the original land leasing 
structure. Tribes must have the right to freely negotiate with economic 
partners and we cannot be constrained by requirements that limit our 
ability to enter into contracts or require that we receive approval 
from the Bureau of Indian Affairs before proceeding forward. With 
regard to accessing Capital to move forward with these ventures, 
Congress should seek to expand tribal bonding authority and increase 
investment into tribal infrastructure, including roads and 
telecommunications.

        c) Social and Behavioral Health: Addressing the Problem of 
        Gangs

    Our Reservation has not remained immune from the gang problems 
afflicting many urban areas in America today. We take seriously the 
provision of public safety in all of our communities, and we have met 
this current challenge through public safety programs, educational 
outreach, and social and behavioral health programs. Our efforts, 
especially in the public safety domain, however, are subject to the 
jurisdictional realities of our Reservation. There are six overlapping 
jurisdictions within our borders--Tacoma, Fife, Milton, Puyallup, 
Edgewood, and Federal Way.
    As is true with other public safety concerns, addressing the gang 
problem will take a concerted effort from all the stakeholders and 
community members. Gang members move freely between jurisdictions, and 
thus, to be effective, all six jurisdictions must work together 
productively. Faced with this reality, we are proud to be part of the 
county multi-jurisdictional team working to ensure the safety of our 
communities. Currently, we have six officers working on this team and 
two officers who work on steering committees to address gang issues.
    Such efforts are clearly supported by United States law, which 
states that in the absence of federal statutes limiting it, tribal 
criminal jurisdiction over our members within our Territory is 
complete, inherent, and exclusive. See Ex parte Crow Dog, 109 U.S. 556 
(1883). Although Congress has stepped in from time to time to limit 
this jurisdiction, tribes today remain vital providers of law 
enforcement in Indian Country. In fact, Congress recently highlighted 
the importance of tribes in the public safety domain by passing the 
Tribal Law and Order Act which, among other things, increased the 
tribal court sentencing authorities where certain conditions are met 
and allowed deputizations of tribal police officers to enforce federal 
law on reservations. Tribal Law and Order Act of 2010, Pub.L. 111-211. 
The Declaration by recognizing the importance of these rights, pushes 
the United States to not only acknowledge the rights of tribes in 
theory but to put those rights into practice. See Declaration, arts. 4, 
7, 34.
    Our voluntary cross-jurisdictional work with our neighbors is an 
important step, one that recognizes the vital and equal role tribes 
play in the provision of public safety. However, there is still more to 
be done, especially at the federal level, to ensure the ability of 
tribes to provide safe and secure communities. One step forward in this 
effort would be to pursue the President's suggestion of streamlining 
funding to tribes for Office of Justice Programs by initiating 
meaningful consultation with tribes regarding the program development 
and allocation methodology of the funding on the FY 2012 for CJS 
Programs.
    As history has taught us, tribes do better when we make decisions 
for ourselves. This is true across the myriad of functions and services 
we perform for our people. Although we consider the United States a 
valued partner in our efforts, we ultimately must chart our own course. 
The Declaration provides a valuable reiteration of the fundamental 
principles embodied in the law and policy of the United States. We look 
forward to working with Congress to fully realize the promises of those 
fundamental principles.

        d) Ensuring Our Rights to Our Land

    Our tribe is organized pursuant to the Indian Reorganization Act 
(IRA). We adopted our Constitution in 1936 (Puyallup) 1937 (FCPC). As 
noted earlier, we provide many governmental services to our peoples and 
are recognized by the Federal Government as a tribe possessing inherent 
sovereign powers. Our ability to act as such, however, is threatened by 
the decision of the United States Supreme Court in Carcieri v. Salazar, 
555 U.S.___(2009), which that the Secretary of the Interior did not 
have the authority to take land into trust for the Narragansett Tribe 
of Rhode Island because that Tribe was not ``under federal 
jurisdiction'' in 1934.
    The Carcieri decision is fundamentally at odds with the fundamental 
principles of the government-to-government relationship and tribal 
self-determination. It is also at odds with the long history of 
Congressional and Executorial policy following the passage of the IRA. 
The purpose of the IRA was to stop the policy of allotment which was 
decimating tribal land holdings, rebuild the former tribal land base, 
and ensure a future of self-determination for tribes. The trust 
relationship between the United States government and tribal 
governments is one of the main vehicles to fulfilling these goals. By 
limiting the ability of the government to take lands into trust to only 
certain tribes, the Court seriously threatened the ability of all 
tribes to perform essential services for their people, from public 
safety to education to health care.
    The Carcieri decision is also fundamentally at odds with the 
Declaration. The Declaration recognizes first, that indigenous peoples 
have the right to the lands, territories and resources which they have 
traditionally owned, occupied or otherwise used or acquired. Dec. art. 
26. The Declaration further recognizes the rights of indigenous peoples 
to ``a fair, independent, impartial, open and transparent process . . . 
to recognize and adjudicate the rights of indigenous people pertaining 
to their lands, territories and resources, including those which were 
traditionally owned or otherwise occupied or used.'' Id. art. 27. 
Finally, the Declaration recognizes that indigenous peoples have the 
``right to redress, by means that can include restitution or, when this 
is not possible, just, fair, and equitable compensation, for the lands, 
territories and resources which they have traditionally owned or 
otherwise occupied or used, and which have been confiscated, taken, 
occupied, used or damaged without their free, prior and informed 
consent.'' Id. art. 28.
    The lands that are being taken into trust by the Department of the 
Interior are lands that were, prior to allotment, owned by indigenous 
peoples. One of the purposes of the IRA was to stop the wholesale 
decimation of Indian lands that occurred under allotment. And to 
suddenly reverse a policy course which has been followed for 75 years 
and dramatically reduce the rights of indigenous peoples to their 
traditional lands is fundamentally not fair, it's not open, and it's 
not transparent.
    Congress has the power to reverse this mistake and we thank 
Chairperson Akaka for introducing S. 676 and his work on this important 
matter. We call on all the members of the Committee and Congress to 
come together to support this important legislation, which will bring 
our law back in line with the fundamental tenets of Federal Indian law 
and in line with the Declaration.
    Once again, we thank you for the opportunity to participate in this 
discussion.
                                 ______
                                 
Prepared Statement of Robert Odawi Porter, President, Seneca Nation of 
                                Indians

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
           Prepared Statement of the U.S. Department of State

    On December 16, 2010, at the second White House Tribal Nations 
Conference, President Barack Obama announced that the United States was 
lending its support to the UN Declaration on the Rights of Indigenous 
Peoples (the ``Declaration''). The President stated that ``[t]he 
aspirations it affirms--including the respect for the institutions and 
rich cultures of Native peoples--are one[s] we must always seek to 
fulfill.'' The Administration also released a document, which was 
referenced in the President's announcement, titled ``Announcement of 
U.S. Support for the United Nations Declaration on the Rights of 
Indigenous Peoples--Initiatives to Promote the Government-to-Government 
Relationship & Improve the Lives of Indigenous Peoples''--about U.S. 
support for the Declaration and the Administration's ongoing work in 
Indian Country. The text of this statement can be found at: http://
www.state.gov/documents/organization/153223.pdf
Background on the UN Declaration on the Rights of Indigenous Peoples
    The Declaration was drafted under the auspices of the United 
Nations and involved representatives of member states, indigenous 
peoples, and other stakeholders.
    On September 13, 2007, the United Nations General Assembly adopted 
the Declaration by a vote of 143 in favor and four against. Eleven 
countries abstained from the vote (Azerbaijan, Bangladesh, Bhutan, 
Burundi, Colombia, Georgia, Kenya, Nigeria, Russian Federation, Samoa, 
and Ukraine) and 34 countries did not participate. The United States, 
Australia, Canada, and New Zealand voted against adoption of the 
Declaration.
    In the last few years, all four countries that voted ``no'' have 
changed their position. Samoa and Colombia have also lent their support 
to the Declaration.
    As explained in the Announcement document that accompanied 
President Obama's remarks, the Declaration is ``not legally binding or 
a statement of current international law'' but has ``both moral and 
political force.'' It expresses both the aspirations of indigenous 
peoples around the world and those of States in seeking to improve 
their relations with indigenous peoples.
The U.S. Review of its Position on the Declaration
    The decision to review the U.S. position on the Declaration came in 
response to calls from many tribes, individual Native Americans, civil 
society, and others in the United States, who believed that U.S. 
support for the Declaration would make an important contribution to 
U.S. policy and practice with respect to Native American issues. This 
message was delivered by many people in many contexts but, perhaps most 
importantly, tribal leaders expressed this view directly to President 
Obama and other senior Administration officials at the White House 
Tribal Nations Conference on November 5, 2009.
    On April 20, 2010, at the United Nation's Permanent Forum on 
Indigenous Issues, Ambassador Susan Rice, the Permanent Representative 
of the United States to the United Nations, announced that the United 
States would undertake a review of its position on the Declaration and 
that it would do so in consultation with Indian tribes and with the 
input of interested nongovernmental organizations.
    In reviewing the Declaration, all interested U.S. Government 
agencies had an opportunity to review the text of the document and 
provide their views on whether the United States should support it. 
Each agency was asked to compare the instrument to U.S. laws, 
regulations, policies and practices in its area to determine the degree 
to which the provisions of the instrument were already reflected in 
those laws, regulations, policies and practices or could be in the 
future.
    Because of the subject of the Declaration, in conducting their 
reviews of the Declaration U.S. agencies consulted extensively with 
tribal leaders. The agencies held three rounds of consultations, one in 
Rapid City, South Dakota, and two in Washington, D.C. In addition, the 
agencies conducted outreach to indigenous organizations, civil society, 
and other interested individuals. Tribal leaders and others contributed 
to the review through their attendance at the consultation and outreach 
sessions, participation in those sessions by means of conference calls, 
and written submissions. In total, over 
3,000 written comments were received and reviewed.
    The conclusion of the interagency review was that the United States 
could support the Declaration so long as that support was accompanied 
by appropriate understandings as set forth in the ``Announcement of 
U.S. Support for the United Nations Declaration on the Rights of 
Indigenous Peoples--Initiatives to Promote the Government-to-Government 
Relationship & Improve the Lives of Indigenous Peoples'' referenced by 
President Obama in his statement of U.S. support for the Declaration.
U.S. Support for the Declaration
    As described above, the UN Declaration was adopted by a vote of the 
UN General Assembly in 2007. There will not be another vote on the 
Declaration. Therefore, countries that have changed their position on 
the Declaration since 2007 have done so via public announcements of 
their new positions. President Obama's announcement on December 16, 
2010, and the accompanying Announcement document cited above, are the 
official U.S. statement of support for the Declaration. No further 
steps are required to indicate that the U.S. supports the Declaration.
    U.S. support for the Declaration goes hand-in-hand with the U.S. 
commitment to address the many challenges faced by Native Americans 
throughout the United States. That commitment is reflected in the many 
policies and programs that are being implemented by U.S. agencies in 
response to concerns raised by Native Americans, including concerns 
about poverty, unemployment, environmental degradation, health care 
gaps, violent crime, and discrimination.
Conclusion
    The Department of State appreciates this opportunity to submit 
written testimony to the Committee on the important issue of U.S. 
Support for the UN Declaration on the Rights of Indigenous Peoples.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 
   Prepared Statement of Velda Shelby, Citizen of the Ktunaxa Nation

    Please accept my personal testimony as part of the United States 
Senate Committee on Indian Affairs hearing on the United Nation's 
Declaration on the Rights of Indigenous Peoples. My name is Velda 
Shelby and I reside on the Flathead Reservation in Montana. I am a 
citizen of the Ktunaxa Nation enrolled with the Confederated Salish and 
Kootenai Tribes. The Ktunaxa Nation also known as the Kootenai Tribe 
consists of about 7,500 citizens who possess a distinct unique culture, 
an isolate language and family ties. Our nation is indigenous to the 
Rocky Mountain corridor of North America. The key issue I seek 
resolution to is border crossing jurisdiction for aboriginal peoples 
whose lands were severed by the U.S. Canadian International Border.
    To achieve resolution, we must first restore the Ktunaxa Nation. 
Prior to the founding of the United States of America and the country 
of Canada, the Ktunaxa were a unified nation. With the establishment of 
the U.S. Canadian border in 1818, our independent sovereign nation was 
severed resulting in countless human rights violations amassed over the 
past two centuries. Essentially, as citizens of these foreign 
countries, our sovereign and aboriginal rights are not recognized and 
we are treated as immigrants and have become second class citizens in 
our own homelands!
    Mr. Chairman, I respectfully appeal to your wise counsel to assist 
the Ktunaxa Nation in addressing this grave injustice. My people only 
recently began to speak English, my grandmother, the late Adeline 
Mathias uttered her first English word in 1918 and her parents had no 
use for English. Just as we were not properly represented in the 1855 
Territory of Washington treaty negotiations, the Ktunaxa were not 
accorded civil or human rights in the taking of their homelands. With 
the political and geographic division of our peoples, we are severely 
disenfranchised and exploited in every way by all levels of government 
imposed on us.
    Our nation has been decimated by foreign intervention and 
generations of Ktunaxa have suffered the consequences. My understanding 
of the UN Declaration on Indigenous Populations before you is that it 
calls for recognition of the rights of indigenous peoples. This 
includes the right to redress when lands, territories, or resources of 
Native nations have been taken without their informed consent. Mr. 
Chairman, based on all accounts, my ancestors were simply denied the 
opportunity to gave their informed consent. Furthermore, it was 
impossible to render their consent due to the aforementioned language 
barrier.
    A few weeks ago, you posed a question to the Tribal leaders who 
provided expert testimony at the Senate Committee hearing. I would like 
to respond to your inquiry of a proposed course of action to resolve my 
particular issue. I would like to develop a bilateral international 
agreement with the United State of America and Canada to set forth the 
principles of human rights through a uniform policy that recognizes and 
upholds the geopolitical jurisdiction of the Ktunaxa Nation. This 
international policy will lay out the procedures required to make our 
Nation whole again. Specifically, our nation state will be defined 
territorially so we are no longer considered immigrants in our own 
aboriginal lands. Then as the constructs of sovereignty dictate, our 
citizen's rights will be further validated through self-rule or self-
governance whereby we will form a representative government to fully 
restore the Ktunaxa Nation. We must reclaim our independence to fully 
realize and exercise our aboriginal rights and civil liberties.
    The Ktunaxa Nation comprised of all seven bands (Klitqat Wumlat, 
Yakannuki, Akinqumlasnuqli't, Aquam, Ksanka, Aqankmi, and Akisq'nuk) 
will then charter a course for our future with full recognition and the 
cooperation of both the United States of America and Canada. As a 
nation, we will embark on true self determination to serve as the true 
ambassadors of our homeland and continue our stewardship of the land 
while representing Ktunaxa interests. This will be a new beginning for 
my people who have suffered for the past 200 years as a fragmented 
Nation. Just as the African nations, the Arab Spring and the Maoris 
have exercised their sovereignty to free themselves from subjugation 
and foreign rule, we Ktunaxa would like the opportunity to formally 
organize ourselves back into the great Nation we once were prior to 
contact.
    Chairman Akaka, I hope your powerful committee will accept this 
response as logical resolution to our immediate problems as indigenous 
peoples of North America. History proves that we cannot afford to 
delude ourselves with the false hope that foreign governments represent 
our interests. I personally believe that the answer to every single 
problem we encounter lies within ourselves as Kootenai people. Until 
the great Ktunaxa Nation is restored to exercise sovereignty to the 
fullest extent, we have no protections of indigenous rights as the 
first nation of these lands. Therefore, I urge the U.S. Senate 
Committee on Indian Affairs to revisit the fundamental rights of 
indigenous nations as you apply the proposed human rights protections.
    Perhaps, we can form a subcommittee to advise on the restoration of 
severed nations as a starting point to adopting the UN Declaration 
before you. I believe the Ktunaxa stands prepared to manage their own 
affairs and we are ready and able to come to the table to resolve the 
jurisdictional issues associated with the US Canadian international 
border.
    Mr. Chairman, let us take this Declaration of Human Rights for 
Indigenous Peoples and empower our indigenous nations to restore our 
inherent and sovereign rights. Now, my question back to you Chairman 
Akaka, will you stand with us?
    Thank you for allowing this opportunity to express my concerns and 
to propose a solution for the Ktunaxa Nation of North America. Taxas.
                                 ______
                                 
     Prepared Statement of Vivian Ainoa, President, Papa Ola Lokahi

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Prepared Statement of Stacy Deacon, Administrative Assistant, Alaska 
                            Newspapers Inc.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Prepared Statement of Hon. Dennis L. McDaniels, Elder Chief, Madesi 
                      Band of the Pit River Tribe

    I would like to say, on the Rights of indigenous people, ``We have 
a Right! ''
    I can't take my problems to the Bureau of Indian Affairs or the Pit 
River Council. So, I have no Right.
    I don't know where to start with all of the violations. BIA, the 
Pit River Council, I don't like pointing fingers at any one. I would 
like to see an audit on the Pit River Council and use a world's leading 
investigative firm, like Kroll Associates, to look at its past business 
dealings under the duo. That would be a start. That way you could see 
what is wrong and fix it.
    Thank you.
                                 ______
                                 
  Prepared Statement of Micah McCarty, Chairman, Makah Tribal Council

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Prepared Statement of the Haudenosaunee Confederacy, Onondaga Nation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Prepared Statement of Tavis Sanders (RedTail Hawk ThunderBird), Co-
                           founder of InDEED

    The black population in the United States share a unique yet 
omitted history which spans thousands of years in North America. This 
unique history at present date has been lost even to the indigenous 
people to whom it relates.
    The story of the brown skinned people in the United States did not 
begin with the African slave trade as many believe; rather it began in 
ancient times with a people, who eventually over time, became known as 
The Mound Builders. These dark to light skinned indigenous people of 
North America built various styles of mounds made of dirt for burial, 
ceremonial and religious purposes. The last of the Mound Building eras, 
which was called the Mississippian Era, has been attributed to ending 
during the time of colonial settlement--around 1700.
    Many of these indigenous peoples, because of slavery, laws being 
created, and polices being implemented, were stripped of their identity 
and culture and reclassified as Black. In recent times we, the 
indigenous people of the United States, have once again begun to rise 
up and invest in the promotion of our history and culture.
    However, we face the daunting task of not only hurdles of the legal 
and political processes, we also endure an on going and basic disregard 
of our very existence. To quote the words of President Obama on May 
19th, 2011, ``How can one negotiate with a party that has shown itself 
unwilling to recognize your right to exist?"
    We hope that the United States Senate Committee will give the 
recommendation to acknowledge, respect and hold these fundamental 
principals for all the Indigenous communities, here in the United 
States and around the world.
    Thank you
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
